<html>
<title> - H.R. 2176, TO PROVIDE FOR AND APPROVE THE SETTLEMENT OF CERTAIN LAND CLAIMS OF THE BAY MILLS INDIAN COMMUNITY; AND H.R. 4115, TO PROVIDE FOR AND APPROVE THE SETTLEMENT OF CERTAIN LAND CLAIMS OF THE SAULT STE. MARIE TRIBE OF CHIPPEWA INDIANS.</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
 H.R. 2176, TO PROVIDE FOR AND APPROVE THE SETTLEMENT OF CERTAIN LAND 
 CLAIMS OF THE BAY MILLS INDIAN COMMUNITY; AND H.R. 4115, TO PROVIDE 
  FOR AND APPROVE THE SETTLEMENT OF CERTAIN LAND CLAIMS OF THE SAULT 
                STE. MARIE TRIBE OF CHIPPEWA   INDIANS.

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                      Wednesday, February 6, 2008

                               __________

                           Serial No. 110-57

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                    U.S. GOVERNMENT PRINTING OFFICE
40-622                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Dean Heller, Nevada
Peter A. DeFazio, Oregon             Bill Sali, Idaho
Maurice D. Hinchey, New York         Doug Lamborn, Colorado
Patrick J. Kennedy, Rhode Island     Mary Fallin, Oklahoma
Ron Kind, Wisconsin                  Vacancy
Lois Capps, California               Vacancy
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, February 6, 2008......................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     5
    Heller, Hon. Dean, a Representative in Congress from the 
      State of Nevada............................................     3
        Prepared statement of....................................   123
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan..........................................     4
        Prepared statement of....................................     5
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     1
        Prepared statement of....................................     2
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................    24
        Prepared statement of....................................    25

Statement of Witnesses:
    Artman, Carl, Assistant Secretary--Indian Affairs, U.S. 
      Department of the Interior, Washington, D.C................    51
        Prepared statement of....................................    52
    Berkley, Hon. Shelley, a Representative in Congress from the 
      State of Nevada............................................    39
        Prepared statement of....................................    41
    Cantu, Hon. Fred, Chief, Saginaw Chippewa Indian Tribe, Mt. 
      Pleasant, Michigan.........................................   100
        Prepared statement of....................................   102
        Letter submitted for the record..........................   104
    Conroy, Joe, Director of Governmental Operations, City of 
      Flint, Michigan............................................   105
        Prepared statement of....................................   106
    Conyers, Hon. John, Jr., a Representative in Congress from 
      the State of Michigan......................................    37
        Prepared statement of....................................    38
    Dingell, Hon. John D., a Representative in Congress from the 
      State of Michigan..........................................     6
        Prepared statement of....................................    10
        Port Huron Times Herald article, ``Casino foe mailings 
          scrutinized,'' dated February 5, 2008, submitted for 
          the record.............................................    11
        Engler, Hon. John M., Former Governor, State of Michigan, 
          Letter dated June 23, 2004, to Chairman Pombo and 
          Ranking Member Rahall. and Sault Ste. Marie Settlement 
          Agreement..............................................    18
    Kilpatrick, Hon. Carolyn C., a Representative in Congress 
      from the State of Michigan.................................    25
        Prepared statement of....................................    28
    Kilpatrick, Hon. Kwame, Mayor, City of Detroit, Michigan.....    91
        Prepared statement of....................................    96
    Lambert, Hon. Alan R., Mayor, City of Romulus, Michigan......    78
        Prepared statement of....................................    79
    Miller, Hon. Candice S., a Representative in Congress from 
      the State of Michigan......................................    33
        Prepared statement of....................................    35
    Parker, Hon. Jeffrey D., President of the Executive Council, 
      Bay Mills Indian Community, Brimley, Michigan..............    62
        Prepared statement of....................................    63
        Statement, Letters and Addendum submitted for the record.    67
    Payment, Hon. Aaron, Chairman, Sault Ste. Marie Tribe of 
      Chippewa Indians, Sault Ste. Marie, Michigan...............    71
        Prepared statement of....................................    73
    Rogers, Hon. Mike, a Representative in Congress from the 
      State of Michigan..........................................    29
        Prepared statement of....................................    32
    Stupak, Hon. Bart, a Representative in Congress from the 
      State of Michigan..........................................    19
        Prepared statement of....................................    21
        Letter from Hon. Bart Stupak, Hon. Candice Miller, and 
          Hon. John Dingell submitted for the record.............    16
        Official Ballot submitted for the record.................    49
    Thompson, Hon. Bennie G., a Representative in Congress from 
      the State of Mississippi...................................    42
        Prepared statement of....................................    43
    Tomion, Karl S., City Manager, City of Port Huron, Michigan..    80
        Prepared statement of....................................    81

Additional materials supplied:
    Boike, Edward, Wayne County Commissioner, Wayne County, 
      Michigan, Statement and letter submitted for the record....    13
    Chapman, Raymond, President and Business Manager, Bricklayers 
      and Allied Craftworkers, Letter submitted for the record...    15
    Cleland, Charles E., Distinguished Professor Emeritus of 
      Anthropology, Michigan State University, Statement 
      submitted for the record...................................    67
    Deuman, Leanne Barnes, Attorney at Law, Sault Ste. Marie, 
      Michigan, Statement submitted for the record...............    22
    Devlin, Patrick J., CEO, and Patrick F. Gleason, President, 
      Michigan Building and Construction Trades Council, Letter 
      submitted for the record...................................   110
    Granholm, Hon. Jennifer, Governor, State of Michigan, Letter 
      submitted for the record...................................   111
    Groden, Shaun S., County Administrator/Controller, County of 
      St. Clair, Michigan, Letter submitted for the record.......   113
    Kay, Earl, Chairman, Chippewa County Commissioners, Sault 
      Ste. Marie, Michigan, Letter submitted for the record......    22
    Kewaygoshkum, Hon. Robert, Tribal Chairman, The Grand 
      Traverse Band of Ottawa and Chippewa Indians, Statement 
      submitted for the record...................................   114
    Miklojcik, Jacob, President, Michigan Consultants, Statement 
      submitted for the record...................................   122
    Sault Ste. Marie Tribe, Legal History submitted for the 
      record.....................................................   125
    List of documents retained in the Committee's official files.   124
                                     



   LEGISLATIVE HEARING ON H.R. 2176, TO PROVIDE FOR AND APPROVE THE 
 SETTLEMENT OF CERTAIN LAND CLAIMS OF THE BAY MILLS INDIAN COMMUNITY, 
  AND H.R. 4115, TO PROVIDE FOR AND APPROVE THE SETTLEMENT OF CERTAIN 
     LAND CLAIMS OF THE SAULT STE. MARIE TRIBE OF CHIPPEWA INDIANS.

                              ----------                              


                      Wednesday, February 6, 2008

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 2:01 p.m. in Room 
1324, Longworth House Office Building, Hon. Nick J. Rahall, 
[Chairman of the Committee] presiding.
    Present: Representatives Rahall, Young, Kildee, 
Abercrombie, Christensen, Napolitano and Heller.

STATEMENT OF THE HONORABLE NICK J. RAHALL, II, A REPRESENTATIVE 
          IN CONGRESS FROM THE STATE OF WEST VIRGINIA

    The Chairman. The Committee on Natural Resources will come 
to order. The Committee is convening today as one big, happy 
family to hold a hearing on H.R. 2176 introduced by our dear 
friend and colleague, Bart Stupak; and H.R. 4115, sponsored by 
the Dean of the House of Representatives, the very 
distinguished, honorable, capable and very dear friend, 
Chairman John Dingell.
    These bills seek to settle certain land claims of the Bay 
Mills Indian Community and the Sault Ste. Marie Tribe of 
Chippewa Indians in the State of Michigan. The genesis of these 
bills date back to 1807 when the Chippewa ceded much of what is 
now the State of Michigan in a treaty with the Governor of the 
Michigan Territory.
    Subsequent treaties ensued in 1817, 1820, 1836 and 1855. In 
the case of both the Bay Mills and the Sault, the 1855 Treaty 
of Detroit set aside land to be reserved for their use. Shortly 
after that treaty was concluded, the United States Land Office 
allowed that very land to be sold to non-Indian speculators.
    Hence began a 153 year odyssey before a settlement 
agreement was entered into by Michigan, the Bay Mills and the 
Sault, and in doing so cleared the land title cloud that has 
hung over the residents of the Charlotte Beach area. Under the 
agreement with the Bay Mills, which is supported by the current 
Governor of Michigan, Jennifer Granholm, the tribe would 
relinquish their land claims at Charlotte Beach and instead 
would be able to take into trust land at Port Huron, Michigan.
    Under the agreement with the Sault Ste. Marie, which is 
also supported by Governor Granholm, the tribe would relinquish 
their land claims at Charlotte Beach and instead would be able 
to take into trust lands at either Flint, Monroe or Romulus, 
Michigan. In this regard, let me state that there is no 
administrative process for these tribes to go through.
    Only the U.S. Congress can extinguish Indian title to land. 
We are not setting any precedent here as Congress has on 
several occasions enacted tribal land claim settlement 
legislation. Now, I have set out the facts, the historical 
record regarding these two tribes and their Charlotte Beach 
land claims.
    I do believe that the deliverance of justice is on the side 
of these two tribes and the legislation that we are hearing 
today. With that noted, there are ramifications to the 
enactment of these bills beyond delivering justice to these two 
tribes, and I look forward to hearing all those views during 
this hearing.
    Before recognizing our Ranking Minority Member, Mr. Heller, 
I do want to recognize a former chairman of our committee, then 
called the Resources Committee, who is with us today, Mr. 
Richard Pombo, and a former chief of staff on the committee, 
Steve Ding. Welcome, gentlemen. We are glad to have you in the 
audience today.
    I now recognize the acting Ranking Member, Mr. Heller.
    [The prepared statement of Mr. Rahall follows:]

       Statement of The Honorable Nick J. Rahall, II, Chairman, 
                     Committee on Natural Resources

    The Committee on Natural Resources is convening today to hold a 
hearing on H.R. 2176, introduced by our colleague Bart Stupak, and H.R. 
4115, sponsored by the Dean of the House of Representatives, the 
distinguished Chairman John Dingell.
    These bills seek to settle certain land claims of the Bay Mills 
Indian Community and the Sault Ste. Marie Tribe of Chippewa Indians in 
the State of Michigan.
    The genesis of these bills dates back to 1807, when the Chippewa 
ceded much of what is now the State of Michigan in a treaty with the 
Governor of the Michigan Territory.
    Subsequent treaties ensued in 1817, 1820, 1836 and in 1855.
    In the case of both the Bay Mills and the Sault, the 1855 Treaty of 
Detroit set aside land in what is now known as Charlotte Beach for 
their exclusive use.
    However, shortly after that treaty was concluded, the United States 
Land Office allowed that very land to be sold to non-Indian 
speculators.
    Hence began a 153 year odyssey that the legislation before us seeks 
to resolve.
    The two bills we are hearing today would implement a settlement 
agreement entered into by the Governor of Michigan, the Bay Mills and 
the Sault, and in doing so, clear the land title cloud that has hung 
over the residents of the Charlotte Beach area.
    Under the agreement with the Bay Mills, which is supported by the 
current Governor of Michigan, Jennifer Granholm, the tribe would 
relinquish their land claims at Charlotte Beach and instead would be 
able to take into trust land at Port Huron, Michigan.
    Under the agreement with the Sault Ste. Marie, which is also 
supported by Governor Granholm, the tribe would relinquish their land 
claims at Charlotte Beach and instead would be able to take into trust 
land at either Flint, Monroe or Romulus, Michigan.
    In this regard, let me state that there is no administrative 
process for these tribes to go through. Only the U.S. Congress can 
extinguish Indian title to land. And we are not setting any precedent 
here, as Congress has on several occasions enacted tribal land claim 
settlement legislation.
    I have set out the facts, the historical record, regarding these 
two tribes and their Charlotte Beach land claims. I do believe that the 
deliverance of justice is on the side of these two tribes, and the 
legislation we are hearing today.
    With that noted, certainly there are ramifications to the enactment 
of these bills beyond delivering justice to these two tribes, and I 
look forward to hearing all views during this hearing.
                                 ______
                                 

  STATEMENT OF THE HONORABLE DEAN HELLER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Mr. Heller. Thank you, Mr. Chairman. I want to begin by 
thanking you for agreeing to have hearings on these bills and 
proceed with regular order. As one of those who requested this 
procedure, I appreciate the consideration. As we know, H.R. 
2176, H.R. 4115 would settle two Native American land claims in 
Michigan for tribes currently with claims in northern portions 
of the state.
    Those two tribes want land taken into trust for gaming 
further south, about 300 miles away. I have real concerns that 
these bills have significant negative effects on existing law 
already in need of reform. Off-reservation Indian gaming has 
become a highly controversial matter. These two bills sharply 
divide members of both parties in Michigan, divide local Native 
American tribes, and divide this committee and other members of 
the House.
    Finally, these bills circumvent the existing procedure in 
place to approve of tribal gaming and trample states' rights on 
this issue. For all of these reasons, they are bad bills and 
should be opposed. Coming from Nevada I obviously support 
gaming including Michigan's right to have gaming so its 
expansion is not the issue.
    The issue is off-reservation gaming is highly controversial 
and divisive for communities, and what we do in this committee 
has clear national repercussions. Circumventing existing laws 
on the matter IGRA has far reaching consequences. Make no 
mistake, passing these bills is circumventing IGRA.
    The unprecedented congressional approval of off-reservation 
gaming will set off shockwaves across the Nation and among 
tribes. Dozens of tribes with no gaming facilities will see 
this move as yet another green light to set up in nearly any 
economically viable location. Other tribes with gaming on 
historical land may want a new location for their facility in 
order to remain competitive.
    The door to off-reservation gaming has been opened wider 
with each passing year, and these bills kick it open for a 
nationwide explosion of Indian casinos in nearly any location. 
Numerous states have already fought off this off-reservation 
matter. This committee has done work to reform this law in the 
past and should do so again instead of continuing the status 
quo.
    IGRA is now 20 years old, and perhaps we should take a good 
look at it before passing these bills. IGRA wisely allows for 
states to take the lead on these issues, for tribal state 
compacts to be negotiated and for the Department of the 
Interior and BIA to play proper oversight roles. These bills 
wipe all that away without any close understanding of Michigan 
law.
    I would object to this committee's trampling Nevada law, as 
I think most members would of their own states. The mission 
delegation is deeply divided over this issue and not along 
party lines. Why should we force something so divisive without 
more time to address it without a closer understanding of state 
law?
    I understand House Judiciary Chairman Conyers says the 
Michigan law is being ignored on this matter. Even the tribes 
in Michigan are divided. I join the members of this committee 
who support the rights of Native Americans including those 
rights under IGRA. Nevada has a number of casinos owned and 
operated in part or whole by tribes, but we are treating some 
differently than others by approving this reservation's 
shopping.
    Additionally, the rights of the State of Michigan are 
clearly being circumvented as well. Michigan law is being 
trumped by the fact that we here in this committee are going to 
make law that should be set by the state as already set forth 
in IGRA. Approving these bills is de facto approving the gaming 
compacts for Michigan, documents we have not read or examined 
and which have had little or no discussion.
    I find that hard to swallow. Is this committee prepared to 
do the oversight needed to grant gaming compacts? Nevada has 
procedures in place to ensure high ethical standards are used 
when granting gaming licenses, and I assume Michigan does as 
well. Are we going to assume that responsibility, that 
liability, those efforts on this issue in place of the State of 
Michigan?
    I urge the defeat of these bills because they are simply 
bad policy in so many ways, are controversial matters that have 
not been vetted appropriately and they are divisive for tribes, 
our colleagues throughout Congress and many of our 
constituents.
    Mr. Chairman, thank you, and I yield back.
    The Chairman. The Chair thanks the gentleman from Nevada 
for his comments and recognizes the gentleman from Michigan, 
Mr. Kildee, the sponsor of one of the bills and a very valued 
member of our Committee on Natural Resources.

STATEMENT OF THE HONORABLE DALE E. KILDEE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Kildee. Thank you, Mr. Chairman, and thank you for 
having this hearing. Mr. Chairman, I intend to support both 
H.R. 4115 and H.R. 2176 when the Committee marks them up next 
week. In the past, Mr. Chairman, I have stated my strong policy 
concerns with similar off-reservation gaming legislation, 
particularly when the land in question was far away from the 
existing reservation and on the ancestral treaty lands of 
another tribe.
    The people of my home town of Flint, Michigan, have voted 
both against a casino in 1994 and for a casino in 2004. Mr. 
Chairman, even after the 2004 vote by the people of Flint, 
Michigan, in favor of a casino I expressed my policy misgivings 
about these measures in a letter to this committee in 2006.
    However, there are several factors, both before and after 
my 2006 letter, that when taken together have led me to 
reconsider my position on these bills. First, in 2002, then 
Michigan Governor John Engler signed separate agreements 
between the Sault Ste. Marie Tribe and the Bay Mills Tribe in 
order to settle the disputed land claims near Charlotte Beach.
    Second, in 2003, the Flint City Council approved a 
resolution supporting an Indian casino that was followed in 
2004 by the people of Flint voting in favor of a citywide 
referendum to support bringing an Indian casino to Flint, 
Michigan.
    Third, in November 2007, the present Governor of Michigan, 
Jennifer Granholm, amended and reaffirmed these agreements and 
has expressed strong support for these bills. Finally, as a 
congressman from Flint, Michigan, I have to consider the 
continued economic realities of my home town.
    Therefore, in light of all these factors, particularly the 
reaffirmation of the settled agreement by Governor Granholm and 
Flint's continued economic difficulties, I have been moved to 
reconsider my position, and I will support these bills in 
committee and support these bills on the Floor.
    I yield back the balance of my time, Mr. Chairman.
    [The prepared statement of Mr. Kildee follows:]

  Statement of Dale E. Kildee, a Representative in Congress from the 
                           State of Michigan

    MR. CHAIRMAN, I INTEND TO SUPPORT BOTH H.R. 4115 AND H.R. 2176 WHEN 
THE COMMITTEE MARKS THEM UP NEXT WEEK.
    IN THE PAST, I HAVE STATED MY STRONG POLICY CONCERNS WITH SIMILAR 
OFF-RESERVATION GAMING LEGISLATION, PARTICULARLY WHEN THE LAND IN 
QUESTION WAS FAR FROM THE EXISTING RESERVATION AND ON THE ANCESTRAL 
TREATY LANDS OF ANOTHER TRIBE.
    THE PEOPLE OF MY OWN HOMETOWN OF FLINT, MICHIGAN HAVE VOTED BOTH 
AGAINST A CASINO [IN 1994] AND FOR A CASINO [IN 2004].
    MR. CHAIRMAN, EVEN AFTER THE 2004 VOTE BY THE PEOPLE OF FLINT IN 
FAVOR OF A CASINO, I EXPRESSED MY POLICY MISGIVINGS ABOUT THESE 
MEASURES IN A LETTER TO THIS COMMITTEE IN 2006.
    HOWEVER, THERE ARE SEVERAL FACTORS, BOTH BEFORE AND AFTER MY 2006 
LETTER, THAT WHEN TAKEN TOGETHER, HAVE LED ME TO RECONSIDER MY POSITION 
ON THESE BILLS.
    FIRST, IN 2002, THEN MICHIGAN GOVERNOR JOHN ENGLER SIGNED SEPARATE 
AGREEMENTS BETWEEN THE SAULT STE. MARIE TRIBE AND THE BAY MILLS TRIBE 
IN ORDER TO SETTLE THE DISPUTED LAND CLAIMS NEAR CHARLOTTE BEACH.
    SECOND, IN 2003, THE FLINT CITY COUNCIL APPROVED A RESOLUTION 
SUPPORTING AN INDIAN CASINO. THAT WAS FOLLOWED IN 2004 BY THE PEOPLE OF 
FLINT VOTING IN FAVOR OF A CITY-WIDE REFERENDUM TO SUPPORT BRINGING AN 
INDIAN CASINO TO FLINT.
    THIRD, IN NOVEMBER 2007, THE PRESENT GOVERNOR, JENNIFER GRANHOLM, 
AMENDED AND REAFFIRMED THESE AGREEMENTS AND HAS EXPRESSED STRONG 
SUPPORT FOR THESE BILLS.
    FINALLY, AS THE CONGRESSMAN FROM FLINT, MICHIGAN, I HAVE TO 
CONSIDER THE CONTINUED ECONOMIC REALITIES OF MY HOMETOWN.
    THEREFORE, IN LIGHT OF ALL OF THESE FACTORS, PARTICULARLY THE 
REAFFIRMATION OF THE SETTLEMENT AGREEMENTS BY GOVERNOR GRANHOLM AND 
FLINT'S CONTINUED ECONOMIC DIFFICULTIES, I HAVE BEEN MOVED TO 
RECONSIDER MY POSITION.
    I WILL SUPPORT THESE BILLS.
                                 ______
                                 
    The Chairman. I thank the gentleman.
    Gentlelady from the Virgin Islands wish to make an opening 
statement?

       STATEMENT OF THE HONORABLE DONNA M. CHRISTENSEN, 
         A DELEGATE TO CONGRESS FROM THE VIRGIN ISLANDS

    Ms. Christensen. Yes, I do. Just a brief one, Mr. Chairman. 
I thank you for holding this hearing. I also want to welcome my 
good friend, Mayor Kilpatrick, the other mayors, the President 
and Chairman of the tribes, and of course, my Michigan 
colleagues, as well as the other distinguished panelists who 
have traveled here today for this hearing.
    This is a very difficult and complex hearing issue before 
us today. While I can understand the desire and the need for 
the State of Michigan to resolve the claim on Charlotte Beach 
by the Sault Ste. Marie Band of Chippewa and Bay Mills Indians, 
I do have very grave concerns about the settlement agreement 
that we are being asked to ratify in this hearing today as a 
person who has always stood for and in support of our Indian 
tribes in this country.
    However, I am very clear that there must be a settlement to 
satisfy what is due to the tribes. I do not feel that this is 
the way to go. This settlement, as I see it, would jeopardize 
the economic security of Detroit, a city that is heavily black 
and is beginning to see a resurgence under the leadership of 
Mayor Kilpatrick largely due to the revenues from the current 
casinos in that city which stand to lose under this agreement.
    Both tribes already have casino gaming, and their members 
are benefitting from its profits. So this, as I see it, is not 
really an economic issue for them, it is an issue of a 
settlement that needs to be put in place. It is an economic 
issue for the City of Detroit. I am very interested in hearing 
the testimony before us today, but at the end of the day the 
test that we have to meet is that we do no harm.
    I think that the bills before us today, while well-
intentioned, do not really meet that test, Mr. Chairman. 
Thanks.
    The Chairman. Thank you, Donna.
    No further opening statements from Committee members, the 
Chair will now proceed to recognizing our witnesses and the 
lead off witness, whom I have already introduced, the Dean of 
the House of Representatives and my good friend, Chairman John 
Dingell.

STATEMENT OF THE HONORABLE JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, I thank you for this 
extraordinary courtesy to us, and I thank you for your 
friendship. I also want to thank Ranking Member Young and the 
members of this committee, especially my dear friend, Mr. 
Kildee, from Flint. I want to thank you for holding this 
hearing today and for listening to the merits of the proposal.
    I want to also thank Mayor Alan Lambert of Romulus, 
Michigan, and Aaron Payment of the Sault Ste. Marie Chippewa 
Tribe of Indians, for taking time from their busy schedule to 
be here with us today. I also want to thank my dear friend, 
Candice Miller, for her work on this issue, and of course, my 
very dear friend, Bart Stupak, for his tireless efforts to 
settle the very legitimate land dispute in this matter.
    Mr. Chairman, I ask you at this time to extend my remarks 
in the record in order to save the time of the Committee.
    The Chairman. Without objection. Chairman, apologize, just 
a minute. All member statements will be made a part of the 
record as if actually read, and every member, feel free to 
proceed as you desire.
    Mr. Dingell. First of all, Mr. Chairman, I am delighted to 
appear here on behalf of H.R. 4115 and the other bill, H.R. 
2176, the first by myself, the second by my dear friend, Mr. 
Stupak, and Ms. Miller. I would note if you read the title of 
these bills it says to provide for and approve the settlement 
of certain land claims of the Sault Ste. Marie Tribe of 
Chippewa Indians. That is in H.R. 4115.
    In H.R. 2176, the purposes of the bill are set forth to 
provide for and approve the settlement of certain land claims 
of the Bay Mills Indian Community. I would note for the benefit 
of some of my colleagues here who may perhaps not have read the 
bills that nowhere in this legislation appears authority for 
the Indians to engage in gambling.
    As a matter of fact, gambling is not mentioned in either of 
the bills, although there are certain gambling interests that 
oppose these legitimate pieces of legislation for the 
resolution of important questions in Michigan approved by two 
Governors, a Republican, Mr. Engler, and a Democrat, Ms. 
Granholm.
    Let us talk then about it. We have before us a legitimate 
land dispute. We also have an economic opportunity for a state. 
We do not have any violation of the legislation regulating 
Indian gambling on reservations or otherwise. We have a 
solution to a problem which is depressing the economy of the 
communities represented by Mr. Stupak where it affords massive 
opportunities for the communities served so well by Ms. Miller 
and our good friend, Mr. Kildee.
    This, again, is a situation where Michigan's unemployment 
rate is seven and a half percent, leading the nation, and where 
our household income has decreased by 11.9 percent since 2000 
and where the state has lost over 350,000 jobs. The opportunity 
presented by these two pieces of legislation will bring 
something like 2,700 high paying, onsite, union jobs to the 
15th District of Michigan and a similar opportunity to the 
district so well served by our distinguished colleagues, Mr. 
Kildee and Ms. Miller.
    The legislation in each instance extinguishes land claims 
in the area of the Sault Tribe. These two tribal bands were 
once, and have been found to have been, a single band of 
Indians in a single tribe.
    The character of the lands and the tribes is set forth in 
the settlement agreement which was reached, I repeat, by the 
Governors of the State of Michigan, and supported now by the 
current Governor of the State of Michigan and approved by the 
governments of the State of Michigan. The legislation directs 
the Secretary of Interior to take the lands into trust as lands 
obtained in a settlement of a land claim under the Indian 
Gaming Regulatory Act.
    Now, I would note that you are going to hear from opponents 
of these bills. Some will say enough is enough and the state 
does not need another casino. I would note for the benefit of 
my colleagues here who are here to complain that there is no 
mention of casinos in the legislation.
    The issue before us is that we are going to solve a major 
problem, which is suppressing the economy of Michigan, and of 
the northern peninsula of Michigan and the upper peninsula and 
which affords opportunity for communities served by Members of 
Congress here today to do better and to enjoy profitable 
economic activities.
    I would repeat that enactment of this legislation will 
create thousands of well-paying union jobs in a number of 
congressional districts here. I would also like to submit for 
the record the settlement agreement between the Sault Ste. 
Marie Tribe of Chippewa Indians and the State of Michigan. This 
was entered into, as I mentioned, in 2002 by then Governor John 
Engler.
    The settlement stems from a longstanding dispute on lands 
in Charlotte Beach, Chippewa County, Michigan. Some will say 
these claims are not legitimate. I would observe that if you 
listen to testimony today you will find they are legitimate. 
The Governors of the State of Michigan have found them to be 
so, and the Indians have found them to be satisfactory.
    I would note that Mr. Stupak and Ms. Miller will address 
this in a broad explanation of these matters, which I would 
hope again would be helpful, to opponents of the legislation. 
Now, as you will note, the settlement agreement forms a basis 
for action by Congress to extinguish the Charlotte Beach land 
claim in return for alternative lands to be taken in trust for 
the tribe in either Monroe County, south of Raisin River, or in 
the City of Romulus, or in the City of Flint.
    Both Romulus and Monroe are in the 15th District, which I 
had the honor to serve, and for many months both of the 
communities, Monroe and Romulus, have discussed whether they 
wanted a casino there. I would note that Romulus has decided 
they do, Monroe has decided they do not. The Indian bands do 
want to go to Romulus if they go there. So this is something 
which would probably be a good thing.
    I would note for the benefit of the opponents of this 
legislation that the City of Romulus has passed a referendum in 
December of 2003 with a 57 percent support approving a casino 
to be built in that city. The Sault Tribe has of course 
voluntarily elected to pursue that possibility there. You will 
hear then from the elected representatives of our people back 
home that they want this.
    I do not believe that a group of out of state special 
interests, like MGM, should be able to send a bunch of folks 
down here to confuse the issue and to do hurt to the people 
that are served by legitimate representatives, and members of 
the Congress and members of the constituencies which we serve.
    I would also note that there have been claims made that 
this would adversely impact Detroit. I would ask unanimous 
consent to submit a study which addresses this matter in which 
Drs. Gary Wolfram and Bruce Ikawa performed a study which 
suggested that there will be, ``no statistical effect on 
competition on casinos within a 60 mile range or 120 mile 
range.''
    So this business of allowing dogs in the manger to deny a 
resolution of an important question for us in Michigan is, I 
think, entirely improper, and I hope this committee will extend 
its sympathy and its support to the legitimate citizens of 
Michigan who want to have this particular relief.
    I would ask unanimous consent to submit also to you a story 
yesterday in the Port Huron Times Herald which broke a study 
linking Gambling Watch, a nice word, a recently established, 
``anti-gambling group,'' asking citizens to speak out against 
the opening of any new casinos in Michigan to the MGM Grand 
Casino in Detroit.
    The good and honest people who have been suckered into 
supporting this are legitimately opposed to gambling, but they 
have not received the whole story.
    I am sure they would be shocked and appalled to learn that 
they are being used by people who are imposing the same shoddy 
lobbying tactics that were used by Jack Abramoff, a man who now 
is serving time in the jailhouse, as he properly should, for 
his behavior in connection with the use of similar tactics in 
opposition to legitimate legislation of this kind and the kind 
of deceitful practices which quite frankly shame him and shame 
those who pay the salary of those who do this kind of 
unfortunate thing.
    In any event, a very comprehensive and expensive binder was 
delivered to the members' offices yesterday, and just to 
address this in a brief way I would note several things. First 
of all, many of the letters in there are outdated and are not 
any longer relevant. Second, Tab F has absolutely nothing to do 
with the legislation under consideration today.
    As you will note, the Bureau of Indian Affairs rejected the 
Hannahville Tribe's request to develop off gaming reservations 
in Romulus. I would note we are not asking for off-reservation 
gambling, we are simply asking for the settlement of land 
claims legitimately settled by our Governors, and the state 
government and the Indian tribes concerned.
    Under discussion today is a legitimate land claim then 
involving the Sault Ste. Marie Tribe, as I had mentioned. 
Three, Tab G contains a study of the potential impact of 
expanded gaming in the City of Detroit. I would note there is 
no reference in the binder as to who did the study. If I do 
studies I would be sufficiently proud of them that I would make 
known who it was had done this.
    Perhaps maybe those who are pushing this study will want to 
lay that before the Committee. I think it would be helpful. In 
any event, I would like to submit for the record and ask 
unanimous consent to do so, Mr. Chairman, a number of 
additional documents.
    First, a letter from Wayne County Commissioner Edward Boike 
in support of H.R. 4115. As you will note, Commissioner Boike 
talks about job opportunities derived from this legislation for 
Wayne County. Second, I would like to submit a letter from the 
International Union of Bricklayers and Allied Craft Workers in 
which they set forward the number of jobs that the construction 
aspects of projects undertaken by the Indians then would mean 
to us in Michigan.
    I would also like to submit letters from Governor Granholm 
of Michigan in support of both H.R. 4115 and H.R. 2176. Last, I 
would ask that letters from Mr. Stupak, Ms. Miller and myself 
dated November 14, 2007, and February 5, 2008, in response to 
opposition claims be included in the record.
    Since both bills before you today derived from land 
settlement agreements that originate from the same land dispute 
it is critically important that both bills move together so 
that this matter may be resolved completely and in a timely 
manner.
    It has suffered over long, and the communities and the 
people involved have suffered over much by the delay that has 
been imposed upon this committee and upon the Congress by the 
unfortunate and I think ill-timed and improper opposition to 
the legislation. I want to thank you, Mr. Chairman, and the 
members of the Committee for your consideration.
    I look forward to answering any questions that you might 
wish to direct to me. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Dingell follows:]

    Statement of The Honorable John D. Dingell, a Representative in 
                  Congress from the State of Michigan

    Chairman Rahall, Ranking Member Young and Members of the Committee, 
thank you for holding this hearing today and for being here to listen 
to the merits of this proposal. I would also like to thank Mayor Alan 
Lambert of Romulus, Michigan and Aaron Payment of the Sault Ste. Marie 
Tribe of Chippewa Indians for taking time out of their busy schedules 
to be here today. I would like to thank Representative Candace Miller 
for her work on this issue. Lastly, I would like to thank 
Representative Bart Stupak for his tireless efforts to settle the very 
legitimate land dispute in his district.
    I am here today to talk about an economic opportunity for a state 
that continues to be affected disproportionately by domestic and global 
economic forces. Michigan's unemployment rate of 7.5 percent leads the 
nation. Michigan's median household income has decreased by 11.9 
percent since 2000 and the State has lost over 350,000 jobs.
    The opportunity presented in H.R. 4115 will bring 2,700 well-
paying, on-site, union jobs to Michigan's 15th Congressional District. 
In addition to that number, we are looking at 1,400 construction jobs--
also union--needed to build the facility. Mr. Chairman, this is an 
opportunity for Michigan we simply cannot afford to turn down.
    The legislation I introduced would extinguish the land claims in 
the area of the Sault Tribe. In exchange, the legislation will grant 
the Sault tribe alternative lands in Otsego County, Michigan and 
Romulus, Michigan as outlined in the settlement agreement. These 
alternative lands would become part of the reservation of the Sault 
Tribe community.
    In addition, my legislation directs the Secretary of the Interior 
to take these lands into trust as land obtained in a settlement of a 
land claim under the Indian Gaming Regulatory Act.
    Now, throughout this hearing you are going to hear from opponents 
to these bills. Some may say enough is enough, the State simply does 
not need another casino. Others will express strong opposition based on 
the fact that the proposed facility is supposedly too far away from the 
original reservation. While still others may say that the Southeast 
Michigan gaming market is already saturated. To those opposed to these 
pieces of legislation, I simply say, let's not create a battle between 
those communities that have casinos versus those communities that do 
not. Rather, let us work together to help extinguish legitimate land 
disputes that have been around for generations while at the same time 
allowing investment in our communities and our State. Let us build a 
brighter Michigan that creates thousands of well paying, union jobs 
that will help our state recover from the recent job losses we have 
experienced.
    I would like to submit for the record the Settlement Agreement 
between the Sault Ste. Marie Tribe of Chippewa Indians and the State of 
Michigan. Entered into in 2002 by then-Governor John Engler, the 
Settlement stems from a longstanding dispute on lands in Charlotte 
Beach, Chippewa County, Michigan. Now some will erroneously say these 
land claims are not legitimate. To those folks, I ask you to listen to 
the testimony here today, including that of our good colleague Mr. 
Stupak--who will tell you of muddied titles, uncertain property rights 
and diminished property values. As you will see, the Settlement 
Agreement forms the basis for action by Congress to extinguish the 
Charlotte Beach land claim in return for alternative lands to be taken 
into trust for the Tribe in either:
    1.  Monroe County south of the Raisin River;
    2.  The City of Romulus; or
    3.  The City of Flint
    Now, both Monroe and Romulus are in Michigan's 15th Congressional 
District. For many months, Monroe and Romulus discussed whether or not 
they wanted a casino. Eventually, Monroe fell out of the running while 
the City of Romulus expressed continued interest. In fact, voters in 
Romulus passed a referendum in December 2003 with 57% in support of 
approving a casino to be built in that city. The Sault Tribe has 
voluntarily elected to pursue only the possibility of alternative land 
in Romulus.
    You will hear from folks today that the voters of Michigan 
expressly voted in 2004 against any expanded gaming in the State. I 
would like to submit for the record the text of proposal 04-1, which 
very clearly states that the proposal ``does not apply to Indian tribal 
gaming or gaming in up to three casinos located in the City of 
Detroit''.
    I understand the concerns of the Detroit Mayor and some other 
Members of Congress that a new casino in Romulus would adversely impact 
Detroit. An awful lot has been invested into the gaming facilities 
within the City. I would like to submit for the record an economic 
analysis by Drs. Gary Wolfram and Bruce Ikawa. The analysis, based on a 
complex equation, suggests there would be ``no statistical effect of 
competition on casinos within a 60 mile range or a 120 mile range''. 
So, Mr. Chairman, as you can see, there is ample economic opportunity 
to go around.
    I would like to take just a moment to express my disappointment and 
dismay at the lobbying tactics used by some of the opponents of my 
bill. As many of you may have read, the Port Huron Times Herald broke a 
story yesterday linking Gambling Watch, a recently established ``anti-
gambling group'' asking citizens to speak out against the opening of 
any new casinos in Michigan, to the MGM Grand Casino in Detroit. The 
good and honest people who are legitimately opposed to gambling would 
be shocked and appalled to learn they are being used by people 
employing shady lobbying tactics reminiscent of Jack Abramoff. I look 
forward to hearing from some of the opponents here today about whether 
or not they were involved in these dubious tactics.
    I understand Mr. Chairman that a very comprehensive looking binder 
was delivered to Members' offices late yesterday. I would like to take 
a moment to address just a couple of things in that binder: One--many 
of the letters in there are out-dated and are no longer relevant. Two--
Tab F as absolutely nothing to do with the legislation under 
consideration here today. As you can see, the Bureau of Indian Affairs 
rejected the Hannahville Tribe's request to develop off-reservation 
gaming in Romulus. Under discussion today is a legitimate land claim 
involving the Sault Ste. Marie Tribe. And three: Tab G contains a study 
of the potential impact of expanded gaming on the City of Detroit. I 
would note there is no reference in the binder as to who did the study.
    Finally, I would like to submit into the record a few additional 
documents. First, a letter from Wayne County Commissioner Edward Boike 
in support of H.R. 4115. As you will see, Commissioner Boike talks 
about the job opportunities derived from this legislation for Wayne 
County. Additionally, I would like to submit a letter from the 
International Union of Bricklayers and Allied Craftworkers. As you can 
see, Michigan stands to gain an additional 1,400 jobs from the 
construction aspect of this project. I would also like to submit 
letters from Governor Granholm of Michigan in support of both H.R. 4115 
and H.R. 2176. Lastly, I would ask that letters from Representatives 
Stupak, Miller and myself dated November 14th, 2007 and February 5, 
2008 in response to opposition claims be included in the record.
    Since both bills before you here today derive from land settlement 
agreements that originate from the same land dispute, it is critically 
important that both bills move together so this matter may be resolved 
completely and in a timely manner.
    Thank you for your time and consideration. I look forward to 
answering any questions you might have.
                                 ______
                                 
    [The Port Huron Times Herald article and letters submitted 
for the record by Mr. Dingell follow:]
Port Huron Times Herald
Casino foe mailings scrutinized
Miller calls foul over highly organized opposition campaign
By MIKE CONNELL
Times Herald

    Directing its appeal to ``Michigan families,'' a newly incorporated 
organization has launched a direct-mail campaign aimed at blocking 
proposed casinos in Port Huron and Romulus.
    There is a twist, however.
    The organization--Gambling Watch--isn't a grassroots anti-gambling 
group opposed to casinos on moral or ethical grounds. In fact, it's a 
corporation created just two weeks ago by a Lansing public-relations 
specialist whose clients include MGM Mirage, a giant in the gambling 
industry and a fierce opponent of the two casinos.
    ``This was put together by a very well known, highly paid political 
consultant who has worked for other casino interests, other gaming 
projects in Michigan,'' said Rep. Candice Miller, R-Harrison Township, 
whose district encompasses Port Huron. ``Spare me the righteous 
indignation.''
    Gambling Watch was incorporated on Jan. 18, according to the 
Michigan Department of Labor and Economic Growth. The legal paperwork 
was handled by a lawyer with Dickinson Wright, a Lansing law firm that 
counts MGM Mirage among its clients. Gambling Watch's resident agent is 
Lori Wortz, the chief operating officer of Sterling Corp., a Lansing 
public-relations firm that specializes in ballot proposals and public-
policy issues.
Conservative activist
    Wortz is well-known in conservative political circles. She oversaw 
Pat Robertson's 1988 presidential campaign in Michigan and later worked 
for the Republican National Committee. Last month, she helped guide 
Mitt Romney's campaign to a primary victory in his native state.
    In a telephone interview, Wortz acknowledged her work with MGM 
Mirage but said Gambling Watch was strictly her initiative.
    ``They're supportive of it,'' she said of MGM, ``but there are 
other people who support it, too.''
    MGM Mirage, based in Las Vegas, has annual revenues in excess of $7 
billion. Its majority owner is Kirk Kerkorian, 90, whose personal 
fortune was estimated at more than $9 billion last year by Forbes 
magazine. According to federal disclosure forms, MGM spent at least 
$160,000 in the first half of 2007 to lobby against a Port Huron 
casino.
The people spoke
    Wortz recalled campaigning for a 2004 ballot initiative that 
amended the state constitution to require voter approval of any 
expansion of gambling in Michigan. The measure was aimed at so-called 
``racinos,'' or the legalization of slot machines at seven horse tracks 
in southern Michigan.
    MGM Mirage, which has invested more than $800 million in a casino-
hotel in Detroit, and the Saginaw Chippewa, which runs the state's 
largest casino in Mount Pleasant, did not want competition from race 
tracks. They poured money into the campaign for the 2004 proposal, 
which passed easily.Wortz said the voters spoke clearly, which is why 
she believes it would be wrong to allow casinos in Port Huron and 
Romulus without a statewide referendum.
    ``What I feel and many others feel is that it's important for 
voters to be aware that this is about expansion of gambling,'' she 
said. ``Any expansion in the state should go to the voters.''
Families on alert
    Gambling Watch has shared that message in fliers mailed to 
households across the state.
    The flier carries a large headline: ``Michigan Family Alert.'' A 
smaller headline adds:
    ``Washington Poised to Force Two New Casinos on Michigan Families. 
Only You Can Stop the Special Interests.''
    The flier mentions Wednesday's congressional hearing and calls on 
people to contact five politicians--Sen. Carl Levin, D-Detroit; Sen. 
Debbie Stabenow, D-Lansing; Rep. John Dingell, D-Dearborn; Rep. Bart 
Stupak, D-Menominee; and Miller.
    It says the five ``can put a stop to this special interest attempt 
to add two more casinos to the 22 Michigan already has.''
    Dingell and Stupak introduced the two bills that will be debated at 
Wednesday's hearing.
    Levin and Stabenow have expressed support for a Port Huron casino.
Fair play, free trade
    For the five years she has been in office, Miller has been 
steadfast in her support of a Port Huron casino, describing it as a 
matter of fair play and free trade.
    She noted Port Huron is the only American border community that has 
not been allowed to compete for the jobs and tax revenues generated by 
casinos on the Canadian side.
    She expressed frustration with Detroit Mayor Kwame Kilpatrick and 
his refusal to reach out to Port Huron.
    ``I remember when he was saying we had to support casinos in 
Detroit so his city could compete for all the American dollars going to 
the casino in Windsor,'' she said. ``And he was right, just as it's 
only right to let Port Huron compete for all of the American dollars 
going to Point Edward and Sarnia.''
    Miller also observed that Port Huron's entire political 
delegation--local, state and national--supports the casino.
    She said her office has received ``upwards of 500 phone calls in 
the last week'' from people responding to Gambling Watch's mailer. 
Little if any of that opposition was coming from St. Clair County, she 
added, ``and we're certainly not getting any from Port Huron.''
    Nick Choate, an aide to Stupak, said his office also has been 
getting calls. ``I don't have an exact number. We are getting a few,'' 
he said. ``I wouldn't say the phones are ringing off the hook.''
    Choate said he was unaware of Gambling Watch's origins.
Deceptive tactics
    For her part, Miller clearly wasn't amused to learn of the ties to 
a public-relations agency and a law firm that represent MGM Mirage.
    ``When my staff first told me about these fliers, I said 'I can 
tell you right now who's behind this,''' she recalled. ``Who would pay 
for a mailing like this? It had to be other casino interests. This 
thing is about money.''
    She said people who oppose gambling for reasons of conscious were 
being manipulated by special interests with hidden motives.''Have you 
heard of Jack Abramoff?'' Miller asked, naming the corrupt lobbyist who 
is serving a federal prison sentence for fraud, conspiracy and tax 
evasion. ``These people who put this flier out have taken a page right 
out of the Abramoff playbook. These are exactly the kind of tactics he 
would do for his clients. It's a very deceptive thing.'' Miller is 
scheduled to testify at Wednesday's hearing, which focuses on bills 
introduced by Stupak and Dingell. She also said the 48-member committee 
is not expected to vote on the measures until later this month.
    If the committee approves the bills, they would go to the full 
House for its consideration. Companion legislation has not yet been 
introduced in the Senate.
                                 ______
                                 

      Statement submitted for the record by Edward A. Boike, Jr., 
           Wayne County Commissioner, Wayne County, Michigan

    Mr. Chairman and members of the House Natural Resources Committee.
    My name is Edward Boike and I am the Vice Chairman and an elected 
member of the Wayne County Board of Commissioners. Wayne County has 43 
communities, in which Detroit is the largest.
    I am testifying today in support of H.R. 4115. Introduced by 
Congressman John D. Dingell, this legislation approves a land 
settlement agreement between the State of Michigan and the Sault Ste. 
Marie Tribe of Chippewa Indians.
    The settlement agreement was negotiated by Republican Governor John 
Engler and amended by Democratic Governor Jennifer Granholm. It 
provides for alternative reservation lands being placed in trust for 
the Sault Tribe in Southeastern Michigan.
    This legislation will bring thousands of good paying job 
opportunities for residents of Detroit, Romulus and all Wayne County 
communities.
    With approval of the settlement agreement, the Sault Tribe will be 
able to obtain and develop land in Romulus--providing Wayne County a 
much needed, sustainable business development. This project will have 
significant beneficial impacts on the City of Romulus and all of Wayne 
County.
    A new casino is soon to open in Battle Creek, located in Southwest 
Michigan--attracting patrons from Western Wayne County and neighboring 
Washtenaw County. It is important Wayne County is able to compete with 
this new competition. With one of the nation's busiest airports located 
in Romulus and significant infrastructure improvements to support it, 
the high traffic counts in the area show Romulus is the most attractive 
location to maintain gaming revenue staying in Wayne County.
    Once developed, it is estimated the casino gaming business that 
will be built in Romulus by the Sault Tribe will create more than 2,700 
on-site jobs. This does not include the estimated 1,400 construction 
jobs required to build the facility. In addition to the on-site 
employment opportunities, it is estimated that another 2,000 jobs will 
come from increased business in the area.
    These good paying jobs will provide Southeastern Michigan workers 
with much-needed employment opportunities. According to the Michigan 
Department of Labor & Economic Growth, Wayne County currently has a 9% 
unemployment rate.
    This is even higher than the State of Michigan, who leads the 
country with 7.6% unemployment. It is critical that new jobs are 
created to replace the recent loss of nearly 250,000 manufacturing jobs 
in our state. I hope you will approve H.R. 4115 so Wayne County's 
economy can continue to develop and grow.
    Thank you for your consideration to this very important issue.

    [GRAPHIC] [TIFF OMITTED] T0622.008
    
                                 ______
                                 
    [A letter submitted for the record by Raymond Chapman, 
President and Business Manager, Bricklayers and Allied 
Craftworkers, follows:]

[GRAPHIC] [TIFF OMITTED] T0622.011

[GRAPHIC] [TIFF OMITTED] T0622.012

                                ------                                


    [A letter submitted for the record by Hon. Bart Stupak, 
Hon. Candice Miller, and Hon. John Dingell follows:]

                            February 5, 2008

The Honorable Nick J. Rahall
Chairman, Natural Resources Committee
U.S. House of Representatives
Washington, DC 20515

Dear Chairman Rahall:

    We are writing to you today to ask for your support of our 
legislation (H.R. 2176 and H.R. 4115) that settles a long-standing land 
claim in Charlotte Beach, Michigan. We thank Chairman Rahall and 
Ranking Member Young for the leadership they have shown by endorsing 
and supporting this legislation and for providing a hearing for this 
legislation in the Natural Resources Committee on Feb. 6th.
    We introduced this legislation to allow the Congress to accept an 
agreement reached between by two successive Governors on behalf of the 
State of Michigan and two constituent Native American tribes, the Bay 
Mills Indian Community and the Sault Ste. Marie Tribe of Chippewa 
Indians.
    This legislation provides a positive solution to long standing 
problem. The settlement will benefit the tribes, the State of Michigan 
and the local communities that have been working cooperatively with the 
tribes for several years in attempting to resolve this claim. The Bay 
Mills Indian Community and the Sault Tribe are comprised of successors 
to several bands of Chippewa Indians who ceded much of the State of 
Michigan. In later treaties the tribes were able to purchase land in 
``Charlotte Beach'', Michigan, land that was illegally sold off at a 
tax sale to land speculators despite being deeded to the Governor of 
the State to protect the Tribe's interest. This land is ancestral land 
of both tribes and was wrongly taken from them even though they 
repeatedly tried to win redress for the loss of the land. The Bay Mills 
Tribe filed suit in federal and state court. The cases were dismissed 
on procedural grounds and the merits never fully considered.
    As a result, to this day the Charlotte Beach land claim remains a 
cloud on the title of area landowners in Chippewa County, who have also 
sought to have that cloud lifted. For tax purposes, the claim has 
devalued the land significantly. In fact, the County Chairman of 
Chippewa County has written to the Committee to support our legislation 
and ask for its passage.
    To attempt to resolve this situation, two successive governors of 
the State, John Engler (R) and Jennifer Granholm (D), both lawyers, 
signed settlements of the claims. Their extensive personal involvement 
in this issue attests to the level of seriousness of the land claims. 
As with other land claim settlements approved by Congress, the 
settlement would allow for replacement lands to be taken into trust, 
rather than evicting current owners. The replacement land for the Bay 
Mills Tribe is located in Port Huron, Michigan. Replacement land for 
the Sault Tribe may be located in Romulus or Flint, Michigan. 
Representatives of these communities will also testify at the hearing 
in strong support of the settlement.
    Despite our views as the representatives of all the affected areas, 
the support of the Governor, the support of the community in which the 
disputed land is located and the support of the communities in which 
the tribes would locate, it has recently come to our attention that two 
letters were sent to the Committee that contain numerous inaccuracies, 
distortions, and outright misrepresentations of fact regarding our 
legislation. While we are not surprised that the small handful of 
opponents to this common sense legislation will go to great lengths in 
order to undermine a constructive settlement, we strongly believe the 
inaccurate information they are circulating in opposition to our 
efforts should not go unchallenged.
    In their correspondence to the Committee some opponents have 
attempted to cast doubt on the legitimacy of this land claim. However, 
Michigan's current Governor and its most recent Governor have accepted 
the legitimacy of the claim and personally worked to resolve it. Noted 
tribal experts have also verified the legitimacy of the claim, and we 
can assure you that for the property owners and taxpayers in Charlotte 
Beach, this land claim is all too real. Clouding of private property 
titles as a result of the unresolved claim has resulted in homeowners 
finding as much as 90% of their property's assessed value has been 
lost. In turn, this has led to a depreciation of the real estate tax 
base of Chippewa County, resulting in lost revenue and reduced 
government services.
    Our opponents have also alleged that the authority of the Michigan 
legislature could somehow be undermined by approval of the Charlotte 
Beach settlement. Nothing could be further from the truth. Under the 
1993 Bay Mills and Sault Ste. Marie compacts, negotiated by the 
Governor and ratified by the legislature, the tribes are allowed to 
game on any eligible Indian land in the State of Michigan. Thus, the 
State Legislature does not need to pass on a new site so long as it 
would be eligible Indian Land. This was confirmed in the settlement of 
litigation between the Keweenaw Bay Indian Community and the State of 
Michigan.
    The Bay Mills and Sault Ste. Marie compacts do not have an 
expiration date, but rather an optional time frame for the Governor to 
ask for renegotiation of the compact. When the Governor negotiated the 
Bay Mills Settlement, he chose to delay this optional time frame. This 
too mirrored an action blessed by a Federal Court in settlement of the 
Keweenaw Bay lawsuit.
    Finally, the changes in revenue sharing to the State of Michigan 
are governed by the 1993 Michigan Indian Gaming Settlement Agreement. 
This agreement allowed for the establishment of Indian gaming in 
Michigan and placed sole power in the hands of the Governor to 
negotiate the terms of revenue sharing agreements with Michigan tribes. 
Thus, any suggestion that H.R. 2176 and H.R. 4115 somehow wrongfully 
usurp the prerogatives of the legislature runs contrary to all 
applicable state laws and compact agreements.
    Equally unfounded are the arguments made by opponents that H.R. 
2176 and H.R. 4115 undermine the Indian Gaming Regulatory Act (IGRA). 
When IGRA was enacted in 1988, it was contemplated that situations may 
arise where tribal governments may wish to conduct gaming on lands 
acquired through land claim settlements, and IGRA specifically allows 
for this to happen. In fact, the Charlotte Beach Settlement actually 
exceeds requirements found in IGRA for land claim settlements by 
including the active involvement of the local communities in the 
settlement and by having already secured the approval and support of 
the Governor of Michigan.
    Under the Constitution, Congress has plenary power over all Indian 
policy, and possesses the sole ability to extinguish aboriginal Indian 
land title. As the Charlotte Beach Settlement requires the 
extinguishment of Indian title to the lands in question and new land 
being taken into trust for the tribe, it is entirely appropriate and in 
fact incumbent upon Congress to act on this matter. Congress has done 
so on at least five occasions since the enactment of IGRA, with the 
land in question being deemed eligible for gaming. Congressional action 
on this matter does not circumvent IGRA, but rather expedites an 
existing process, saving the federal taxpayer significant expense and 
providing an immediate resolution to the claim.
    Opponents of our legislation have alleged that it will open the 
door for ``off-reservation gaming''. This is patently false. Settling 
these long-standing claims will not open the door to a ``rash of tribal 
land claim lawsuits'' by tribes hoping to acquire new lands for gaming. 
For nearly 20 years, IGRA has contained a land claims exemption, and 
its existence has not produce a deluge of land claim lawsuits. Indeed, 
most outstanding Indian land claims in the United States have already 
been resolved by the Indian Claims Commission or acts of Congress. 
Outside of the Charlotte Beach land claim and a handful of others, few 
legitimate Indian land claims remain unresolved at this juncture. As 
mentioned earlier, H.R. 2176 and H.R. 4115 are land claim settlement 
acts which include the provision of alternate lands for tribes in 
compensation for relinquishing their claims to Charlotte Beach lands. 
As both pieces of legislation conform with the spirit and intent of 
IGRA that lands acquired by a tribe through a lands claim settlement be 
eligible for gaming, without limitation on location, it is misleading 
to attempt to label these bills as promoting off-reservation gaming.
    We urge you to reject the 11th-hour overtures of those who seek to 
derail the common-sense settlement embodied in H.R. 2176 and H.R. 4115 
in order protect incumbent casino gambling interests and fight the 
precedent that will be set by the Bay Mills tribe in paying its fair 
share to the State of Michigan to help with statewide economic 
redevelopment and job creation.
    We appreciate your continued commitment in helping us to resolve 
this matter and shepherd this legislation through the House.

                               Sincerely


           ,                       ,                        ,

Bart Stupak             Candice Miller.........  John Dingell
Member of Congress      Member of Congress.....  Member of Congress



    [A letter from Hon. John M. Engler, Former Governor, State 
of Michigan, dated June 23, 2004, to Chairman Pombo and Ranking 
Member Rahall. follows:] 

[GRAPHIC] [TIFF OMITTED] T0622.014

[GRAPHIC] [TIFF OMITTED] T0622.015


    [NOTE: The study by Wolfram and Ikawa, ``An Analysis of 
Proposed Indian Casino Gaming in Romulus'' dated November 2003; 
Settlement Agreement between the Sault Ste. Marie Tribe of 
Chippewa Indians and the State of Michigan; and additional 
documents submitted for the record have been retained in the 
Committee's official files.]
    The Chairman. Thank you, Mr. Chairman. Without objection, 
all requested materials for submission in the record by all 
members will be made a part of the record.
    Mr. Stupak.

  STATEMENT OF THE HONORABLE BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak Well, thank you, Mr. Chairman, and members of 
the Committee. Welcome to the Michigan delegation food fight. 
This is how it is. It is a food fight. It is not as has been 
dramatically portrayed as a deep divide in our delegation. That 
is not it. We are all advocates for our district, we are here 
to advocate for our district.
    Some of us have personal beliefs on land that may be used 
for gaming that may or may not be proper. It is nothing that 
divides us. Michigan is a very united delegation. We continue 
to look forward to work together on issues that affect the 
State of Michigan, and we appreciate the opportunity to appear 
here again.
    We were here in 2004 to address this issue, we are here 
once again. I know I told my good friend and my Chairman, Mr. 
Dingell, I would yield him some of my time. I did not think I 
would have to yield him all of my time or that of rest of the 
panel. Let me be brief, Mr. Chairman.
    Mr. Chairman, you articulated the 150 year history of this 
land claim. There is no reason to go through it again. As I 
said, we were here in 2004 on the same issue. I first became 
involved in this issue over 10 years ago, not at the request of 
any tribes but at the request of the residents of Charlotte 
Beach whose land value had been deeply devalued because of the 
cloud on this title for the last number of years.
    As a result, property owners have trouble trying to secure 
real estate loans. They have had significantly lower property 
values because of the cloud on this title to the property at 
Charlotte Beach. Local assessors have reduced the value of a 
piece of property of the home on Charlotte Beach by 90 percent 
because of the cloud created by the land claim dispute.
    Earl Kay, Chairman of the Chippewa County Board of 
Commissioners, has written testimony to provide additional 
information on the depreciation of land at four Charlotte Beach 
residents, and I ask that it be included in the record. Also, 
Mr. Chairman, I will make as part of my testimony Charlotte 
Beach residents' attorney, Ms. Leanne Barnes Deuman, has 
written testimony on behalf of her clients in support of 
passing these bills.
    Again, I will support it or put it as part of my testimony. 
The tribes in this matter, the Sault Tribe and the Bay Mills 
Tribe, it is critical that Congress approve these two bills to 
ratify the land settlement agreements reached between Bay Mills 
and the Sault Tribes by former Governor Engler.
    Tribes have worked together with the State of Michigan, the 
Charlotte Beach residents, to resolve this land dispute. 
However, without congressional approval the land exchange 
cannot be completed and the residents of Charlotte Beach will 
continue to face clouded land titles and economic hardships.
    By ratifying these two settlements Congress has an 
opportunity to right a wrong and bring an end to a land dispute 
that has been going on for 150 years. You will hear many 
misleading and false statements about what my and Mr. Dingell's 
legislation represent. Let me make this crystal clear.
    These two bills simply ratify a land exchange and put to 
rest a land dispute. This is a specific solution to a localized 
problem that has been arrived at only after extensive 
negotiation between the parties. Every opponent to our 
legislation resides outside of Mr. Dingell's district, 
Congresswoman Miller's district and my congressional district.
    If I can make one more point, it is that the Congress has 
settled dozens of Native American land claims. The most recent 
was the Timbisha Shoshone Homeland Act of 2001. It is time for 
Congress to exercise its statutory and constitutional duty and 
ratify this land settlement agreement.
    Thank you, Mr. Chairman. Thank you, Mr. Young. Thank you, 
members of the Committee for considering our legislation. I 
appreciate the time and effort you have put into this matter. I 
yield back.
    [The prepared statement of Mr. Stupak follows:]

 Statement of The Honorable Bart Stupak, a Representative in Congress 
                       from the State of Michigan

    Thank you, Mr. Chairman, Ranking Member Young, and members of the 
Committee, for the opportunity to testify in support of H.R. 2176 and 
H.R. 4115 to provide for and approve the settlement of certain land 
claims of the Bay Mills Indian Community and the Sault Ste. Marie 
Tribe. I have been working on this problem for over ten years and first 
introduced legislation in 1999 in an effort to resolve this issue.
    I first became involved in this land claim dispute at the request 
of the property owners at Charlotte Beach, not the tribes. Tribal 
claims to the land have created a ``cloud'' on the property owned by my 
constituents in Charlotte Beach. As a result, the property owners have 
a difficult time trying to secure real estate loans, and have 
experienced significantly lower property values.
    Local assessors have reduced the property values of the Charlotte 
Beach land owners by 90 percent because of the ``clouded'' title 
created by the land claim dispute. Earl Kay, Chairman of the Chippewa 
County Commission, has written testimony to provide additional 
information on the depreciation of land value for Charlotte Beach 
residents for this hearing, and I ask, Mr. Chairman, that it be 
included in the record.
    In addition, the Charlotte Beach residents' attorney, Mrs. Leanne 
Barnes Deuman, has written testimony on behalf of her clients in 
support of passing these bills. In her testimony, you will find a 
description of the dire situation my constituents are in. I ask Mr. 
Chairman to have that testimony included in the record as well.
    The tribes' claim to the land in question dates back to 1855, when 
the U.S. government signed the Treaty of Detroit deeding the land to 
the Tribes. However, the land was later sold to non-Indian speculators, 
without the tribes' knowledge, eventually resulting in an eviction of 
the members of the tribes. More than 100 years later, those individuals 
who originally stole this land from the tribes are deceased. But the 
current landowners are the individuals currently being harmed by the 
clouded titles and low property values.
    In order to finally resolve this land claim dispute, a settlement 
agreement was reached in 2002 between former Governor John Engler and 
the Bay Mills tribe. Later that year, the Sault Ste. Marie tribe and 
Governor Engler reached a similar agreement. These settlement 
agreements have been reaffirmed by Michigan's current Governor, 
Jennifer Granholm.
    In the settlement agreement, the tribes agree to extinguish their 
property claims at Charlotte Beach in exchange for land outlined in the 
settlement. The settlement invokes the Indian Gaming Regulatory Act 
(IGRA) exception clause of taking lands into trust to settle a land 
claim and was within the authority granted to the Governor by IGRA.
    However, in order to be implemented, Congress must approve the 
negotiated land settlement agreement. I have introduced H.R. 2176 with 
the support of Congresswoman Miller, and Congressman Dingell has 
introduced H.R. 4115, with my support, to implement the land settlement 
agreements.
    It is crucial that Congress approve these two bills to ratify the 
land settlement agreements reached between the Bay Mills and Sault 
tribes and former Governor Engler. The tribes have worked 
collaboratively with the State of Michigan and the Charlotte Beach 
residents to resolve the land dispute. However, without Congressional 
approval, the land exchange cannot be completed and the residents of 
Charlotte Beach will continue to face clouded land titles and economic 
hardships.
    By ratifying these two settlements, Congress has an opportunity to 
right a wrong and bring an end to a land dispute that has been going on 
for over 100 years.
    You will hear many misleading and false statements about what my 
and Congressman Dingell's legislation represent. Let me make this 
crystal clear: these two bills simple ratify a land exchange and put to 
rest a land dispute. This is a specific solution to a localized problem 
that has been arrived at only after extensive negotiations between the 
parties. Every opponent to our legislation resides outside of 
Congressman Dingell's, Congresswoman Miller's and my congressional 
district.
    Lastly, if I can get one point across to you today, it is that 
Congress has settled dozens of Native American land claims, the most 
recent was the Timbisha Shoshone Homeland Act of 2001. It is time for 
Congress to exercise its statutory and constitutional duty and ratify 
this land settlement agreement.
    Thank you, Chairman Rahall, and Ranking Member Young, and Members 
of the Committee for holding this hearing to bring about a final 
resolution to this land claim dispute. I look forward to working with 
you to pass this legislation and finally fix this problem.
                                 ______
                                 
    [The letter from Earl Kay submitted for the record by Mr. 
Stupak follow:]

[GRAPHIC] [TIFF OMITTED] T0622.020

                                ------                                


      Statement submitted for the record by Leanne Barnes Deuman, 
              Attorney at Law, Sault Ste. Marie, Michigan

    I am Leanne Barnes Deuman, an attorney in private practice in Sault 
Ste. Marie, Michigan. I am pleased to submit this testimony for the 
record in support of both H.R. 2176 and H.R. 4115.
    I represent 149 individuals who own very small parcels of land in 
an area known as Charlotte Beach, near Barbeau, Michigan. My clients 
innocently acquired their land in an area that later became the subject 
of a land claim by Indian tribes in the Eastern Upper Peninsula of 
Michigan, including the Sault Ste. Marie Tribe of Chippewa Indians and 
the Bay Mills Indian Community. My clients' story is very sad; their 
resources are extremely meager; and without the help of Congress, the 
lands which constitute their most precious assets, will be rendered 
worthless forever. The following is their story.
    The Charlotte Beach lands are located on the southern shore of what 
is now known as Lake Nicolet, approximately 18 miles southeast of the 
City of Sault Ste. Marie, in the Upper Peninsula of Michigan. Prior to 
private ownership of the Charlotte Beach lands, these lands were 
designated for withdrawal from the public domain under a certain Treaty 
of 1855. This Treaty, known as the Treaty of Detroit, withdrew public 
domain land for selection by individual Ottawa and Chippewa Indians 
whose tribes were party to the Treaty with the United States. After the 
1855 Treaty was negotiated, but prior to its ratification by Congress 
and, therefore, prior to the actual withdrawal of the lands from the 
public domain, the federal government issued land patents to Boziel 
Paul and his wife, who were non-Indians. Those land patents issued to 
the Pauls in 1856 included the present day Charlotte Beach property.
    In 1857, for reasons which are not fully documented, the Pauls 
conveyed their Charlotte Beach property to the then Governor of 
Michigan, Kinsley S. Bingham, in trust for the benefit of two Bands of 
Chippewa Indians in and around Sault Ste. Marie. Whether the deed was 
delivered and/or accepted by the Governor is also unknown. Of course, 
once in the hands of the Governor, the lands were technically in fee 
status and subject to the payment of real property taxes, which taxes 
were subsequently never paid. As a result of the non-payment of taxes, 
the lands were forfeited and sold by the State of Michigan to third 
parties at tax sales, notwithstanding the Indians' interests in those 
lands. This is the background for what is known as a cloud on title as 
a result of the foregoing transactions.
    In the late 1990's, litigation over those lands ensued, but did not 
result in clearing the cloud on the title to these Charlotte Beach 
parcels. The federal court litigation brought by the Bay Mills Indian 
Community, one of the modern political successors in interest to the 
two Bands for which the lands were originally withdrawn, was dismissed 
on procedural grounds for failure to join an indispensable party, the 
Sault Ste. Marie Tribe of Chippewa Indians, another modern day 
political successor in interest to whom the lands were also withdrawn. 
The State court litigation, also brought by Bay Mills, was dismissed on 
substantive grounds, but did not clear the landowners' title. 
Therefore, as of today, there has never been an adjudication on the 
merits of the Indians' claim to the Charlotte Beach parcels in private 
ownership. As a result, there is an outstanding cloud on title to these 
parcels, which will never be lifted absent congressional action 
extinguishing those claims. The cloud will never be lifted because 
tribes are immune from suit resulting from their sovereign status. 
Thus, any quiet title action by my clients (or any other Charlotte 
Beach landowner) against tribes designated to clear the cloud on title 
will not be allowed to proceed. At this point, and based upon previous 
litigation, it does not appear that any tribe will ever waive its 
immunity if such litigation were initiated. The cloud on title will 
remain unless cleared through congressional action.
    The nature and extent of economic loss to my clients is devastating 
and overwhelming. The title to the Charlotte Beach parcels are subject 
to Indians' claims and are not considered marketable. As you no doubt 
appreciate, that means no present owner of a Charlotte Beach parcel is 
able to sell his or her property, since few if any buyers are willing 
to forego clear or marketable title. Title companies are unwilling to 
insure over the Indian claims even for an additional premium. 
Similarly, no Charlotte Beach parcel owner can use his or her land to 
secure any loan. Thus, not only can they no longer sell their land for 
its true value, they can no longer refinance any existing loan on their 
property. Theoretically, a Charlotte Beach owner could sell his or her 
land for cash, but of course few, if any, are willing or able to buy a 
parcel with cloud on title and without clear title. It is a rare 
purchaser willing to buy land known to be subject to a cloud on title 
which cannot be cleared absent an act of Congress. This is particularly 
true since litigation over the cloud on title has occurred and may 
occur again in the future.
    This cloud on title is devastating to my clients. For most of my 
clients, their Charlotte Beach lots are the location of their primary 
residences and these residences are anything but glamorous. The lots 
are small and the homes are modest; indeed, many of the parcels are 
occupied by trailers or modular homes. These residents are good, 
hardworking people with meager resources. Their homes and parcels 
represent the bulk of their personal worth. They live in a poor rural 
area, where jobs are low paying and hard to find. Suffice to say, these 
parcels and the homes located on them are neither large, nor glamorous. 
The owners can barely afford to attend court hearings in connection 
with litigation affecting their lands, let alone afford the legal fees 
required to protect their only real asset in life.
    You will likely hear a variety of testimony today by many persons 
interested in the Bills before you. That testimony may come from down 
State political figures, such as Mayors of large cities in Michigan. It 
will probably come from publicly-traded corporations owning and 
operating casinos. Clearly, those persons testifying will have 
interests they wish to protect, for which they are not to be faulted. 
But, please, do not forget the real victims of the land claims dispute. 
The real victims are the property owners of the Charlotte Beach 
parcels, who bought homes with whatever resources were available to 
them, only to find out years later that there is a cloud on their title 
that relates back to the mid 1800's, and that the cloud has, as a 
practical matter, rendered their property difficult, if not impossible, 
to sell or collateralize. Had they foreseen litigation and the problems 
which ensued in conjunction with it, they may have taken a different 
path. Had they known in advance, perhaps they could have bought land 
elsewhere. Now, having purchased the land and subsequently learning of 
the defect in title, they are absolutely helpless to do anything about 
it. They have no money for legal fees. And even if they did, the money 
would do them no good, since there is no way to quiet title to lands 
against unwilling defendants which are immune from suit.
    The only salvation for these innocent purchasers of Charlotte Beach 
land is for Congress to step in and extinguish the Tribes' claims to 
these parcels. Of course, the Tribes' interest in these parcels must be 
compensated, but we understand that the Bills before you would 
accomplish that, thereby passing the constitutional muster. We support 
the passage of these Bills that would clear the cloud on the Charlotte 
Beach parcels and allow my clients to go on with their lives, knowing 
that their homes will no longer be considered worthless or at least 
unsellable.
    Thank you for accepting my testimony and allowing my clients' 
concerns to be brought to the Committees attention.
                                 ______
                                 
    Mr. Young. Mr. Chairman?
    The Chairman. Yes? The Chair will recognize Ranking Member 
Young.

   STATEMENT OF THE HONORABLE DON YOUNG, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ALASKA

    Mr. Young. Mr. Chairman, I have a written statement I would 
like to issue for the record. First, let me congratulate 
Candice Miller for being on this issue for many years, and Mr. 
Bart Stupak, and of course the Chairman, John Dingell.
    I know there are people that object to this legislation, 
but I have been involved in Indian gambling and the settlement 
of land trust and the recognition of tribes. If anybody has 
done this job, Bay Mills has done it. I understand those that 
oppose it, I have no argument with it or opposition, but I 
think Mr. Stupak made a point that we ought to consider because 
it is dear to my heart.
    None of those people that are opposed to this issue live 
within the districts that this would affect. I think we should 
look at this as a committee and understand that this is, very 
frankly, about interest outside of this district, and some 
people will say it affects their district, also.
    My argument, if we are to go forth with the original act, 
as Mr. Udall and I passed, then you should follow the rules, 
the recognition, and the designation of and completion of I 
think a legitimate concern and a legitimate solution of 
recognizing Bay Mills.
    So, Mr. Chairman, I thank you for having this hearing. This 
is a very diverse panel in front of us today. I respect that, 
but again, keep in mind that justice should serve, and in this 
case I think this bill should pass through this body. Yield 
back.
    [The prepared statement of Mr. Young follows:]

       Statement of The Honorable Don Young, Ranking Republican, 
                     Committee on Natural Resources

    Mr. Chairman, thank you for scheduling today's hearing on two 
Indian land claims settlement bills. I want to recognize your 
leadership in moving these settlements forward and I also want to 
salute my good friend and Republican Colleague, the Gentle Lady from 
Michigan (Candice Miller), for her persistence on the Bay Mills 
settlement. These settlement proposals have been pending for years and 
have been studied in past congressional hearings. Thus, I will my 
comments to a couple of points.
    First, these bills enjoy strong support from the Members who 
represent land owners affected by the land claims and the communities 
where casinos would be built and operated. The Committee owes much 
deference to the views of the Members representing their constituents.
    Second, these settlements were originally negotiated by former 
Governor John Engler and they are supported by the current Governor, 
Jennifer Granholm. Such continuity of support through two 
administrations, one a Republican and the other a Democrat, should be 
weighed heavily, especially by those Members like me who promote 
States' rights.
    Finally, while most of the discussion is going to revolve around 
Indian gaming, I would urge my colleagues to consider that a failure to 
find an adequate land claims settlement will continue to have serious 
consequences on private landowners in Charlotte Beach, who have watched 
the value of their property plummet.
    I look forward to hearing the testimony of today's witnesses.
                                 ______
                                 
    The Chairman. Ms. Kilpatrick, you may proceed.

      STATEMENT OF THE HONORABLE CAROLYN C. KILPATRICK, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF MICHIGAN

    Ms. Kilpatrick of Michigan. Thank you, Mr. Chairman, 
Ranking Member Young, acting Ranking Member Heller and members 
of the Committee. Thank you for holding the hearing, first of 
all, and that it be in regular order and not snuck into a late 
night bill that is inappropriate. I do appreciate all of your 
support in scheduling this hearing.
    I also want to thank Speaker Pelosi for helping us to 
settle this, and that we are here today to talk about these two 
pieces of bills. In essence, both of these bills will allow two 
Native American Tribes located in Michigan's upper peninsula to 
build casinos 350 miles from their reservation and 15 minutes 
from my district.
    As you prepare for these hearings, I have provided each of 
you a notebook that goes into great detail on why we are 
opposing these bills. My reason for opposing these bills, which 
will allow land to be taken into trust for gambling purposes 
for the settlement of proposed land claims, are actually very 
simple.
    These bills set a dangerous precedent for Congress. They 
contravene Michigan state law, they are very controversial 
among the tribes in Michigan and throughout Indian country, the 
Bureau of Indian Affairs has ruled against a similar casino in 
Romulus, Michigan, and finally, Congress has not had a 
comprehensive review of the IGRA in nearly two decades.
    Perhaps it is time for that now. Furthermore, it is 
important to note that these land claims have never been 
validated by the U.S. Government or any court of law. In fact, 
the courts have ruled against the Bay Mills Tribe on their 
claims on two other separate occasions. The people of Michigan 
have spoken at the ballot box about gaming and expansion in our 
state.
    In the City of Detroit, we fought 20 years before we 
actually passed by the people and the legislature the right to 
have casino gaming. In 1994, the people of Michigan voted to 
allow three casinos in the City of Detroit. In 2004, the people 
voted to limit any more expansion of gaming unless there was a 
statewide referendum. This legislation circumvents that.
    In addition, the Michigan Gaming Compact specifically 
prohibits off-reservationq gaming unless all tribes in Michigan 
share in the revenue. This legislation does not allow that. 
These two bills circumvent both the will of the people of 
Michigan and the compact that the Michigan legislature has made 
with the tribes in Michigan.
    Instead, these bills will have Congress mandate not one but 
two off site reservation casinos located over 350 miles away 
from their reservation. Moreover, the disputed land is located 
near the two tribes' reservations in the upper peninsula, but 
yet the land they want for a settlement is located over 300 
miles away.
    If these bills were to become law what would prevent other 
tribes from seeking a land claim anywhere in the United States 
for off site reservation gaming? Is this the real intent of the 
IGRA? It is indeed ironic that in the 109th Congress the 
Congress Resource Committee at that time on a bipartisan basis 
passed legislation by an overwhelming margin to restrict off 
site reservation gaming, yet today it now seeks to expand 
gaming in an unprecedented manner.
    Congress passed the IGRA in 1988 that allows tribes to 
conduct gaming on land acquired before October 17, 1988. In 
1993, our former Governor Engler negotiated a gaming compact 
with the seven Federally recognized tribes in Michigan 
including Bay Mills and Sault Ste. Marie Tribes.
    In order to prevent a proliferation of Indian gaming across 
the state, the provision was added to the compact that required 
any revenue generated by off-reservation gaming be shared by 
all 12 of the tribes. This legislation would take that out. 
Settled by our state, passed by our legislature that the 
proceeds would be shared, this legislation would not allow 
that.
    The provision has worked for well over 15 years. The two 
bills before this committee will simply nullify this critically 
important provision of the Michigan Gaming Compact. These bills 
include gaming compacts in them that were never approved by the 
state legislature who has provided every other gaming compact.
    It is important to know that Congress has never passed a 
gaming compact in the history of gaming. Those compacts have 
been regulated by the IGRA and the states which has its 
authority. In 2004, the voters of Michigan spoke again in a 
statewide referendum and overwhelmingly approved a ballot 
initiative that would restrict the expansion of gaming in the 
State of Michigan.
    The ballot box is the solution to this matter. We in the 
State of Michigan have gone to the ballot box to discuss and 
solve this matter time and time again. I am aware that the 
Governor of our state has sent you a letter supporting these 
bills. That kind of baffles me. The gaming industry in Michigan 
has allowed $1.5 billion new dollars into our state coffers.
    Because the automobile industry is suffering our state 
would be devastated by this loss of revenue. As my Chairman 
spoke, there have been studies, and we will identify the people 
who did the study. There are new gamblers. They are the same 
gamblers who move around, and not just in your district, not 
just in mine or the state, they move around the country.
    You should know that there is no legal basis for the state 
to support these agreements. I believe the Governor has erred 
in this and must have made another deal that it is required by 
gaming institutions that they provide--and our state has one of 
the highest percentages that the gaming institutions pay--to 
our state coffers, to our local unit of government, higher than 
in some cases in Nevada.
    The Chairman mentioned MGM as an outside agitator. MGM for 
over a decade now has been a very good citizen of not only our 
state but of our city; just recently, a new, permanent $800 
million casino hiring over 2,000 workers. I do not think that 
is outside. I think they are very much a part of not just 
Detroit or Michigan, but of this community, and in particular, 
I am very upset with the Governor for having signed off.
    I do not understand it. This will be revenue our state will 
lose. All of you know that Indian gaming casinos do not provide 
the same revenue that other casinos provide. It is a loss of 
tax revenue for our state, for our city. Ultimately, this will 
harm the state when compared to their private counterpart, 
Native American Gaming Site, because they are sovereign 
nations, as you know, they are required to share in the 
revenue.
    As I have mentioned before, these two bills will destroy 
that. In the end, these two tribes are seeking to do an end run 
around two statewide referendums and the Michigan Gaming 
Compact of 1993. Rarely have voters in any state in this 
country spoken so clearly on gaming.
    Michigan has time and time again. It would be a travesty 
for Congress to mandate two off site gaming casinos that would 
have such a negative affect on the people of Michigan and my 
district. The Bureau of Indian Affairs in essence affirms this 
position in your notebooks that was alluded to that I did 
provide. I wanted to make sure that the members had the 
information. On January 4 of this year, BIA rejected the casino 
in Romulus. I know you know that as well.
    I thank the Committee for your time. We have much work to 
do. Michigan is in peril. The American automobile industry will 
never be what it once was, but we will survive. We do need new 
technologies, and a lot of that is going on. Work with us. Do 
not harm us. The tens of thousands of people who work in the 
industry are not required to do so when it becomes Native 
American gaming.
    These are American companies doing America's business. How 
dare we take that right away from them? The investments that 
they have made in our state for over the last decade, how dare 
we look shakily upon them and treat them as if they are 
outsiders? They are citizens, they are taxpayers, they employ 
our constituents. I urge you, vote against this legislation. Do 
not move it on to committee.
    Something is not right here. Let us review the compact that 
was settled some time ago; it has not been reviewed in 20 
years. Perhaps it does need updating. This is a committee. You 
have the responsibility. I thank you for your time. I am 
available to answer any questions that you might have, and I 
look forward to working with you.
    The Chairman. Thank you, Carolyn.
    [The prepared statement of Ms. Kilpatrick follows:]

 Statement of The Honorable Carolyn C. Kilpatrick, a Representative in 
                  Congress from the State of Michigan

    Chairman Rahall, Ranking Minority Member Young, and Members of the 
House Natural Resources Committee:
    Thank you for holding this hearing today. I also want to thank 
Chairman Rahall, Ranking Minority Member Young, and Speaker Pelosi for 
scheduling this legislation in regular order. In essence, both of these 
bills will allow two Native American tribes located in Michigan's Upper 
Peninsula to build casinos 350 miles from their reservations and near 
the City of Detroit.
    As you prepare for these hearings, I have provided each of you a 
notebook that goes into great detail my opposition to these bills. My 
reasons for opposing these bills, which will allow land to be taken 
into trust for gambling purposes for the settlement of proposed land 
claims, are actually very simple. These bills set a dangerous precedent 
for Congress; they contravene Michigan state law; they are very 
controversial among the Tribes in Michigan and throughout Indian 
Country; and finally, Congress has not had a comprehensive review of 
the Indian Gaming Regulatory Act (IGRA) in nearly two decades. 
Furthermore, it is important to note that these land claims have never 
been validated by the U.S. Government or any court of law. In fact, the 
courts have ruled against the Bay Mills Tribe on their claim on two 
separate occasions.
    The people of Michigan have spoken at the ballot box about gaming 
expansion in our state. In 1994, they voted to allow three casinos in 
the City of Detroit. In 2004, the people voted to limit any more 
expansion of gaming unless there was a statewide referendum. In 
addition, the Michigan Gaming compact specifically prohibits off-
reservation gaming unless all of the Tribes in Michigan agree to a 
revenue-sharing plan. These two bills are simply an attempt to 
circumvent both the will of the people of Michigan and the compact the 
Michigan State Legislature has made with the Tribes in Michigan.
    Instead, these bills would have Congress mandate not one, but two 
off-site reservation casinos located over 350 miles away from the 
reservations of these Tribes. Moreover, the disputed land is located 
near the two Tribes reservations in the Upper Peninsula but yet the 
land they want for a ``settlement'' is located 350 miles away near the 
City of Detroit. If these bills were to become law, what would prevent 
other Tribes from seeking a land claim anywhere in the United States 
for off-site reservation gaming? Is this the real intent of the Indian 
Gaming Regulatory Act?
    It is indeed ironic that in the 109th Congress, the House Resources 
Committee, on a bi-partisan basis, passed legislation by an 
overwhelming margin to restrict off-site reservation gaming. Yet today, 
it now seeks to expand Native American gaming in an unprecedented 
manner.
    Congress passed the Indian Gaming Regulatory Act in 1988 that 
allows Tribes to conduct gaming on lands acquired before October 17, 
1988. In 1993, former Governor John Engler negotiated a gaming compact 
with the seven federally-recognized Tribes in Michigan, including the 
Bay Mills and Sault Ste. Marie Tribes.
    In order to prevent a proliferation of Indian gaming across the 
state, a provision was added to the compact that required any revenue 
generated by off-reservation gaming be shared among the Tribes who 
signed the compact. This provision has worked well for over 15 years. 
The two bills before the House Resources Committee would simply nullify 
this critically important provision of the Michigan Gaming Compact. 
Both of these bills would allow the Tribes to; 1) settle a land claim 
that has never been validated and is located near their reservations in 
the Upper Peninsula of Michigan and 2) acquire lands 350 miles from 
their reservation to build casinos. Furthermore, these bills actually 
include gaming compacts in them that were never approved by the 
Michigan State Legislature who has approved every other gaming compact. 
It is important to note that Congress has never passed a gaming compact 
in the history of Indian gaming. IGRA specifically grants that 
authority to the states.
    In 2004, the voters of Michigan spoke again in a state-wide 
referendum and overwhelmingly approved a ballot initiative that would 
restrict the expansion of gaming in the state of Michigan. This 
referendum would require local and state-wide approvals for any private 
expansion of gaming in Michigan.
    The people and the elected officials of Michigan already have a 
solution to this matter--the ballot box. There is nothing in the 
referendum that would prevent the two Tribes and their non-Indian 
developers from initiating a statewide referendum to get casinos in Pt. 
Huron and in Romulus. In fact, both of those cities have already passed 
local referendums. But the Tribes and their developers decided to 
short-circuit the vote of the Michigan people and come to Congress to 
get a casino on a proposed land claim that is located near the Tribes 
reservation lands in the Upper Peninsula of Michigan.
    I am aware that the Governor of Michigan has sent you a letter 
supporting these bills. You should know that there is no legal basis 
for the State to support these agreements because, in fact, the State 
has already won this case in the Michigan Court of Claims and the Bay 
Mills Tribe appealed it all the way to the U.S. Supreme Court. The 
Supreme Court subsequently declined to hear the case.
    The Governor ignored the fact that the city of Detroit will be the 
main victim of the states largess in these casino deals. The city of 
Detroit will lose hundreds of millions of dollars as a result of the 
competition of these new casinos and that will cause irreparable harm. 
Harm to whom? Harm to the current investors of the casinos in the City 
of Detroit, who have invested more than $1.5 billion in the 
construction of the three casinos in the City of Detroit. Harm to the 
thousands of jobs that have been created and the tax revenue that those 
jobs generate for the City of Detroit and the State of Michigan. 
Ultimately, this will harm the State. When compared to their private 
counterparts, Native American gaming sites, because they are sovereign 
nations, and must share their revenue with other Native American 
tribes, do not bring in the tax revenue of private investors.
    In the end, these two Tribes are seeking to do an end-run around 
two statewide referendums and the Michigan Gaming Compact of 1993. 
Rarely have voters in any state in this country spoken so clearly on 
gaming issues. In light of all of this, it would be a travesty for 
Congress to mandate two off-site reservation gaming casinos that would 
have such negative impact on the people in Michigan. The Bureau of 
Indian Affairs (BIA), in essence, affirms this position. In your 
notebooks, I have enclosed the January 4, 2008, rejection of a casino 
site in Romulus, Michigan by the BIA.
    I thank the Committee for its time. Congress should not be in the 
business of handing out off-site reservation gaming casinos. It is my 
hope that the wisdom of the Committee and of Congress is the rejection 
of both of these bills for the following four reasons:
    <bullet>  These bills set a dangerous precedent for Congress by 
approving a compact which is a state, not a federal, responsibility;
    <bullet>  They contravene Michigan state law;
    <bullet>  They are controversial among the Native American tribes 
in Michigan; indeed, nine out of Michigan's 12 tribes oppose these 
bills;
    <bullet>  The City of Detroit would lose thousands of jobs and 
hundreds of millions of dollars in the investments made by the three 
casinos currently operating in Detroit;
    <bullet>  The Bureau of Indian Affairs has already rejected a 
similar application for gaming in Romulus, Michigan;
    <bullet>  These bills would involve the removal of valuable land 
from the tax rolls of the State of Michigan, resulting in the potential 
loss of even more revenue;
    <bullet>  Congress needs to revisit, revise and reauthorize the 
IGRA, which has not had a comprehensive review in nearly two decades.
    Again, I thank the Chairman and the Ranking Minority Member for 
this hearing. The Committee must reject these bills based on the merit 
of the will of the people of the City of Detroit and the State of 
Michigan.
                                 ______
                                 
    The Chairman. Mike.

  STATEMENT OF THE HONORABLE MIKE ROGERS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Rogers. Thank you, Mr. Chairman, and thank you for the 
opportunity to testify today. I have the deepest respect all of 
the members here. I agree with Mr. Stupak. This is more of a 
squabble than it is a divide with us. It is an important issue, 
we have some strong disagreements, but we hopefully will come 
out stronger.
    To Mr. Dingell, I have the utmost respect, but I do think 
Representative Kilpatrick is just right today on this 
particular issue. It is really not about the moral or ethical 
arguments about gambling, and I am going to bring a different 
approach I think to this debate. It will not be in my district, 
but we will be impacted by casinos coming to both of those 
towns.
    The costs of adding new casinos are real, and they extend 
well beyond the cities that actually want those casinos to 
exist. It is the one kind of dirty little secret we never talk 
about when we talk about what happens when a casino comes to a 
town. The surrounding communities pay a price for them to be 
there.
    Really, what that ought to be is a decision on behalf of 
the whole state. The reason that we regulate casinos so 
heavily, including the Detroit casinos, is because casinos 
coming to town bring a whole set of problems with it.
    So the public said that if we are going to have those 
casinos, we need to have very tough regulation, we need to go 
from A to Z to make sure that the gamblers that walk in get a 
fair shake and the impact of crime and other things that we 
know happens as a result of these casinos is at least mitigated 
to the extent that we can.
    Should Congress make that decision for the citizens of 
southeast Michigan? I think not, and I will tell you why. 
Michigan voters have spoken twice on this issue--twice. Once in 
1996, and again in 2004. They said we want to make the decision 
about casinos, not individual towns, not individual townships, 
but the State of Michigan.
    They were willing to make that investment in the City of 
Detroit in 1996 because they thought it would bring economic 
development to the city, and they make that set of 
determinations. Then afterward, the legislature set out some of 
the toughest regulation, of which I helped write by the way, in 
the country on those casinos to give at least a fighting chance 
to mitigate the troubles that we know happen with it.
    These casinos, make no doubt about it, they say there is 
nothing in here about casinos, but then they talk about the 
2,700 jobs that it is going to bring when they build a casino 
on this property, so we ought to stop fooling ourselves on what 
this is all about. These proposed casinos have very little to 
do with the tribes.
    Both tribes have casinos, they are very well-respected, 
they do the right thing, but this is really about putting 
casinos down in southeast Michigan and having access to a 
market. That is what this is about. That is the very kind of 
thing that the citizens of Michigan voted in two statewide 
referendums to stop.
    They wanted to be a part of the decision. So what Congress 
is saying today is that you, the 420 of you who will vote on 
this who are not from the State of Michigan, know better than 
every Michigan citizen in the State of Michigan. I think that 
is wrong. I think that is how Congress gets involved in things 
they ought not to be involved in.
    This is a family fight. We should be making this decision 
across the State of Michigan given the wishes of the Michigan 
population. I have to tell you, there are some things and costs 
that, again. we don't talk about. I am just going to talk about 
a couple. Studies clearly demonstrate the loss of economic 
output, cannibalization of small businesses that happen in 
surrounding communities.
    The community that has it might have a short-term economic 
benefit. The communities surrounding those municipalities will 
suffer economic impact, and it is negative. Every study proves 
that. Increased government costs. Great study that came out 
said the government has to pay $6 in increased costs for every 
$1 of economic benefit from casinos.
    You are going to upset our apple cart in southeast 
Michigan. More crime. Casinos raise crime rates over the long-
term, and local governments are ill-equipped, especially now in 
the State of Michigan, to hire more police. Michigan has spent 
over $20 million in taxpayer dollars since 2001 trying to raise 
the awareness of the costs of gambling.
    Nongamblers, people in my district, are paying those costs. 
They ran over 100,000 radio and print ads. Name another 
industry they have to do that. 350,000 problem gamblers in 
Michigan. There is a great Maryland study that shows each one 
of those problem gamblers costs the state an economic loss 
between $13,500 and $50,000.
    That is real negative economic impact to the state. One in 
20 people living near a casino will become problem gamblers. 
You do the math for metro Detroit. Despite what you have heard, 
these are not land swap bills. They are casino bills. If 
Congress allows this to go through it would drastically change 
how casinos can be approved all over the country. Make no doubt 
about it, Mr. Chairman, I do believe this is precedent setting, 
and it is really dangerous when we do this.
    At a time when we need real IGRA reform, not new loopholes, 
this is really the perfect opportunity for you, Mr. Chairman, I 
hope to step back and say listen, IGRA does need some reform, 
and we can do this and put the kind of protections that say the 
City of Detroit casinos have in with these new casinos that are 
proposed around the country without violating the spirit of 
what IGRA was intended to do, which was help the tribes.
    The compact agreed by the tribes and the state legislators 
specifically prohibits off-reservation gaming unless all tribes 
in Michigan agree to revenue sharing plan. That hasn't 
happened. So not only are you going to go against the wishes of 
the citizens of Michigan who voted in the statewide referendum 
twice, you are also going to go against the tribes in Michigan.
    So this isn't just Republican and Democrat, this isn't 
Members of Congress. This is the citizens of Michigan and the 
tribes all think this is a bad idea. There are real economic 
and government costs to casinos. We ought to have the right to 
discuss them in our home state and determine what the impact 
is. Michigan voters said twice they want to have a say in 
casinos.
    Casinos are complicated, risky propositions that need to be 
carefully studied and regulated. This process, Mr. Chairman, 
with no offense intended, doesn't give the citizens of Michigan 
that opportunity. This committee has a lot of important things 
to do. Is telling Michigan voters that Washington knows best 
really what we ought to be doing here today?
    Mr. Chairman, I sincerely thank you for the opportunity to 
testify today and appreciate your thoughtful consideration of 
movement of the bills.
    The Chairman. Thank you, Mike.
    [The prepared statement of Mr. Rogers follows:]

 Statement of The Honorable Mike Rogers, a Representative in Congress 
                       from the State of Michigan

    Chairman Rahall and Ranking Member Young, I thank you for convening 
this hearing which will have a profound impact on the citizens 
throughout my home state of Michigan. Please let me be clear: this 
hearing should not be about moral or ethical arguments with regard to 
gambling. This hearing should be about the very real costs of adding 
new casinos in Port Huron and Romulus, which H.R. 2176 and H.R. 4115 
aim to do. It should also be about how we measure these costs, who pays 
for these costs, and whether or not the benefits of these proposed 
casinos outweigh the costs.
    Despite what you have heard, these are not simple land swap bills. 
They are casino bills. If Congress allows this legislation to go 
through, it will pave the way for two new off-reservation casinos in 
Port Huron and Romulus. It will also drastically change how casinos can 
be approved all over the country. At a time when we need real IGRA 
reform, not new loopholes for casinos, these two bills are severely 
misguided. It should also be noted that the bills violate a Michigan 
gaming compact, agreed to by the Tribes and the State Legislature, 
which specifically prohibits off-reservation gaming unless all Tribes 
in Michigan agree to a revenue-sharing plan. The two casinos in 
question today have ignored this important agreement and circumvented 
regulatory process.
    Most importantly, it is important for this Committee to know that 
there are real economic costs and consequences to the bills before you 
today. I believe that it makes no economic sense to add more casinos in 
Michigan. First, new casinos in metro Detroit will ultimately result in 
the loss of economic output. Studies have consistently proven that 
gamblers lose their money and their jobs. In fact, one study in 2004 
estimated that problem gamblers lose enough money to equal a new 
recession every four years. Imagine the consequences in Michigan, a 
state with an already struggling economy, if it were to lose even more 
economic output. Second, casinos have proven to have a limited economic 
benefit to the surrounding region. The problem is that while a new 
casino's host city may see short term economic growth, studies have 
shown the regional economy is negatively impacted in the long term. 
Jobs, business and tax revenue are simply taken away from one community 
and given to another. Third, government is forced to pay higher costs 
as a result of new casinos. Some have estimated that for every $1 of 
economic benefit created by a casino, it costs the government $6 to pay 
for problems associated with gambling, including crime and social 
services. Finally, it has been proven that casinos raise local crime 
rates over the long-term, and local governments are ill-equipped to 
hire more police and law enforcement in the long-term.
    It is clear to me that Michigan is already paying for these kinds 
of costs. Since 2001, Michigan has spent over $20 million in taxpayer 
dollars trying to raise awareness about the costs of gambling. The 
state has run over 100,000 radio and print ads and maintained toll-free 
phone lines and counseling resources to deal with a spike in troubled 
gamblers. Today, there are over 350,000 problem gamblers in Michigan, 
and I fear that number will only grow should these two new casinos in 
Port Huron and Romulus move forward. Studies have shown that about 1 in 
20 people living near casinos become problem gamblers. You do the math 
for the citizens of metro Detroit, and it paints a grim picture.
    There is a reason our country regulates casino gambling, because 
there are costs. When Congress regulates things, it needs to take into 
account what happens to the region it is regulating. We would take into 
account the state and regional effect of a new smokestack in metro 
Detroit, but not a new casino? Clearly, there needs to be much more 
careful thought and analysis about these proposed casinos before they 
move forward.
    Today, Congress must also consider what the region and the state of 
Michigan wants. In this case, Michigan voters have already made their 
voices heard loud and clear. In 2004, Michigan voters said they wanted 
to approve any new casinos by a statewide vote. This ballot initiative, 
passed by an overwhelming margin, applied to new non-Indian gaming. The 
legislation this committee has before it today would authorize two 
casinos that have very little to with their respective Tribes. In fact, 
the proposed casinos would be located 350 miles off-reservation. I 
would argue that passage of these bills would directly undermine the 
voice of the citizens of Michigan and their desire to vote on any new 
casinos.
    Mr. Chairman, there are real economic and government costs to 
casinos. And there are real problems with the two bills before you 
today. Casinos are complicated, risky propositions that deserve to be 
carefully studied and regulated by Congress. Michigan voters have 
already stated their opinion on adding new casinos, yet these bills 
roll back regulations and create a dangerous precedent for the future 
of our country. I would urge your Committee to oppose H.R. 2176 and 
H.R. 4115. Thank you for convening this hearing.
                                 ______
                                 
    The Chairman. Candice.

STATEMENT OF THE HONORABLE CANDICE S. MILLER, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MICHIGAN

    Ms. Miller. Thank you very much, Mr. Chairman, and Ranking 
Member Young and members of the Committee. I also want to thank 
you sincerely, really sincerely, for holding this hearing.
    It is very, very important to my state, and I am here of 
course to urge you to approve both pieces of legislation that 
you are contemplating today, one of which would allow for a 
casino in the City of Port Huron, which is the city that I am 
very proud to represent here in the U.S. Congress.
    Port Huron is a beautiful city. It is a very proud city. It 
has fallen on extremely difficult economic times. It is no 
secret as been mentioned here that the State of Michigan is in 
a recession. We have the highest unemployment in the nation, we 
have the lowest personal income growth in the nation, we have 
one of the highest foreclosure rates in the nation, and 
unfortunately, you can take all of those statistics to the City 
of Port Huron and literally double them.
    Interestingly enough, Port Huron is one of the only United 
States border crossing towns on the northern tier of our nation 
where there is a casino on the Canadian side of the border and 
then not one on the American side.
    In fact, that was the most persuasive argument I thought 
that the leaders of the City of Detroit used when they were 
allowed to have their casinos in the City of Detroit because 
all the Americans were simply spending all of our American 
money over on the Canadian side in Windsor, Ontario, in their 
casinos to the detriment of the City of Detroit.
    Of course now that the City of Detroit has theirs, they 
don't want anyone else to have anything similar because in Port 
Huron you can simply look across the St. Clair River at the 
Canadian casino. In fact, if you are a pretty good golfer you 
can hit a golf ball--I couldn't do it, but some of you might be 
able to do it--and hit the sign that says casino that is 
blinking there. It is just 10 minutes away.
    Eighty percent of the revenues in that casino come from the 
United States. This is a Canadian casino which gives back 
literally millions of dollars every single year to their local 
municipalities which is being used for police, or fire, or 
improving their schools, or their roads, or what have you and 
for further economic development as well.
    All the City of Port Huron is asking for of the U.S. 
Congress is to approve a settlement which would allow the Bay 
Mills Indian Community to build a casino to generate jobs and 
revenue and allow them to work their own way back into some 
kind of economic activity, which certainly this casino would 
provide, and to help American citizens to do the very same for 
an American city that our Canadian counterparts right across 
the river are doing for their citizens.
    Let me also make this committee aware of sort of a unique 
distinction in the City of Port Huron. It is home to the Blue 
Water Bridge, which is actually the second busiest commercial 
artery, commercial crossing, on the northern tier of our 
nation. The Federal government is in the process of very huge 
expansion of the existing footprint of the current bridge 
plaza.
    In that process they will be condemning literally hundreds 
of acres of valuable residential property, and they are going 
to be taking it off the tax rolls of the City of Port Huron. We 
think this could have a significant negative impact on the 
city's ability to even survive.
    It would seem fair that if the Federal government is 
forcing the city to live with this decision because it does 
benefit commerce between the United States and Canada that it 
would certainly be fair for the Federal government to try and 
compensate the city in some way, and passing this legislation 
would be a fantastic help.
    I believe in representative government. I think all of us 
do. I think that most of us would agree that generally it is 
the Member of Congress in their particular district that 
understands what the people that live in that district want and 
how to best represent it. As has been pointed out, and I won't 
go into too much of this, but this legislation is settling a 
land claim that has been simmering for many, many years, 
decades.
    It started during a time in our nation's history, not a 
very good time, actually, when Native Americans were routinely 
taken advantage of. In this case, a former Governor of Michigan 
promised the Bay Mills Indian Community a 110 acre parcel of 
property located in Mr. Stupak's district, but then the 
government seized the land from the tribe, and they sold it.
    Subsequently, former Michigan Governor John Engler reached 
an agreement with the tribe to abandon its claim to that piece 
of property in exchange for some acreage in Port Huron, now my 
district. This agreement was also approved by the citizens of 
Port Huron in a citywide vote.
    This legislation was also put forward first I believe for 
congressional approval by my predecessor, David Bonior, in the 
House, and Senator Stabenow in the Senate during the 107th 
Congress, and of course today being advanced in a bipartisan 
way.
    This legislation, Mr. Chairman, and members of the 
Committee, is supported literally by every single elected 
official that represents the City of Port Huron in any 
capacity, and that includes the entire City Council, their 
County Commissioners, their state House members, their state 
Senator, certainly myself, both of our United States Senators, 
as well as our current Governor, Jennifer Granholm.
    You can't find anybody in any elected capacity who does not 
support this. In this legislation we are not asking the Federal 
government or anybody else for a handout. We are simply asking 
for fairness. We are asking for an opportunity. This issue has 
absolutely zero to do with any kind of partisanship. Again, 
both Republicans and Democrats support the plan.
    I will make one personal observation here, as been 
mentioned already by Chairman Dingell, but much of the 
opposition, not all of it, but much of the opposition is based 
purely on greed. It is all about the money and making sure that 
one part of the state can protect its revenue source from new 
competition and the heck with everyone else.
    Mr. Chairman, Congress has lived through some extremely 
painful revelations in recent years, revelations about high 
paid lobbyists who tried to manipulate people and elected 
officials about casino gaming, and the face of that scandalous 
behavior is Jack Abramoff who successfully lobbied against the 
City of Port Huron on this very legislation during the 107th 
Congress.
    I raise this because of a recent mailing that went out in 
Michigan, not by Jack Abramoff, but actually someone that has 
taken a page out of the playbook of Jack Abramoff, I believe. 
This is a copy of the mailed piece that was recently mentioned 
by Chairman Dingell. It is from Gambling Watch Michigan.
    This is a group that is asking citizens to call Senator 
Levin, and Senator Stabenow, and Congressman Stupak, and 
Dingell and myself and to voice their objections about two new 
casinos. Of course they do not tell anybody any information, 
where these casinos are or any other background.
    It is interesting, you know, the address actually of course 
is not from my district, or Mr. Stupak's, or Mr. Dingell's, it 
is from a different place, a different Member of Congress in 
Michigan. We had never heard of this group before, so we 
checked with the state. Here we find out their principals 
actually. They just incorporated two weeks ago.
    The principal officer listed actually is a very well-known 
political consultant who has done extensive work on behalf of 
gambling interests in Michigan and whose husband is a lobbyist, 
works for a lobbyist firm, who represents, guess what, other 
casinos that are now operating in Michigan. Some would say 
spare me the righteous indignation about the values here.
    These are from casinos who do not want fair competition. 
Mr. Chairman, and members of this committee, this legislation I 
believe is consistent with the provisions of IGRA. The gaming 
facilities that would be built are governed by IGRA rules.
    Certainly, on behalf of the wonderful, hard working men and 
women of the City of Port Huron and Romulus as well I would ask 
you to give us the opportunity to help ourselves and in 
fairness and support this legislation. Thank you very much for 
the opportunity to testify today.
    [The prepared statement of Ms. Miller follows:]

Statement of The Honorable Candice Miller, a Representative in Congress 
                       from the State of Michigan

    Chairman Rahall, Ranking member Young and members of the committee
    Thank you all for holding this hearing today. I am here to urge you 
to approve this legislation which would allow for a casino in the City 
of Port Huron, Michigan--a city that I am proud to represent in 
Congress.
    Port Huron is a beautiful city, a proud city, which has fallen on 
extremely difficult economic times. It's no secret that my state is 
suffering from a recession--we have the highest unemployment in the 
nation, the lowest personal income growth in the nation, we have among 
the highest foreclosure rates in the nation, and you can take all of 
those factors into consideration and in the case of Port Huron, 
probably double them.
    Interestingly enough, Port Huron is one of the only U.S. border 
crossing towns on the northern tier where there is a casino on the 
Canadian side of the border and not one on the American side.
    In fact, that was the most persuasive argument that the leaders of 
the city of Detroit used when they asked to be allowed to have casinos 
in Detroit--because all the Americans were simply spending their money 
in the Windsor, Ontario casino--to the detriment of Detroit. Of course 
now that they have theirs, they don't want anyone else to have anything 
similar.
    Because in Port Huron you can just simply look across the St. Clair 
River at the Canadian casino, just 10 minutes away, where 80% of their 
revenue is from Americans.
    A Canadian casino which gives back millions of dollars each year to 
local municipalities which they use to pay for police or fire, fixing 
their roads, to support their schools or further economic development.
    And all the city of Port Huron is asking for is for Congress to 
approve a settlement which would allow the Bay Mills Indian Community 
to build a casino--and generate jobs and revenue--and allow them to 
work their own way back into some economic activity which this casino 
will most certainly provide, and will help American citizens to do the 
same for an American city that our Canadian neighbors, right across the 
river, are doing for their citizens.
    Let me also make the committee aware of a unique distinction in the 
city of Port Huron it is home to the Blue Water Bridge, which is the 
second busiest border crossing on the northern tier--and the federal 
government is in the process of a huge expansion of the existing 
footprint of the current bridge plaza--and in that process they will be 
condemning hundreds of acres of valuable residential property and 
taking it off the tax roles.
    We think this could have a significant negative impact on the 
city's ability to survive and it would only seem fair that if the 
federal government is forcing the city to live with it's decision 
because it benefits commerce between the United States and Canada, then 
it would certainly be fair to try and compensate the city in some way, 
and passing this legislation would be very helpful.
    I believe in representative government--I think we all do--and I 
think that most of us would agree that the Member of Congress, who 
represents a particular district, generally understands what the people 
of that district want--especially if it is an activity that has 
absolutely zero impact on another district.
    So I would point out--that this legislation settles a land claim 
that has been simmering for many years--started during a time in our 
nation's history when Native Americans were routinely taken advantage 
of.
    In this case--a former Governor of Michigan promised the Bay Mills 
Indian Community a 110 acre parcel of property--located in Mr. Stupak's 
district--but then the government seized the land from the tribe and 
sold it.
    Subsequently, former Michigan Governor John Engler reached an 
agreement with the tribe to abandon its claim to that piece of property 
in exchange for some acreage in Port Huron, in my district
    This agreement was also approved by the citizens of Port Huron in a 
city-wide vote. This legislation was first put forward for 
congressional approval by my predecessor David Bonior in the House and 
Senator Stabenow in the Senate during the 107th Congress
    Today it is being advanced in a bi-partisan way by myself and Mr. 
Stupak.
    This legislation is supported by every single elected official who 
represents the city of Port Huron in any capacity. That includes the 
entire City Council, the county commissioners, the state 
representatives, the state senator, myself, both United States 
Senators, Stabenow and Levin, as well as our current Governor Jennifer 
Granholm.
    This legislation is not asking the federal government--or anyone 
else for a hand out--we are simply asking for fairness--and an 
opportunity
    This issue has absolutely zero to do with partisanship--clearly 
both Republicans and Democrats support the plan.
    But I will make a personal observation--and that is that most of 
the opposition is based purely on greed. It's all about the money and 
making sure that one part of the state can protect its revenue source 
from new competition--and the heck with everyone else.
    Congress has lived through some extremely painful revelations in 
recent years revelations about high paid lobbyists who tried to 
manipulate people and elected officials about casino gaming--and the 
face of that scandalous behavior is Jack Abramoff--who successfully 
lobbied against the city of Port Huron on this very legislation during 
the 107th Congress.
    And I raise this because of a recent mailing that went out in 
Michigan--not by Jack Abramoff--but by some who have taken a page out 
of his playbook
    Here is a copy of that mail piece--from Gambling Watch Michigan--a 
group which is asking citizens to call myself, Mr. Stupak, Mr. Dingell 
and our two United States Senators and voice their objections to 2 new 
casinos.
    They don't tell folks where they are; they just say we have enough 
casinos in Michigan. Sent from an address--not in my district, or Mr. 
Stupak's or Mr. Dingell's--it is in fact based in the district of 
another member from Michigan.
    We had never heard of this group so we checked with the state on 
when they were registered and who their principles are. This group just 
incorporated about 2 weeks ago and their principle officer is a well 
known political consultant who has done extensive work on behalf of 
gambling interests in Michigan and whose husband is a lobbyist who 
works for a lobbying firm who represents--guess what--other casinos now 
operating in Michigan.
    Casinos who do not want any competition.
    Mr. Chairman and members of this committee--this legislation is 
consistent with provisions of IGRA--and the gaming facility that would 
be built would be governed by IGRA rules. On behalf of the wonderful, 
hardworking and self reliant people of the city of Port Huron I am 
asking you to give us the opportunity to help ourselves and support 
this legislation.
                                 ______
                                 
    The Chairman. Thank you, Candice.
    Our committee is very honored to have a second full 
committee Chairman with us today, the distinguished and 
honorable Chairman of our House Judiciary Committee, the 
gentleman from Michigan, Mr. Conyers. Welcome, John. You may 
proceed as you wish.

STATEMENT OF THE HONORABLE JOHN CONYERS, JR., A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Conyers. Thank you, Mr. Chairman. I am so happy to be 
here and listen to all of you, your Ranking Member, Mr. Young, 
Mr. Heller, Dale Kildee of course, Dr. Christensen. This is a 
unique opportunity for us to get together. Actually, it is 
bringing the Michigan delegation together in ways that may not 
have been anticipated.
    The Chairman. I am very honored that our committee could do 
that.
    Mr. Conyers. It doesn't happen too often anyway. I have 
never heard Mr. Rogers make a more persuasive presentation 
since he has been in the Congress. I want to commend him. His 
experience and training here has just been enormously 
beneficial to everybody in the state. I want to thank him 
personally for that.
    Mr. Rogers. Can I quote you often on that, Mr. Chairman?
    Mr. Conyers. I am not going to give out releases or quotes 
today, so I am afraid I will have to keep that secret in the 
room. Now, I started out, I was so relieved to find out that 
this wasn't about gaming. Then I find out that maybe there is a 
gaming aspect to this hearing. So you have a lot of work in 
front of you.
    Then my chief of staff was in here for a few minutes, and I 
said, you know, this is a job for the Committee on the 
Judiciary. Here is the feds fighting state law, citizens 
resolutions.
    We have an issue tailor made for the Judiciary Committee 
that if, in your wisdom, Mr. Chairman, you wish to refer this 
matter to the tender mercies of our committee, we would be 
happy to have joint jurisdiction or work this matter out 
because there seems to be a lot of problems. Is it the state 
law that is to be obeyed, is it the Federal Indian Reservation 
legislation, or is it the Congress of the United States?
    This is a job for your committee on judiciary, and I urge 
you to keep that in mind.
    The Chairman. With all due respect, Mr. Chairman, I think 
our committee is capable of handling it.
    Mr. Conyers. Well, I just want to help. I know you will do 
a good job. My confidence in you is unending. I think it has 
been noted by one of the members of the Committee, Mr. Heller, 
who observed that these bills are opposed by tribes in Michigan 
as well as all around Indian country including tribes in New 
Mexico, California, the United States southeastern tribes, all 
concerned with the precedent that would be set with the passage 
of these bills.
    Of course there is a large issue. Is there any precedent 
setting involved in the consideration of this legislation or 
not? So even if we don't get jurisdiction, we are going to be 
watching carefully the legal ramifications of these conflicting 
kind of laws that are going to have to be resolved by this very 
important and distinguished committee.
    So my statement comports with that that has been made by 
the Chairwoman of the Congressional Black Caucus, Carolyn 
Kilpatrick. I don't need to go over that part of it again, but 
this to me could strike some as a short circuited process and 
give away congressionally mandated casinos. I am not sure if we 
want to proceed down this road.
    I am interested in the welfare of all parts of the State of 
Michigan's economic circumstances. We aren't here to benefit 
ourselves in the Detroit area to the detriment of anywhere else 
in the state. We are all in this together. I think this will be 
resolved by all of us together as well. So I thank you for this 
opportunity to join you this afternoon.
    The Chairman. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Conyers follows:]

   Statement of The Honorable John Conyers, Jr., a Representative in 
                  Congress from the State of Michigan

    Mr. Chairman, Members of the Committee, I want to thank you for the 
opportunity to testify today in opposition to H.R. 2176 and H.R. 4115. 
These bills will allow two Indian Tribes from Michigan's Upper 
Peninsula to establish casinos in Romulus and Pt. Huron, Michigan.
    It is not very often that I find myself disagreeing with my friends 
from the Michigan delegation, but today we do have very different views 
on these bills because they affect each of our districts in a very 
different way.
    Mr. Chairman, I am opposed to the passage of these bills for a very 
simple reason--they threaten the economic future of the city of 
Detroit.
    In 1994, the voters in the State of Michigan passed a statewide 
referendum to allow three private casinos to be built in the city of 
Detroit. During that campaign, the proponents argued that the passage 
of this referendum would spur economic development in Detroit, create 
well-paying jobs and benefits, and provide much-needed tax revenues to 
the city coffers. I am pleased to report, Mr. Chairman, that the 
development has occurred and jobs have been created.
    Since that referendum, over a billion dollars in new investment 
have poured into Detroit. In fact, just a few months ago, the MGM Grand 
opened up a new $800 million hotel and casino in the heart of the city. 
There is no question in my mind that MGM would never have made that 
kind of investment if it knew that Congress would be mandating 
additional casinos right outside the city borders.
    The three Detroit casinos have also been responsible for creating 
nearly 10,000 new jobs in the city. I need not remind this Committee of 
the economic difficulties that our city has faced as a result of the 
decline in our automobile manufacturing base. These well-paying jobs, 
many of them union jobs, have also brought tremendous health care 
benefits to people who were in desperate need of quality health care 
coverage.
    Finally, these three casinos have provided hundreds of millions of 
dollars in critically-needed tax revenues to the city of Detroit. I 
understand that last year the three casinos contributed over $450 
million in direct taxes, fees, and assessments to State and local 
governments.
    Mr. Chairman, what concerns me with these bills is that not only do 
they threaten the economic future of the city of Detroit, they also 
undermine the will of the voters in the State of Michigan.
    In 2004, Michigan voters passed another statewide referendum that 
limits the expansion of private gaming in Michigan. Any new private 
gaming expansion must be approved by a local as well as statewide vote. 
This law would still allow the city of Pt. Huron and the city of 
Romulus to pursue casinos, but they would have to do exactly what the 
city of Detroit did--get the approval of the voters in the State of 
Michigan. It is my understanding that both cities have already passed 
local referendums--so they are already halfway there.
    So the question I ask is why this Committee would attempt to favor 
one city over another. Shouldn't every city seeking a casino be 
required to go through the same process? I know these are Indian 
casinos, but Pt. Huron and Romulus are over 350 miles away from their 
reservations. This is not really Indian gaming.
    It took years for the voters of Michigan to pass the 1994 
referendum. But instead of following that common-sense process, we have 
legislation before your Committee that would short-circuit that process 
and give away congressionally-mandated casinos.
    Mr. Chairman, I believe these bills are unfair to the city of 
Detroit and every other city in Michigan that wishes to have casinos--
and believe me--there are a lot of them.
    I understand these bills are opposed by Tribes in Michigan, as well 
as all around Indian Country--including Tribes in New Mexico, 
California, and U.S. Southeastern Tribes--which are concerned with the 
precedent that would be set with the passage of these bills.
    For all of these reasons, I would encourage the Committee to reject 
these bills.
    Thank you.
                                 ______
                                 
    The Chairman. Shelley, welcome to the Committee.

STATEMENT OF THE HONORABLE SHELLEY BERKLEY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Ms. Berkley. Chairman Rahall, Ranking Member Young, members 
of the Committee, I appreciate the opportunity to speak today 
on an issue that we have been dealing with for over five years 
now and keeps rearing its ugly head again and again.
    I strongly oppose the bills offered by my good colleagues, 
Chairman Dingell and Congressman Stupak, that unfortunately 
offers a blueprint to any Indian tribe that wants to circumvent 
the laws regulating Indian gaming in order to build a casino 
outside the boundaries of its sovereign territory.
    For those of you who are not aware, I represent Las Vegas, 
Nevada, the gaming capital of the world. I am living proof of 
the positive impact gaming can have on a community. When my 
father moved his family there 45 years ago on a waiter's salary 
he made enough money to put a roof over our head, food on the 
table, clothes on our back and two daughters through college 
and law school.
    Not bad on a waiter's salary. That is because we had a 
strong economy base on the gaming industry. So I certainly do 
not begrudge the Bay Mills or the Sault Ste. Marie Tribes, or 
the communities of Port Huron and Romulus, their desire to 
participate in this successful industry.
    I do take issue with them attempting to flout the laws on 
Indian gaming, come to Congress for the worst type of special 
interest legislation and compete with existing facilities under 
a different set of rules. We already have a Federal law on the 
books that governs the process for approving gaming by Native 
American Tribes, the Indian Gaming Regulatory Act or IGRA.
    The Bureau of Indian Affairs can approve gaming on newly 
acquired land taken into trust under very limited 
circumstances. In the case of Bay Mills and the Sault Tribes, 
each of which already has gaming on their reservation lands, a 
suspect land claim was used as a bargaining chip in settlements 
with the Governor in which the tribes agreed to renounce their 
claim and receive alternative properties which just so happen 
to be in locations more conducive to gaming, namely near the 
population center of Detroit.
    In fact, a representative of the Sault Tribe described the 
deal as shady in his Senate testimony in 2002 before his tribe 
joined the party and stood to benefit from this agreement.
    In addition to the suspect land claim, which has been 
tossed out of both the State and Federal Court--let me repeat 
this--a suspect land claim that has been tossed out of both 
State and Federal Court, the settlements reached with former 
Michigan Governor John Engler to allow gaming at Port Huron and 
Romulus, which incidentally are part of the ancestral lands of 
a different tribe, the Saginaw Chippewa, violates the Michigan 
Tribal Gaming Compact which requires that any new off-
reservation gaming have the support of all the tribes in the 
state.
    These settlements, as has been testified by others before 
me, do not have that support. Residents of Detroit can attest 
to the role gaming has played in transforming that city. The 
three new casinos employ more than 7,500 people in the city and 
contribute hundreds of millions of dollars each year in tax 
revenue to the city and the state.
    The two proposed facilities will compete with the Detroit 
casinos for some of the same customers, but as sovereign tribal 
entities, without the burden of state and local taxes. In the 
last Congress this committee--this committee--approved 
legislation designed to crack down on this type of reservation 
shopping. It passed overwhelmingly with the support of the 
current Chairman, I might add.
    The bills we are discussing today would have the exact 
opposite affect, paving the way for any one of the more than 
500--500--recognized tribes to sue private land owners in an 
attempt to bargain for gaming elsewhere. Now, as the Chairman 
said, Congress has in fact legislated on these issues in years 
gone by, and that is the very reason that IGRA was passed, so 
to get Congress out of the business of deciding which tribe 
should have gaming and which tribes shouldn't.
    I don't think this is an area that Congress ought to be 
insinuating itself. If you think that passing these pieces of 
legislation will not be setting a very dangerous precedent, 
well then, I think we are all kidding ourselves. Whatever the 
title of these bills, land claim, not land claim, make no 
mistake, these bills are Indian gaming bills.
    Casinos will be built, and other tribes will demand the 
same preferential treatment being asked for by the Sault and 
Bay Mills Tribes today. Now, it is very interesting to me that 
people have intimated that gaming, gambling, is not mentioned 
in the title of these bills, but meanwhile, there was a study 
conducted to see if gaming in Romulus and Lake Huron would in 
fact compete with the casino revenue in Detroit.
    So it seems to me that somebody is setting the table for 
something, and it is not inviting me to dinner. Now, I also 
find it very ironic, and you will forgive me for a moment, I am 
defending my state, but criticizing those that may not live in 
Detroit or in Michigan as opponents of this legislation, that 
doesn't seem to stop the proponents of putting nuclear waste in 
the State of Nevada, the fact that they don't live there or 
they don't represent Nevada, where 77 percent of the people 
that do live in Nevada are opposed to nuclear waste.
    So I don't think that is an issue here. I have just as much 
a right to speak my mind in this piece of legislation as others 
have to speak their minds when it comes to nuclear waste. I am 
absolutely astounded that the name Abramoff has come up in 
relation to this legislation or any lobbying.
    That man was shamed and shamed because he was lobbying on 
Indian gaming special treatment. I don't think that is a road 
that any of us want to go down here.
    Now, to recap, Congress is being asked to pass special 
interest legislation benefiting two tribes, each of which 
already has gaming, based on a suspect land claim that has 
already been thrown out of State and Federal Court so they can 
open casinos hundreds of miles from their ancestral lands in 
direct competition with existing facilities that have helped 
revitalize a major American city.
    Now, what is not to like about this legislation? So with 
that, Mr. Chairman, I thank you again for allowing me to 
testify. I urge that people put this legislation where it 
belongs and where the sun don't shine. Thank you very much.
    [The prepared statement of Ms. Berkley follows:]

    Statement of The Honorable Shelley Berkley, a Representative in 
                   Congress from the State of Nevada

    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to speak today on an issue that we have been dealing with 
for more than five years now, and keeps rearing its ugly head again and 
again. I strongly oppose the bills offered by my colleagues Chairman 
Dingell and Congressman Stupak that offer a blueprint to any Indian 
tribe that wants to circumvent the laws regulating Indian gaming in 
order to build a casino outside the boundaries of its sovereign 
territory.
    For those of you who are not aware, I represent Las Vegas, Nevada, 
the gaming capital of the world. I am living proof of the positive 
impact gaming can have on a community--my father brought us to Las 
Vegas when I was a child and put food on the table and two kids through 
college and one through law school on a waiter's salary. I certainly 
don't begrudge the Bay Mills and Sault Ste. Marie Tribes, or the 
communities of Port Huron and Romulus, their desire to participate in 
this successful industry, but I do take issue with them attempting to 
flout the laws on Indian gaming, come to Congress for the worst type of 
special interest legislation, and compete with existing facilities 
under a different set of rules.
    We have a federal law on the books that governs the process for 
approving gaming by Native American tribes--the Indian Gaming 
Regulatory Act. Under IGRA, the Bureau of Indian Affairs can approve 
gaming on newly acquired land taken into trust under very limited 
circumstances. In the case of the Bay Mills and Sault Tribes, each of 
which already has gaming on their reservation lands, a suspect land 
claim was used as a bargaining chip in settlements with the Governor in 
which the tribes agreed to renounce their claim and receive alternate 
properties which just so happen to be in locations more conducive to 
gaming, namely near the population center of Detroit. In fact, a 
representative of the Sault Tribe described the deal as ``shady'' in 
his Senate testimony in 2002, before his tribe joined the party and 
stood to benefit.
    In addition to the suspect land claim, which has been tossed out of 
both state and federal court, the settlements reached with former 
Michigan Governor John Engler to allow gaming at Port Huron and Romulus 
(which incidentally are part of the ancestral lands of a different 
tribe, the Saginaw Chippewa) violate the Michigan Tribal Gaming 
Compact, which requires that any new off-reservation gaming have the 
support of all tribes in the state. These settlements do not have that 
support.
    Residents of Detroit can attest to the role gaming has played in 
transforming that city. The three new casinos employ more than 7,500 
people in the city and contribute hundreds of millions of dollars each 
year in tax revenue to the city and the state. The two proposed 
facilities will compete with the Detroit casinos for some of the same 
customers, but as sovereign tribal entities without the burden of state 
and local taxes.
    In the last Congress, this Committee approved legislation designed 
to crack down on this type of reservation-shopping. It passed 
overwhelmingly, with the support of the current Chairman, I might add. 
The bills we are discussing today would have the exact opposite effect, 
paving the way for any one of the more than 500 recognized tribes to 
sue private landowners in an attempt to bargain for gaming somewhere 
else.
    To recap: Congress is being asked to pass special interest 
legislation benefiting two tribes, each of which already has gaming, 
based on a suspect land claim that has already been thrown out of state 
and federal court, so they can open casinos hundreds of miles from 
their ancestral lands, in direct competition with existing facilities 
that have helped revitalize a major American city. What's not to like?
    Mr. Chairman, thank you again for allowing me to testify today.
                                 ______
                                 
    The Chairman. The sun always shines in Las Vegas, doesn't 
it? The Chair is very honored, matter of fact our committee is 
honored, to have mentioned two full committee Chairmen that are 
with us. We have a third full committee Chairman, which may be 
precedent setting, although this legislation is not precedent 
setting, but the Chair is very happy to welcome the 
distinguished Chairman of our Homeland Security Committee, the 
gentleman from Mississippi, Mr. Bennie Thompson.
    Chairman Thompson, welcome.

STATEMENT OF THE HONORABLE BENNIE G. THOMPSON, A REPRESENTATIVE 
           IN CONGRESS FROM THE STATE OF MISSISSIPPI

    Mr. Thompson. Thank you very much, Mr. Chairman, and other 
members of the Committee. At the risk of being repetitive I 
will basically summarize my comments. I am not here as Chair of 
the House Homeland Security Committee. I am here today as Chair 
of the Congressional Black Caucus Gaming Task Force.
    We have 15 members of that task force. I chair. I have 24 
operating casinos in my congressional district. Next to my 
colleague from Las Vegas, I am number two. For once in my life, 
Mississippi is on top. I am happy. Gaming has meant a lot to 
that. I come here today opposed to the two current bills being 
considered before the Committee today.
    Both bills would allow the development of off-reservation 
casinos in the State of Mississippi. I want to begin by 
affirming that I wholeheartedly support Native American issues 
ranging from the improvement of health, education and housing. 
It is clear that these issues cannot properly be addressed 
without economic development activities including on site 
gaming, which many tribes currently enjoy.
    To me, for this debate the key word, Mr. Chairman, is on 
site gaming, gaming that is carried out, previously established 
reservation as described in regulations set forth by the 
Department of Interior, Bureau of Indian Affairs. The two bills 
in discussion today provide tribes with land designation off 
reservation for the primary purpose of developing casinos.
    This is a process which is commonly referred to as 
reservation shopping where tribes attempt to seek designation 
of sovereignty of lands not currently within their legal tribal 
reservation for the sole purpose of establishing a gaming 
facility. I think, Mr. Chairman, even though the language might 
not say it, the clear intent of this whole legislation is to 
establish gaming.
    What we are trying to do by doing that is circumventing the 
Bureau of Indian Affairs and clearly the Indian Gaming 
Regulatory Act by awarding this issue to a tribe that is trying 
to get designation 300 miles from their reservation. This is a 
clear case of reservation shopping. One of the most blatant in 
the history of the Indian Gaming Regulatory Act.
    The proposed legislation is contrary to the intent of the 
Indian Gaming Regulatory Act and would establish a precedent 
that would undermine the Act itself. So in summation, Mr. 
Chair, I would recommend that the Committee not send these 
bills forward as they deeply trouble a lot of us because they 
are precedent setting and for the most part undermine the 
Indian Gaming Regulatory Act by establishing reservation 
shopping. Thank you very much.
    [The prepared statement of Mr. Thompson follows:]

  Statement of The Honorable Bennie G. Thompson, a Representative in 
                 Congress from the State of Mississippi

    Good morning, Mr. Chairman and Members of the Committee. I am 
Congressman Bennie G. Thompson, representing the Second Congressional 
District of Mississippi, and though I Chair the Committee on Homeland 
Security, I come to you today as the Chair of the Congressional Black 
Caucus Gaming Task Force and the representative of 24 casinos in my 
Congressional District. There are 15 members of the CBC Gaming Task 
force, many who have operating casinos in their district both tribal 
and non-tribal and a few who have referendums pending in their 
Districts for both tribal and non-tribal gaming enterprises.
    I come to you opposed to the two current bills being considered in 
Committee today, H.R.2176 and H.R. 4115--both which would allow for the 
development of off-reservation casinos in the State of Michigan.
    I want to begin by affirming that I wholeheartedly support Native 
American issues, ranging from the improvement of health, education, and 
housing. It is clear that these issues cannot be properly addressed 
without economic development activities, including on-site gaming which 
many tribes currently enjoy.
    To me, the key word is on-site gaming; gaming that is carried out 
on previously established reservations as described in regulations set 
forth by the Department of Interior, Bureau of Indian Affairs.
    The two bills in discussion today provide tribes with land 
designations off-reservation for the primary purpose of developing 
casinos. This is a process which is commonly referred to as 
``reservation shopping''--where tribes attempt to seek determinations 
of sovereignty on lands not currently considered within their legal 
tribal reservation for the sole purpose of establishing a gaming 
facility.
    There are some who would have you believe that this legislation is 
about helping tribes who seek to have this land located hundreds of 
miles from their reservations approved as reservation lands; however, 
these bills have nothing to do with settling a legitimate land claim. 
Plain and simple, these bills are all about expanding off-reservation 
gaming in Michigan.
    Furthermore, the Bay Mills Indian Community and Sault Ste. Marie of 
Chippewa Indians have no historical or ancestral ties to the land on 
which they want to build casinos in Port Huron and Romulus. There is 
concern, even among other Native American tribes, that off-reservation 
casinos weaken public and government support for Indian gaming and 
undermines the purpose of the Indian Gaming Regulatory Act (IGRA) which 
is to promote development of strong reservation economies through ``on-
reservation'' casinos. Also, it has been noted that other tribes 
opposed to off-site gaming feel that our actions today will invite 
disputes among tribes when the locations is close to more than one 
tribe that has a significant historical connection and leads to an a 
proliferation of casinos in urban areas.
    The Bureau of Indian Affairs has ruled against several of these 
applications that constitute ``reservation shopping'' This is not a new 
issue. In fact, legislation has been proposed in the past to eliminate 
the practice of ``reservation shopping''.
    These bills allow two Michigan Tribes to abuse a loophole in the 
Indian Gaming Regulatory Act (IGRA) to conduct gaming on lands that are 
over 350 miles from their reservations. This is clear case of 
reservation shopping; one of the most blatant in the history of the 
IGRA. The proposed legislation is contrary to the intent of IGRA and 
would establish a precedent that would undermine the Act.
    I would urge the Committee to not send these bills forward as I am 
deeply trouble and concerned with the precedent that would be set with 
the passage of these bills. I encourage the committee to reject these 
bills.
    Thank You.
                                 ______
                                 
    The Chairman. The Chair wishes to thank all of the panel 
for taking the time to be with us today. I have no specific 
questions, but I do feel it appropriate to make a comment at 
this point for the record, and that is to state that the 
allegations that these two bills constitute off-reservation 
casino shopping, in this Chair's opinion and the record I think 
will clearly show, does not have merit.
    These are efforts to settle legitimate land claims of the 
two tribes involved. In previous cases there may not have been 
land claims involved where the allegations of off-reservation 
shopping are made. Resolving Indian land claims is something 
that is vested with the Congress, and the Congress has resolved 
these types of claims on numerous instances.
    I do have a list before me of 14 such instances where these 
type of land claims have been settled by the Congress. The 
legitimacy of the land claims that are the subject of the two 
bills before us has been recognized by two Governors of the 
State of Michigan, as has been referenced already, Republican 
John Engler and current Democratic Governor, Jennifer Granholm.
    Indeed, the current Governor, Jennifer Granholm, stated in 
a letter addressed to Ranking Member Don Young and myself, 
``The Federal Courts have held that both the Bay Mills Tribe 
and the Sault Tribe trace their ancestry to the two Chippewa 
bands named in the deed to the disputed Charlotte Beach lands 
and that both tribes accordingly share in any potential claim 
based on those lands.''
    I have no reason whatsoever to doubt the integrity of these 
two Governors of Michigan, nor from the historical and judicial 
record to doubt the legitimacy of these land claims. There is 
an effort afoot to equate this matter with the off-reservation 
policy issued by the Interior Department on January 3 of this 
year, and the denial of any off-reservation land into trust 
applications announced by the Interior Department as a result 
of that policy.
    This is mixing apples and oranges. Not one of those denied 
applications involved the settlement of Indian land claims. So 
I just wanted to set the record straight on that record and 
present the record for this committee taking up this 
legislation.
    I recognize the Ranking Minority Member.
    Mr. Young. Yes. Mr. Chairman, thanks for that comment 
because I have listened to the testimony of the witnesses and 
each one has their own beliefs, but this is not shopping. That 
is number one.
    Candice, you referred to it. At one time there was how many 
acres? Who has got that cell phone on?
    Ms. Miller. It wasn't me.
    Mr. Young. All right. Good. Didn't the Bay Mills Tribe, it 
was called something different, they were granted, I don't know 
what year, so many acres of land and that was taken and sold. 
Then there was a settlement, where?
    Ms. Miller. It was 110 acres, actually. This was back in 
the 1850s I believe.
    Mr. Young. Charlotte Beach. One hundred ten acres. OK. 
Then?
    Ms. Miller. The state government of Michigan, the Governor 
at that time said that they were going to allow this for the 
Indian tribe, and the Governor at that time back in those 
years----
    Mr. Young. 1855.
    Ms. Miller.--seized that land. They seized it, they stole 
it from the Indians and they sold it.
    Mr. Young. And then the land, sort of a settlement. They 
had the land they sold. Has there been any compensation or any 
land giving for that 105 acres?
    Mr. Stupak No.
    Ms. Miller. No. Not that I am aware of, no. One hundred ten 
acres.
    Mr. Young. All right. Again, I appreciate everybody 
testifying in this legislation. Like my good Chairman, Mr. 
Conyers, said, it is the first time I have seen so many 
Michigan people in the same room at the same time. Six and six 
is pretty good.
    Mr. Rogers. You can see us at the car show.
    Mr. Young. Yes. The other question I have from anybody on 
the panel, I heard some question about sharing from Mr. Rogers. 
What percentage do the existing Indian tribes' casinos share 
with the other tribes now that don't have gambling?
    Mr. Rogers. Not sure I understand your question, but I 
wouldn't know the percentage.
    Mr. Young. Well, you said there was no sharing under the 
provision of these two bills. Is that in lieu of the fact that 
there was sharing from the other tribes.
    Mr. Rogers. The agreement under the compact was that all 
tribes share in the revenue of new casinos.
    Mr. Young. And are they doing that?
    Mr. Rogers. That I can't speak to. I think there is a panel 
next that will speak to that.
    Mr. Young. OK.
    Mr. Stupak Mr. Chairman?
    Mr. Young. Yes?
    Mr. Stupak A new casino just opened up in my district off 
reservation. Nobody objected to it. They are doing quite well. 
They are not sharing the revenue from that casino with the 
other tribes in Michigan.
    Mr. Young. Now, following that question, it is my 
understanding that this agreement or this was to become 
legislation. I am not kidding you, I agree it is a gambling 
bill. I know that is where the Chairman is coming from, and the 
good lady from Nevada, and the good gentleman from Nevada. It 
is a gambling bill.
    It is my understanding this is a greater sharing under this 
provision than in existing casinos within the State of Michigan 
to the state and the local governments.
    Mr. Stupak Mr. Young, when the three casinos in Detroit 
opened up the Native Americans then no longer had to pay their 
eight percent to the State of Michigan. That was always the 
agreement. Once they lost their exclusive right to game in 
Michigan that eight percent went out the window. Michigan 
stopped collecting it.
    In the settlement agreements negotiated between Governor 
Engler and reaffirmed by Governor Granholm if these two tribes, 
the Sault Tribe and Bay Mills, allowed to open a casino, let us 
say Romulus and let us say Port Huron, they then have to pay at 
least eight percent, and it might even be more now, to the 
State of Michigan while the other casinos that are operating 
would not have to.
    That is why the State of Michigan, it is a windfall for 
them in a way. They are paying a special tax on these two 
casinos that the other casinos are not paying.
    Mr. Young. Just one last question, Mr. Chairman. Candice, 
you have mentioned the fact there is, I think I saw a picture 
of it, a Canadian casino right across the creek.
    Ms. Miller. Across the St. Clair River.
    Mr. Young. What about the chances the Canadians coming down 
and spending their dollars in America after we open this casino 
up?
    Ms. Miller. Well, I will tell you. Interestingly enough, 
because of the difference between the Loon----
    Mr. Young. Value of the dollar.
    Ms. Miller.--and our dollar right now, that was some of our 
biggest revenue that was happening--in the City of Port Huron 
we have a large mall there--during the Christmas shopping rush 
because they were coming across. So it would be wonderful if we 
could get them to come and spend some of those Canadian dollars 
in an American city on this because, as I say, fully 80 
percent--this is not about all these other studies, but I can 
tell you the study of this particular casino across the river--
80 percent of all those revenues are U.S. dollars that are 
being spent right there.
    I mean, you can see just as clear. You are standing right 
there looking at it. That is how close it is.
    Mr. Young. Last, Mr. Chairman, I said that a moment ago, 
but last, I am an old duck hunter. I found out the best way to 
get a lot of ducks is have a lot of decoys on the water. You 
may not like gambling, Mr. Rogers, and I understand that, but 
the idea that competition is not good I think is dead wrong.
    I think you will find out that in reality this will 
increase all the revenues to all the gambling casinos. I know 
there are those that don't approve of gambling, and I 
understand that. I don't buy the argument this is unfair 
competition, or they are getting a break, or any other type. I 
think this will actually be a plus for the industry itself, and 
I think it will be good for the communities.
    Again, these are communities that yes, the state voted on 
it, and those that run that campaign already have theirs. They 
want to pull the plank up and let no one else in the program. 
So, but I don't buy the idea that competition is bad.
    Mr. Chairman, I yield back.
    The Chairman. The gentleman from Michigan, Mr. Kildee.
    Mr. Kildee. Just very briefly. Mr. Stupak, the people on 
the Charlotte Beach land right now, you indicated there is a 
cloud over their title to the land.
    Mr. Stupak Correct.
    Mr. Kildee. Is it not true that only Congress can 
extinguish land claims? It can't be the Bureau of Indian 
Affairs or the Department of the Interior. Under the Indian 
Regulatory Act, only Congress. That is why it is before this 
body.
    Mr. Stupak That is true under approximately 180 land owners 
on Charlotte Beach who have devalued property, property 
devalued by as much as 90 percent because of this cloud on the 
title. Everyone up there including the tax assessor recognize 
the valid claim of the two tribes on property on Charlotte 
Beach.
    Mr. Kildee. And they can't go to BIA or Department of 
Interior?
    Mr. Stupak They can't go BIA or anywhere.
    Mr. Kildee. Only this body can extinguish that land claim?
    Mr. Stupak The U.S. Congress is the only one that can 
extinguish a land claim.
    Mr. Kildee. Thank you. Thank you. I yield back.
    The Chairman. The gentleman from Nevada, Mr. Heller.
    Mr. Heller. Thank you, Mr. Chairman. I want to express my 
appreciation to Chairman Young calling this exactly what it is, 
and that is a gambling bill. I want to respectfully disagree, 
maybe very respectfully disagree with you, Mr. Chairman, on 
perhaps the fact that we have a different definition of 
competition.
    I think competition has an even playing field. For 
competition to in fact bring in more revenues I believe that 
everybody has to be on the same playing field. The fact that 
some pay taxes, some do not pay taxes differentiates between 
those that can succeed and those who can't succeed, so as long 
as the playing field is even.
    I hear the proponents of this continue talking about this 
having nothing to do with gaming or casinos. Yet, I look at 
both of these bills, H.R. 4115 and H.R. 2176, and on page three 
of both of these they have a provision specifically talking 
about gaming. We could make everybody happy, Mr. Chairman, and 
maybe you would agree and maybe the proponents would, just to 
take this section out.
    Then we can make it a specific land bill. I don't know if 
there is any disagreement with that, and I would love to have 
responses to that. Thank you, Mr. Chairman.
    The Chairman. The gentleman from Hawaii, Mr. Abercrombie.
    Mr. Abercrombie. Yes. Thank you, Mr. Chairman. By the way, 
I just want to make certain of this because our distinguished 
guests may not be familiar necessarily of what this committee 
does ordinarily and routinely, although the solution to these 
bills is never routine, which is the land claim question.
    It is a real sensitivity for this committee. Now, there may 
be all kinds of difficulties and challenges locally in terms of 
the gaming or the circumstances of it, taxation. All that, at 
least I think has been the record of this committee, that gets 
settled locally. We don't try to impose that on anybody.
    Whatever Michigan, either by way of the cities, or the 
states, or the localities and so on, have gone through, that is 
your business. It is our business on the land claims. That is 
the underlying rationale for this committee's jurisdiction with 
respect to the Constitution. These two bills are fundamentally 
land claim settlement.
    Now, what goes into that settlement I think has to be 
determined by you folks in the Michigan area. I am very 
sensitive to what Representative Shelley Berkley was talking 
about having voted with you on the Yucca Flats situation 
because I believe that it is imposing it on Nevada. I don't 
think that is right.
    Being in the hospitality industry ourselves, right, we have 
made a decision on gambling in Hawaii which benefits Las Vegas 
because a significant portion of revenue that goes into Las 
Vegas I can assure you comes from Hawaii. We have specific 
airplane operations in hotels there in Nevada, and in Las Vegas 
in particular, that do a major portion of business with people 
from Hawaii.
    So these things have to get settled that way. So believe 
me, I understand that. Our fundamental jurisdiction is on land 
claims. We have to judge that objectively on the basis of what 
the land claim legislation is. When that is done, and so I 
don't mislead anybody, I am inclined to be supportive of this 
and I have my own parochial interest as well because the native 
Hawaiians are trying to go through exactly the same thing right 
now.
    They have historic claims that need to be settled, and we 
are struggling to find legislative venues that will allow us to 
settle this issue. Now, not everybody is going to be happy with 
what comes out of the settlement. That remains for the politics 
of the situation in terms of resolving it. Our duty in this 
committee is to take votes on the merits or demerits of land 
claims legislation.
    If that is the case, I am inclined to support it because I 
think it would be hypocritical of me to ask for the 
consideration of other Members of Congress with regard to land 
claims legislation in Hawaii and then turn around and not be 
able to make a judgment which I believe is our obligation and 
duty in this committee with regard to this legislation. You can 
comment if you want.
    Mr. Stupak You have indicated that the State of Michigan 
may have had other laws, and it has been alluded by some of the 
members up here that in 2004 Michigan passed a law requiring 
voter approval and therefore there should be a statewide 
initiative.
    I would like to submit for the record the 2004 statewide 
ballot proposal which says proposal to amend state constitution 
to require voter approval of any form of gambling authorized by 
state and certain new state lottery games, specifically that 
the voter approval requirement does not--does not--apply to 
Indian tribal gaming or gaming in up to three casinos located 
in Detroit.
    So while they are saying that we passed a statewide 
initiative banning any new forms of gaming, it did not apply to 
Native American Indian gaming. I just wanted to clarify it for 
the record as Chairman had done earlier as part of the record.
[GRAPHIC] [TIFF OMITTED] T0622.021

    Mr. Abercrombie. I will just leave it at that. In some 
respects that is making my point to me. I think that is 
entirely up to you folks. I am not going to comment on any of 
that any more than I would like you, as some people have done, 
to try to come out to Hawaii and tell us what we should be 
doing with the ceded lands and the Hawaiian homelands.
    Everybody, believe me. For those of you who haven't been 
through this with our committee, every single bill that comes 
up on land claims has its own unique properties, and no pun 
intended on that. I mean, it has its own unique history, it has 
its own unique challenges and nothing is ever the same. Nothing 
is without its almost incredibly convoluted history that has to 
be resolved one way or another.
    So it comes down basically to land claims legislation and 
land settlement. Then, what happens as the result of that I 
think is up to local authority and for you folks to work out 
yourselves. Thank you, Mr. Chairman.
    The Chairman. Gentlelady from the Virgin Islands, Ms. 
Christensen.
    Ms. Christensen. I don't have any particular questions for 
our distinguished panel, but just in response to Mr. Heller's 
comment, it seems to me that I recall that in another hearing 
with another tribe that was seeking Federal recognition we did, 
and they did agree that gaming would not be a part of that 
agreement to have them recognize.
    As you know, I think that, as Mr. Thompson and others have 
said, we really stand by our Native American Tribes, and their 
sovereignty and the need for a settlement, but I have not yet 
been convinced, I am waiting to hear the other testimony, that 
this would not be extremely damaging to Detroit and to some of 
its surrounding areas.
    I will listen to the testimony, and I will have questions 
for some of our other witnesses.
    The Chairman. If I might respond to you, Donna. Those bills 
to which you referenced in previous legislation of this 
committee concerned nonFederally recognized tribes. These are 
Federally recognized tribes and therefore involve legitimate 
land claim disputes.
    Ms. Christensen. My issue is not with the land claims. It 
was with the gaming part.
    The Chairman. I just want to distinguish between what you 
were referencing.
    Ms. Christensen. Thank you.
    The Chairman. The Chair will recognize the gentlelady from 
California, Ms. Napolitano.
    Ms. Napolitano. Thank you, Mr. Chair. I really don't have 
many questions because I have been listening intently in my 
office.
    I have long been antigaming with the exception in the areas 
where it has been a necessity because the Federal government 
has always ignored services to the Native Americans, and that 
happened to be something that California went through many 
years ago when they started establishing their casinos and 
their gaming.
    My contention was if they can help themselves, then I will 
support in them in that, but when it comes to major gambling, 
major gaming, I have been involved in stopping those processes 
within my own community twice and adjoining communities several 
times because of the fact that it is an unfortunate thing that 
happens, people get addicted to gambling.
    Many have come before at the time I was on City Council and 
indicated to us openly that they had lost their homes, their 
business, their families because of their gambling habit. So to 
me it is a two-edged sword.
    Native Americans have been very successful, especially in 
California, in helping other tribes, in establishing medical 
facilities for themselves and their community, for educating 
their children and being able to at least pull themselves out 
of certain poverty if you will.
    So I, too, will look forward to the rest of the testimony 
because while I do support land transfers that are legitimate, 
and we have gone through those in this committee as was 
indicated by the Chair, but there is certainly something in 
what Mr. Heller says and what my colleague, Ms. Christensen, 
indicates is if the gaming portion is taken out, would this 
still be a viable solution for the tribes? Thank you, Mr. 
Chair.
    The Chairman. Thank you, Grace.
    With the agreement of members of the Committee, the Chair 
would like to invite the members of this distinguished panel, 
each of you, to join us on the podium here as we hear from the 
rest of the panels today.
    You will be recognized for questions from the rostrum here 
after of course members of the Committee are recognized. So 
anybody that wants to join us is welcome to unless there is 
objection from our colleagues. Thank you.
    The Chair will now call our second panel composed of one 
individual, The Honorable Carl Artman, who is the Assistant 
Secretary, Bureau of Indian Affairs, United States Department 
of Interior, Washington, D.C.
    Mr. Secretary, we welcome you to the Committee. We have 
your prepared testimony. It will be made a part of the record 
as if actually read, and you may proceed as you desire.

 STATEMENT OF THE HONORABLE CARL ARTMAN, ASSISTANT SECRETARY, 
  BUREAU OF INDIAN AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR, 
                        WASHINGTON, D.C.

    Mr. Artman. Good afternoon, Mr. Chairman, members of the 
Committee. My name is Carl Artman, and I am the Assistant 
Secretary for Indian Affairs at the Department of the Interior. 
I am pleased to be here today to testify on H.R. 2176 and H.R. 
4115.
    Through the legislation Congress had approved and ratified 
agreements executed in 2002 between the State of Michigan and 
the Bay Mills and Sault Ste. Marie Tribes alternate lands would 
be provided to each in consideration for extinguishing the 
tribes' claims to the Charlotte Beach, Michigan, lands.
    The Department does not support these bills for several 
reasons. The mandatory nature of the land acquisition 
provisions would require that alternative lands be taken into 
trust even if NEPA liabilities existed on these lands. We 
recommend that any acquisition in trust be conditioned upon the 
lands meeting applicable environmental standards.
    The mandatory nature of the land acquisition would preclude 
consultation with affected tribal, state and local governments 
that takes place under our 151 regulations. In addition, 
Section 2710[d] of the Indian Gaming Regulatory Act requires a 
tribe and state to enter into a compact approved by the 
Secretary, and that notice of such approval be published in the 
Federal Register before Class III gaming occurs.
    The settlement agreements include many provisions commonly 
found in tribal state gaming compacts under the Indian Gaming 
Regulatory Act. Finally, we are concerned with the lack of 
consultation with other Michigan tribes that may be impacted by 
the terms of these settlements since the legislation would 
waive Section 9 of the Michigan compacts to the extent it is 
implicated by the settlements.
    This concludes my oral statement, and I will be happy to 
answer any questions that the Committee may have.
    [The prepared statement of Mr. Artman follows:]

    Statement of Carl Artman, Assistant Secretary--Indian Affairs, 
                    U.S. Department of the Interior

    Good afternoon, Mr. Chairman and Members of the Committee. My name 
is Carl Artman and I am the Assistant Secretary--Indian Affairs, at the 
Department of the Interior. I am pleased to be here today to testify on 
H.R. 2176, a bill to provide for and approve the settlement of certain 
land claims of the Bay Mills Indian Community, and on H.R. 4115, a bill 
to provide for and approve certain land claims of the Sault Ste. Marie 
Tribe of Chippewa Indians. Because of the potential for liability to 
the United States, and because the settlement agreements go beyond 
those required for the settlement of a land claim and circumvent an 
established process, the Department cannot support these bills.
Background
    H.R. 2176 would approve and ratify an agreement executed on August 
23, 2002, between the Governor of the State of Michigan and the Bay 
Mills Indian Community. H.R. 4115 would approve and ratify an agreement 
executed on December 30, 2002, between the Governor of the State of 
Michigan and the Sault Ste. Marie Tribe. The settlement agreements 
provide the basis for Congress to extinguish the two tribes' claims to 
the Charlotte Beach lands. In consideration for the extinguishments of 
the tribes' claims, Section 2 of H.R. 2176 would require the Secretary 
to take into trust for the Bay Mills Indian Community alternative land 
located in Port Huron, Michigan. Section 1(b) of H.R. 4115 would 
require the Secretary to take into trust for the Sault Ste. Marie Tribe 
two parcels of land, one located in Oswego County, subject to the 
approval of the Village of Vanderbilt and the Little Traverse Bay Bands 
of Odawa Indians, and the other one located in the City of Romulus, 
Michigan, subject to the approval of the City.
Problematic Provisions
    Both bills would establish a 30 day requirement for the Secretary 
to take land into trust for the Tribe once the Secretary receives a 
title insurance policy for the alternative land that indicates it is 
not subject to any mortgage, lien, deed of trust, option to purchase, 
or other security interest. The mandatory nature of the land 
acquisition provisions would require that alternative lands be taken 
into trust even if the Department determines that potential liabilities 
exist on these lands. The legislation precludes the Department from 
evaluating the subject property to determine whether hazardous 
materials are present. The Department asks that Congress consider the 
cost to and potential liability of the United States Government with 
respect to legislative transfers of land into trust, both in this 
particular instance and all future mandatory trust transactions. We 
recommend any acquisition in trust be conditioned upon the lands 
meeting applicable environmental standards. The mandatory nature of the 
land acquisition would also preclude consultation with affected tribal, 
State, and local governments that takes place under our regulations.
    In addition, section 2710(d) of the IGRA requires that a tribe and 
State enter into a compact approved by the Secretary and that notice of 
such approval be published in the Federal Register before Class III 
gaming may occur.
    The settlement agreements include many provisions commonly found in 
a tribal-state compact under the Indian Gaming Regulatory Act (IGRA):
    (1)  the Governor's concurrence in the trust acquisition of the 
alternative lands for gaming purposes;
    (2)  Tribal payments to the State of Michigan in an amount equal to 
8 percent of the net win derived from all Class III electronic games of 
chance in consideration for limited geographical exclusivity, and 
payments in the aggregate amount equal to 2 percent of the net win from 
all Class III electronic games of chance to local units of state 
governments;
    (3)  limitation of the Tribes' Class III gaming operations in 
Michigan;
    (4)  the Governor's forbearance from exercising the State's 
unilateral right to renegotiate the Compact pursuant to Section 12(c) 
of the Compact; and
    (5)  a statement that Section 9 of the compact is not implicated by 
provision of the alternative land to the Tribe, and the Governor's 
waiver of this provision to the extent it is determined to be 
implicated.
    However, these bills appear to circumvent the tribal-state compact 
approval process by bypassing the approval of the Michigan State 
legislature. The Department respects tribal and state rights and 
supports the tribal-state compact negotiation and approval process. 
Therefore, we believe that these provisions would best appear in a 
compact.
    Finally, we are concerned with the lack of consultation with other 
Michigan tribes that may be impacted by the terms of these settlements 
since the legislation would waive Section 9 of the Michigan compacts to 
the extent it is implicated by the settlements.
    This concludes my remarks. I will be happy to answer any questions 
the Committee may have. Thank you.
                                 ______
                                 
    Mr. Kildee. [Presiding.] Thank you very much, Mr. 
Secretary. We appreciate your presence here today, and we 
appreciate the role you will play in the welfare of the Native 
Americans. I have served in Congress for 32 years and have 
dealt with many Assistant Secretary in charge of the BIA and I 
appreciate the enormity of your job and the responsibility of 
your job. I appreciate your presence here today.
    Mr. Artman. Thank you, sir.
    Mr. Kildee. Please explain what is the Department's 
position regarding land acquired by a tribe located away from 
the reservation through congressional settlement, whether that 
view is different when a tribe seeks to acquire land off the 
reservation through the administrative process?
    Mr. Artman. Well, in this particular situation acquiring 
land and settlement of a land claim, the Department supports 
settlement of land claims, and sometimes that may take place 
off reservation.
    As I mentioned in the testimony, we would like to be able 
to at least examine the land form as the legislation makes 
clear title opinion, make sure that there are no liens on it, 
certainly, but also go through the additional 151 regulation 
steps including reviewing it for environmental compliance, 
seeking consultation with neighboring tribes, local 
governments, state governments, et cetera.
    Mr. Kildee. Thank you. While you have expertise and we call 
upon you, as we have called upon you today, to share that 
expertise with this committee, which indeed has its own 
expertise, under the Indian Non Intercourse Act only Congress, 
though, can really extinguish a land claim settlement. Land 
cannot be sold or in any way taken away from the Indians unless 
through action of the Congress. Am I not correct on that?
    Mr. Artman. We agree with you, sir. Yes, that is correct.
    Mr. Kildee. OK. So that is why people wonder why we are 
gathering here and I have reiterated this. We are the only 
body, and this law dates back to in the 1780s I believe 
sometime, the Indian Non Intercourse Act, because there was so 
much sales taking place.
    I can recall, my dad can recall in Michigan where the one 
tribe near where he lived, that they put the land on the tax 
rolls unbeknownst to the tribe, and then a year later when the 
taxes weren't paid they came in and took the land away from the 
Indians and to make sure they didn't return burned the village 
down.
    My dad can remember that happening. This is the reason we 
have this real tight control over any land settlement and any 
selling or exchange of Indian property. So your expertise is 
extremely important in guiding us, but ultimately, it is only 
our action that can really bring this about. That is true, is 
it not?
    Mr. Artman. That is correct, Congressman Kildee. We 
certainly support and understand the Congress' plenary power in 
area.
    Mr. Kildee. Well, OK. Since IGRA does not define settlement 
of a land claim, does the Department have a position as to what 
factors should guide our decision when considering settlement 
legislation?
    Mr. Artman. Well, first, we would like to have the 
opportunity to examine it not just for liens and title 
impositions, but also for environmental compliance, compliance 
with the National Environmental Policy Act. Also, we would like 
to have the opportunity to make sure that neighboring tribes 
and localities have some consultation on that, though Congress' 
plenary power certainly seems to override that.
    With regards to this particular situation where there may 
be gaming involved we would also like to have the ability to 
adhere to IGRA and have the ability to have the Department of 
the Interior review the compact provisions. Now, within the 
settlement agreement and within this settlement agreement there 
are provisions that seem like compact type provisions.
    If this legislation were passed, and gaming did occur on 
those lands and those provisions were used as part of the 
Tribal State Gaming Compact we would be in a unique position of 
asking what do we do with that? Certainly, Congress has acted 
upon it. Congress has affirmed or supported the settlement 
agreement and all of its provisions.
    Does this law then take the place of the Indian Gaming 
Regulatory Act? How do we review this for revenue sharing? Is 
it a taxation? Is the exclusivity of the tribe somehow impacted 
combined with this revenue sharing? Within the State of 
Michigan specifically, how does this impact Section 9, if at 
all, of the existing gaming compacts?
    Mr. Kildee. I helped write IGRA back in the 1980s. We spent 
months. I don't think we ever have amended IGRA. We are kind of 
afraid to bring it out on the House Floor as to what might 
happen if we have an open rule. IGRA was not probably a perfect 
law, I say sometimes only a perfect law was written on Mt. 
Sinai not on Capitol Hill, but it is a pretty good law. It is a 
pretty good law. IGRA is a good law.
    We do know, looking at IGRA and looking at the Indian Non 
Intercourse Act, looking at both of them at the same time, that 
the Charlotte Beach land has a cloud over the title. So we have 
some responsibility to those settlers there who came into what 
was given to the Indians and was kept by the Indians really in 
a sense because all of Michigan at one time was owned by the 
Indians.
    So we have to consider their clouded title. Then you talk 
about environmental standards, too, for where they may get land 
in exchange. I think probably the City of Romulus or the City 
of Flint, because there is two choices under the one bill, 
either Romulus or Flint, and the other bill only the one 
choice, Port Huron, that they certainly would want to have 
their own environmental standards.
    That does not preclude us from consulting with you and have 
you give us your advice on that. Ultimately, we would make that 
decision, would we not?
    Mr. Artman. With regards to settling the land claims, yes. 
As I mentioned before, Congress has plenary power of this, but 
we would like to have the opportunity to limit the potential 
liability that the United States may incur by ensuring that the 
land that we accept into trust holdings for the benefit of the 
tribe does not have any environmental implications on it.
    Mr. Kildee. Right. We do have good dialogue between us, 
sometimes formal, sometimes informal, but we will certainly 
continue to have that.
    Mr. Heller.
    Mr. Heller. Thank you, Mr. Chairman. Mr. Artman, thank you 
for being here today. I referred to that gaming provision in 
both of these bills. Can you in layman terms explain to us what 
this provision of these sections do in these bills?
    Mr. Artman. Well, the bill affirms the Settlement Act and 
states that the Settlement Act would be enacted, one that was 
agreed to by the tribes and the State of Michigan, two separate 
settlement acts. Inside that Settlement Act there are 
provisions that you might find within a compact: revenue 
sharing provisions, provisions relating to exclusivity for 
gaming, areas on where gaming may potentially take place.
    When we look at compacts and we review compacts we look at 
just those very clauses: revenue sharing, exclusivity, how 
those two interact with one another. We also look at the 
broader picture of the state and the agreements that have been 
forged with the other tribes between the state and the tribes.
    In this case, as I mentioned, Section 9 of all the compacts 
mandates a consultation and potential agreement between the 
tribes, if there will be gaming, I believe under a two-part 
determination. By Congress affirming that settlement agreement 
through this legislation it in many ways potentially 
circumvents our process.
    Now, the legislation does say or I believe the Settlement 
Act says that a tribal state compact will be entered into in 
accordance with IGRA. So I will to matters in this case that 
the tribe and the state would negotiate a contract that would 
be agreed to or affirmed by the Michigan State Legislature.
    It would then be sent by the Michigan Secretary of State to 
the Department of Interior for review and we would review it. 
In many respects, that is where the problem may occur, right 
there. What do we do? We have processes that we use, we have 
standards that we use when reviewing compacts that look at just 
the areas that I mentioned before.
    If that subsequent compact violates those areas, what do we 
do next? Do we say no, that this compact is rejected? If so, 
how do these two settlement bills then interact with Indian 
Gaming Regulatory Act? Now, the Indian Gaming Regulatory Act 
certainly is a broader bill, earlier in time. These are more 
specific and later in time.
    So by certainly looking at how one would use the canons of 
law, one might say that these would rule. Then, does this set, 
I know it has been said before, that the bills don't create a 
precedent, but are we creating some kind of a pathway, roadway, 
that others may use to also circumvent IGRA?
    Mr. Heller. Do you know why these tribes have chosen to 
come directly to Congress instead of through the BIA and IGRA 
process?
    Mr. Artman. I think Congressman Kildee certainly stated it 
best, that this is where land claims are settled, this is where 
it begins. As to why these provisions may be in the Settlement 
Act and the subsequent which is supported by this legislation, 
I am not sure.
    Mr. Heller. OK. I think it was, what, January 4 other 
members mentioned you rejected the Hannahville Tribe's 
application to take land into trust in Romulus, Michigan, and 
one of the key considerations I believe was distance.
    I just wanted to know if you agree that the untenable 
commuting distance of some of the other concerns that you noted 
with regards to that particular tribe, the Hannahville Tribe, 
seems to apply equally with these tribes', Bay Mills and Sault 
Ste. Marie, proposals?
    Mr. Artman. You are correct. On January 4 we did send a 
letter with a negative conclusion to Hannahville that we would 
not take that land into trust. As part of that letter, as the 
substantiation for that conclusion, there were a number of 
factors that we looked at, one of which was looking at 
151.11[b] which mandated that we give greater scrutiny to land 
the further it is away from the reservation than the applicant 
land.
    We looked at a number of issues there, not the least of 
which was the commutability. If the purpose of the IRA was to 
create an area in which sovereignty could be exercised, 
jurisdiction could be exercised, and tribal members could come 
back to and live and work, if that was the purpose of the IRA, 
and from that the 151 regulations fall out from 465, that is 
why we are taking land into trust, we certainly did take a look 
at those issues.
    How would this impact the people on the reservation? Now, 
it is difficult to say here without seeing a formal 151 
application what our conclusion would be in Bay Mills or Sault 
Ste. Marie. We would want to look at those applications in full 
before we would come to any conclusion.
    Mr. Heller. I know my time is running out, Mr. Chairman. Do 
you think that these two tribes, these two proposals here that 
we have in front of us today, would past mustard with the 
Department's land and trust review process?
    Mr. Artman. Congressman Heller, it is difficult to say 
right now without seeing those applications in front of us. 
There are many factors that we look at. Everything from 
consultation with the local communities, the state, the 
National Environmental Policy Act mandates, as well as 
information that the tribes provide to us as well.
    We can't make that conclusion. I can't make that 
determination sitting here.
    Mr. Heller. Thank you. Thank you, Mr. Chairman.
    Mr. Artman. Thank you, Congressman.
    Mr. Kildee. The gentlelady from the Virgin Islands, Ms. 
Christensen.
    Ms. Christensen. Thank you. I don't know if you answered it 
in the last few minutes as I was going through some of my 
notes, but if I understand that at least one of the lands in 
the settlement in question is 350 miles away from the 
reservation. Would that meet this new policy? Would that be 
outside of your policy?
    Mr. Artman. Well, there is no strict mileage limitation. 
Again, we look at a number of things.
    Ms. Christensen. Commutable distance.
    Mr. Artman. The commutable distance. Even when looking at 
151.11[b], commutability is just one of the factors that we 
look at. So as I mentioned to Congressman Heller, this is 
something that without looking at the full application I can't 
determine here, and I don't even want to risk making the 
hypothetical conclusion or making a conclusion based on 
hypothetical facts.
    For the real situation for Bay Mills and Sault Ste. Marie, 
we would need to see their complete application.
    Ms. Christensen. OK. Just for the record, you don't dispute 
the fact that a settlement is necessary in the case of 
Charlotte Beach and the two tribes?
    Mr. Artman. That is correct, ma'am.
    Ms. Christensen. OK. Have you made a determination in whole 
or in part on these two bills and their compliance or 
noncompliance with IGRA in any areas?
    Mr. Artman. No, ma'am, we haven't. Without seeing the 
compact formally presented to us, and as I said before, 
compacts are usually much longer than the two pages worth of 
provisions that were listed in the Settlement Act, we would 
need to see, as with the 151 application, the full compact 
before making any conclusions.
    Ms. Christensen. I will withhold questions for right now.
    Mr. Artman. Thank you, ma'am.
    Ms. Christensen. If I could just reserve my time for a 
minute. If I could reserve my time I would appreciate it.
    Mr. Kildee. Yes. Your time will be reserved. The gentlelady 
from California, Ms. Napolitano.
    Ms. Napolitano. Thank you, Mr. Chair. Mr. Artman, in your 
testimony you mentioned concerns about the lack of consultation 
with the Michigan tribes that may be impacted by the terms of 
the settlements. Is the consultation with the tribes generally 
required for all land settlements, and if it isn't, why not?
    Mr. Artman. No, ma'am, it is not required for all land 
settlements. It is not the land settlement portion that 
concerns us. What concerns us is Section 9 of the Michigan 
compacts.
    Ms. Napolitano. Would you explain Section 9? I am sorry.
    Mr. Artman. I am just going to refer to it here just so I 
can get the verbiage correct. Section 9 of the Michigan Tribal 
State Compact requires that no application for land to be taken 
into trust for a two-part determination shall be submitted to 
the Secretary unless there is a written agreement between the 
submitting tribe and the other Federally recognized tribes in 
the state that provides for revenue sharing with those tribes.
    This may or may not be a two-part determination. For all 
intent and purposes, it may eventually be viewed by us as 
settlement of land claim, which is one of the exceptions that 
is found in the Indian Gaming Regulatory Act to the post-1988 
land, the mandate that any post-1988 land go through is 
prohibited from gaming unless it falls into an exception or a 
two-part determination.
    This may not be viewed as a two-part determination, but, 
again, it depends on a number of factors. One, how the 
settlement agreement is finally passed. How the Settlement Act 
is passed in accordance with that or how it is accepted through 
that legislation. How the compact is presented. If this is a 
two-part determination, then certainly there must be 
consultation.
    Right now this is an area that may cause a concern for us.
    Ms. Napolitano. On that Section 9 of the proposed land 
settlement agreement requiring that the applications take land 
in trust for gaming pursuant to Section 20 of IGRA may not be 
submitted to the Secretary without a written agreement between 
the tribe and state's other tribes, because this is a land 
settlement and not an application to place land in trust 
pursuant to Section 20 is it the administration's position that 
Section 9 applies and that despite the mandatory nature of this 
legislation the administration must still ensure that it 
complies with Section 20 of IGRA?
    If so, has the administration performed the detailed 
analysis arriving to the conclusion, and what is that 
conclusion if you have?
    Mr. Artman. OK. Land cannot be taken into trust based on 
IGRA. IGRA is focused solely on the gaming aspect that may take 
place on Indian lands, so the land would be taken into trust in 
accordance with 151, or through the 151 process, or through a 
mandatory acquisition by mandate of Congress and signed into 
law.
    Again, just going back to my previous statement, Section 
20, I think, specifically refers to the two-part determination 
portion of Section 20. Again, we would need to see if this 
would require a two-part determination or if it would fall 
under the land claims exception.
    Ms. Napolitano. Then what kind of research, what kind of 
information do you have on these two requests that can tell me 
specifically? Because I am sure my colleagues are better 
informed than I am in being able to determine why there is 
opposition to them?
    Mr. Artman. Well, I think the opposition, the panels after 
me are going to explain why they oppose it more strongly. We do 
not support the legislation currently because we want to have 
the ability to examine the land as is taken into trusts under 
the NEPA standards, the 151 standards, and to make sure that if 
any subsequent submission of a compact adheres to IGRA and all 
that we have to consider under IGRA.
    Ms. Napolitano. Thank you, Mr. Chair. Time has run out.
    The Chairman. Before I go back to Ms. Christensen, under 
the settlement provision of these bills Section 9 then would 
not apply?
    Mr. Artman. It may not.
    The Chairman. It may not apply?
    Mr. Artman. It may or may not, but, again, it depends on 
what happens here, how the bill is passed, how the compact is 
presented and how it is categorized. Would it be land in 
settlement of a land claim or another form?
    The Chairman. If Congress determines that it is a 
settlement of land claim, which Mr. Stupak fairly clearly 
presented, if it is indeed a settlement of a land claim, then 
Section 9 would not apply, though, would it?
    Mr. Artman. It would not appear that way.
    The Chairman. OK. Thank you very much. Back to the 
gentlelady from the Virgin Islands.
    Ms. Christensen. Thank you. There have been some experts 
who have said there have been no cases to date where a tribe 
has been permitted to have taken land into trust for gaming 
purposes in the situation presented by these two tribes, that 
is where the tribe already had reservation land elsewhere in 
the state in question and it in fact was already operating 
tribal casinos within tribal land.
    Do you agree with that, that this would be unprecedented? 
The statement was made early on by the Chairman that this 
doesn't really set a precedent. Is that how the Department of 
Interior sees that?
    Mr. Artman. This would be unique. We have worked with 
settlements of land claims before, but never have we worked 
with settlements of land claims that also had a potential 
gaming component with it, a potential gaming component that is 
already listed out in the settlement agreement.
    Now, there have been instances where there have been land 
claims and later gaming has taken place on it, but they were 
two distinct events.
    Ms. Christensen. Right. That is why I was wondering why you 
thought this was a two-part process because to me, as I read 
it, gaming is already included in the settlement and the claim 
is made under IGRA.
    Mr. Artman. And it may very well not fall under that. 
Again, it depends upon how the land is categorized subsequent 
to passage of this legislation and how it is presented to us. 
In terms of precedent setting, and I know that the bill itself 
says that it will not create a precedent, but it may provide a 
road map for others to follow at a later time.
    Ms. Christensen. Do you think it could result in lawsuits 
by other tribes claiming similar----
    Mr. Artman. We have a room full of lawyers here. I don't 
think I need to give them any ideas.
    Ms. Christensen. I don't have any further questions, Mr. 
Chairman.
    Mr. Kildee. Chair will yield to the Chairman.
    The Chairman. To the Chairman.
    Mr. Kildee. I am very sorry.
    Ms. Kilpatrick of Michigan. May I?
    Mr. Kildee. Absolutely. Gentlelady from Detroit.
    Ms. Kilpatrick of Michigan. Thank you. Thank you very much 
for yielding, and thank you for the opportunity to even ask a 
question in this Resource Committee. Thank you very much. I 
have your letter of January 4, 2008. We have gone over it quite 
a bit. It was quite lengthy and quite specific in various 
things that you stated.
    One thing that really talks glaring to me, and I am going 
to quote, ``In this case, the remote location of the proposed 
gaming facility may encourage reservation residents to leave 
the reservation for an extended period of time to take 
advantage of job opportunities created by the tribal gaming 
facility.''
    First of all, how did you know this was a gaming facility 
because it was stated earlier that this is not a gaming bill? 
Don't answer that right this second. ``The potential departure 
of a significant number of reservation residents and their 
families could have serious affects and far reaching 
implications for the remaining tribal community and its 
continuity as a community.''
    You started off with your testimony today saying that the 
reason why you did not support this application, it was 
incomplete and as well as it needed to be decided in Michigan, 
which is how I took that. Maybe you are going to say something 
different. I would like you to speak to that.
    Mr. Artman. Sure.
    Ms. Kilpatrick of Michigan. The continuity, the movement of 
the serious distance between it, and you all said, I think 
Congresswoman Christensen used the word that you all used as it 
relates to distance, there is no mileage. There are two words 
that talk about--somebody else has to help me here.
    Mr. Kildee. Commutability.
    Ms. Kilpatrick of Michigan. Yes, that is it. I would like 
for the record as we move on application incomplete, number 
one, needs to be settled in Michigan, there is a process for 
settling this and moreover, the continuity and perhaps 
irreparable harm to the Native American community. All of those 
were some of the things that you discussed in your letter.
    Can you for the record, as we have been here a while and I 
know you have looked at this, again, why did you reject the 
application?
    Mr. Artman. Well, I believe the application that you are 
referring to is the Hannahville application. In that case, 
Hannahville did give us a request to take land into trust for 
the stated purpose of gaming which is distinguishable from this 
particular situation where we don't have an application to take 
land into trust because it is before Congress for the 
settlement of a land claim.
    One of the things that we do look at, for example, in the 
Hannahville case, is we go back to 25 U.S.C. 465, the IRA. The 
purpose of the Indian Reorganization Act was to rebuild the 
tribal community after it had been torn down through allotment 
and termination.
    The words in the bill and throughout the statements that 
supported the legislation, it speaks of building up tribal 
jurisdiction, creating a land where the tribes can be 
sovereign, allowing the community to flourish.
    One of the tests that we have to look at when looking at it 
from the 151, the regulations that are subsequent to 25 U.S.C. 
465, what we look at when we are looking at 151 is that sole 
mandate as trustee delegate taking that land into trust to 
build it up for the community.
    Now, there are many reasons why you may want to take land 
into trust off reservation near or far away, and they may be 
very good and they may be something that we support, but first 
and foremost, we look at those issues that were put upon us by 
25 U.S.C. 465.
    In that particular case, and Hannahville I believe was 400, 
450 miles away from the reservation, there were a number of 
issues that we looked at and came to the conclusion that it 
will be very difficult to substantiate that you are going to be 
able to allow the community as a group, as a whole, to 
flourish, that if you are looking at this land to benefit the 
tribe in that way that tribal members would actually have to 
leave the reservation and in many respects undo what we were 
trying to do under 25 U.S.C. 465 and the 151 regulations.
    So that was the approach that we took there. This is in 
many ways a different situation because of the fact that it is 
the settlement of a land claim.
    Ms. Kilpatrick of Michigan. Settlement of the land claim in 
one regard, and I guess that is debatable far as I am concerned 
because I think it is not. I think that the whole premise is 
not, and it is end around to do something else and using that 
as what it might be. I am not on this committee, so I can't 
argue as well as some of my colleagues will.
    In fact, you stated in the Hannahville case that you just 
described the distance, the destroying or certainly impacting 
the continuity of the community was a disadvantage to the 
Native American tribe.
    Mr. Artman. Under that potential application? That is 
correct.
    Ms. Kilpatrick of Michigan. Thank you. And if it were not 
land swamp, and swamp, my word not yours, the same would apply. 
Thank you.
    Mr. Artman. Thank you, ma'am.
    The Chairman. Mr. Secretary, we appreciate the Department's 
desire to review these compacts, but isn't it a fact that IGRA 
allows these compacts to go into affect without the 
Department's review, for example, like after 45 days, and isn't 
there precedent for that having occurred such as in the 
California compact?
    Mr. Artman. Actually, it has occurred more than just the 
California compacts. There are times when compacts do go into 
effect. IGRA states that if a compact is not reviewed within 45 
days of being submitted to the Department that it will be 
deemed approved, and it will go into effect and be published 
into the Federal Register as though it had been approved.
    Nevertheless, we still like to have the opportunity to 
review it for sections that may be contrary to IGRA and how we 
view it.
    The Chairman. But you have allowed compacts to go into 
effect without your review?
    Mr. Artman. That is correct, under the 45 day rule.
    The Chairman. Then the bottom line is this Land Settlement 
Act?
    Mr. Artman. That is correct.
    The Chairman. Thank you, Mr. Chairman.
    Mr. Kildee. One more question. How would the Department 
apply 25 C.F.R. Part 151 to the Bay Mills and Sault Ste. Marie 
Tribes if they were to seek additional lands contiguous to the 
land acquired through this congressional settlement?
    Mr. Artman. Well, I don't know, sir.
    Mr. Kildee. I appreciate your honest answer.
    Mr. Artman. I would have to look at the application. There 
are a lot of factors that go into it. Are these reservations, 
how contiguous are they, what have you. As I said, as with the 
other questions that asked us to make a conclusion based on a 
small set of facts, we really need to see the full application 
before making a determination.
    Mr. Kildee. Is there also some need within the Department 
to have more specific ways to make that determination?
    Mr. Artman. Well, we do have the 151 process, and it is 
well laid out in the regulations, and how we have done business 
and our checklist. Tribes that make application have access to 
that and certainly know how to do it. I know that having worked 
with Sault Ste. Marie on other matters other than this one that 
tribe, for one, certainly knows how to put land into a trust, 
as well as Bay Mills does, too.
    Mr. Kildee. Thank you. Unless others have questions, we 
appreciate very much your testimony here today and we 
appreciate your good work over in the Department.
    Mr. Artman. Thank you, Mr. Chairman. Thank you, Committee.
    Mr. Kildee. At this point I will ask the next panel to come 
to the table. The Honorable Jeffrey D. Parker, President of 
Executive Council, Bay Mills Indian Community, Brimley, 
Michigan, which reservation I have had the pleasure of 
visiting, The Honorable Aaron Payment, Chairman, Sault Ste. 
Marie Tribe of Chippewa Indians, Sault Ste. Marie, Michigan, 
which I visited probably when I was about 20 years old, The 
Honorable Alan R. Lambert, Mayor of the City of Romulus, 
Michigan, and Mr. Karl Tomion, City Manager, the City of Port 
Huron, Michigan. I will yield the gavel back now to the elected 
chair, and we will call upon Mr. Parker.

  STATEMENT OF THE HONORABLE JEFFREY D. PARKER, PRESIDENT OF 
    EXECUTIVE COUNCIL, BAY MILLS INDIAN COMMUNITY, BRIMLEY, 
                           MICHIGAN;

    Mr. Parker. Thank you, Mr. Chair. I bring greetings from 
Brian Newlan. Sure you remember him.
    Mr. Kildee. Well, give Brian my best. He is out of law 
school now, right?
    Mr. Parker. And he is working. Gainfully employed.
    Mr. Kildee. Very good. That is great. Very good.
    Mr. Parker. Good afternoon, Mr. Chairman. My name is Jeff 
Parker, I am the elected President of the Bay Mills Indian 
Community, a position I have held since 1989 more or less, all 
but for two years. Before I get into my testimony I did want to 
say one thing.
    I am a child of the cold war, so to speak. My mom was born, 
and raised and died on the Bay Mills Indian Community 
Reservation. My father, however, was born in Smithville, West 
Virginia, so there is a bit of a connection, and just wanted to 
say hi from him.
    I have heard a number of things today and I have some 
concerns about how things were presented as far as the land 
claim that Bay Mills has. This claim goes back to the 1870s. It 
is a claim against the then Governor of the State of Michigan, 
it is a claim for property that my descendants used for 
sustenance and it is a claim that we have been trying to get 
resolved for over 100 years.
    In my written testimony you can see the timeline, how we 
have gone repeatedly to the Federal government seeking redress 
for the lands that we lost. That hasn't happened. In fact, some 
of the arguments wold be gone about Indian gaming and 
exceptions to IGRA if the Federal government had resolved this 
land claim prior to 1988, but it didn't.
    I am glad that Congressman Kildee brought up about the 
Trade and Intercourse Act because that really is the foundation 
upon which this claim is made. Tribes themselves cannot dispose 
of property without an act of Congress. We need an act of 
Congress. We have a settlement. In the past we were trying to 
resolve this without the Governor's input at all.
    Governor Engler took a look at what was going on, took a 
look at the struggles that the Bay Mills Indian Community made 
to get this addressed in an equitable manner because he was 
also concerned about the citizens who now call the Charlotte 
Beach area their home and not having them be displaced. He sat 
down with the tribe and said listen, I know that this type of 
activity happened four times in the past with three other 
tribes and yourself.
    In fact, today there is still a state reservation in 
Michigan. I am willing to sit down and work with you, but if I 
am going to sit down with you I really want to designate the 
area where you are going to have alternative lands. Was it a 
choice of the tribe? No. It was a choice of the Governor who 
the claim was against.
    He picked the City of Port Huron because it was one of the 
only border crossings in Michigan at this time that does not 
have a casino on the opposite side, on the Canadian side. He 
picked it because the citizens of Port Huron support this, as 
do the elected leaders, as we heard earlier, as does Candice 
Miller and Bart Stupak, two very honorable congresspeople that 
I have had the pleasure of working with, and now are U.S. 
Senators.
    This is something that has full support of everyone who has 
been involved with it. Really what we are looking for from this 
community is a way to put the past behind us and be able to go 
forward. I ask for your support. I would be happy to answer any 
questions you may have.
    [The prepared statement of Mr. Parker follows:]

                     Statement of Jeffrey D. Parker

    Mister Chairman, and members of the Committee, I am pleased to be 
invited to present testimony on behalf of the Bay Mills Indian 
Community on H.R. 2176. I speak here today in my official capacity as 
President of the Executive Council, which is the elected government of 
our Tribe. The legislation before you is extremely important to my 
people; its importance will be better understood by my description of 
the history of the Tribe and the origin of this controversy.
    The Bay Mills Indian Community is comprised of the bands of Sault 
Ste. Marie area Chippewa who signed a series of treaties with the 
United States beginning in 1795. My Tribe's modern-day Reservation is 
located at the juncture of the St. Mary's River and Lake Superior, in 
the Iroquois Point area of Michigan's Upper Peninsula, and on Sugar 
Island, which is just east of Sault Ste. Marie, Michigan, in the St. 
Mary's River Channel. My Tribe is one of four in Michigan which has 
maintained continuous government-to-government relations with the 
United States since treaty times. We adopted a Constitution in 1936 
under the Indian Reorganization Act, and codified as our form of 
government the traditional Chippewa public forum, in which all adult 
members comprise the General Tribal Council. I represent a direct 
democracy, which votes every two years to select officers, known as the 
Executive Council. Our total enrollment is approximately 1,750 members. 
It is on their behalf that I speak today.
    I am very proud to testify in support of this legislation, as it 
represents the final step in obtaining redress of a great wrong done to 
our people over 100 years ago, a wrong that has imposed continuing 
consequences to the present day. The Bay Mills Indian Community is 
deeply grateful to Congressman Bart Stupak for sponsoring H.R. 2176, 
and to Congresswoman Candice Miller and Congressman Patrick Kennedy for 
co-sponsoring it. I also wish to express my thanks to Chairman Rahall 
and Ranking Member Young for understanding how important this 
legislation is to my people and for holding this hearing today.
History of Our Land Claim
    Dr. Charles Cleland, PhD., a preeminent Great Lakes Indian 
ethnohistorian, has reviewed the history of the Hay Lake/Charlotte 
Beach land claim. His report on the claim, directed to the members of 
the Committee, is attached as Attachment 1. I will attempt to summarize 
his findings in my testimony.
    The Sault Ste. Marie area Chippewa bands, among many other bands 
throughout the Upper Great Lakes, participated in a series of cession 
treaty negotiations by which large tracts of land were sold to the 
federal government. These lands, which later became a large portion of 
the State of Michigan, were ceded to the United States in 1807, 1819, 
1820, and 1836. The terms of the Treaty of 1836 are particularly 
significant to the story of my people.
    The Treaty signed by our ancestors in 1836 promised to set aside 
certain lands for us in perpetuity. When the 1836 cession Treaty was 
sent to Congress for ratification, however, the Senate unilaterally 
inserted a provision which limited protection of the lands reserved 
under it to a five-year term. As a result, over the course of a 
relatively short period of time the Chippewa lost hundreds of thousands 
of acres of land, in direct contravention of the express terms of the 
Treaty that had been signed by them.
    In part to rectify the injustices done by the 1836 Treaty, the 
United States in 1855 entered into another Treaty with our ancestors by 
which new lands were to be reserved for our use. Among these lands was 
property specifically identified by legal description in the 1855 
Treaty at Hay Lake (the area in modern times known as Charlotte Beach). 
My Tribe's ancestors signed the 1855 Treaty with the express 
understanding that the Hay Lake/Charlotte Beach land would be set aside 
for our exclusive use, and that it would be protected from alienation 
and European settler encroachment.
    One day after the 1855 Treaty was concluded, however, the United 
States Land Office allowed that very land at Hay Lake to be sold to 
non-Indian speculators. Hence, despite the fact that the United States 
agents induced our ancestors to sign the 1855 Treaty on the 
understanding that the Hay Lake/Charlotte Beach land would be included 
within our reserved lands, and despite the fact that the Senate 
ratified the 1855 Treaty with the legal description of the Hay Lake/
Charlotte Beach lands still in place, the Tribe lost that land by 
virtue of the United States Land Office's actions.
    In order to recover the Hay Lake/Charlotte Beach land, which was of 
central importance to us for historical, food gathering, and cultural 
reasons, the Bands used their annuity money to buy back what portion of 
it that they could. Upon advice of the Bureau of Indian Affairs agent 
at the time, trust title to the Hay Lake/Charlotte Beach land was 
conveyed from the land speculators to the Governor of the State of 
Michigan, to protect the land from further alienation and encroachment 
by the Trade and Intercourse Act's prohibition against the alienation 
of Indian lands without express Congressional consent.
    My ancestors hunted and lived on the Hay Lake/Charlotte Beach 
property for nearly thirty years undisturbed by the State of Michigan. 
In the 1880s, however, Chippewa County determined that it would impose 
taxes on the property. Even though he held trust title, the Governor of 
the State of Michigan failed to respond to the tax assessment in any 
manner whatsoever. Despite repeated requests from our people to the 
Bureau of Indian Affairs for help, the federal government also took no 
action. Because neither the federal government nor the State of 
Michigan acted to protect our lands as was required by the Trade and 
Intercourse Act, the County moved to foreclose on the property and our 
ancestors were evicted.
    I want to make you aware of what the Bureau of Indian Affairs' own 
agent wrote in 1880 about the impending sale of our Hay Lake/Charlotte 
Beach lands:
        At the ``Sault'', the Old Chief Shaw wa no is in very destitute 
        circumstances, and much agonized as his land which amounts to 
        some 300 acres bought by annuity money and deed in trust to the 
        Governor of this State many years ago, has been sold 
        fortaxes...The Old man wished me to do something for him or ask 
        the Government to provide the means to cancel this claim for 
        taxes, He is Old, sick & Blind; and all his people are very 
        poor, simply sustaining life by fishing, picking berries, or an 
        odd days work which chance may throw in their way...
Emphasis added. G. Lee, Michigan Indian Agent, in a letter to the 
Commissioner of Indian Affairs dated August 1880.
    In 1916, we again petitioned the Bureau of Indian Affairs for help 
when on behalf of the Community tribal member William Johnson wrote to 
the Bureau begging for assistance in regaining the Hay Lake lands. The 
Bureau rebuffed his petition.
    In 1925, an attorney, John Shine, wrote again on the Tribe's 
behalf, begging the Bureau for help in recovering the Hay Lake 
property. The Bureau again rebuffed the Tribe's petition for help.
    In the 1970s, the United States' own expert witness (widely 
considered to be the preeminent historian of Indians in the Great Lakes 
area) in the U.S. v. Michigan treaty fishing rights litigation 
highlighted the existence of the Hay Lake/Charlotte Beach claim in her 
expert report submitted to the Federal District Court for the Western 
District of Michigan. See Report of Dr. Helen Tanner, dated April 1974, 
for the United States in U.S. v. Michigan, Civ. Case No. 2:73 CV 26 
(W.D. MI).
    In the 1980s, the Bay Mills Indian Community repeatedly petitioned 
the Department of the Interior to include the Hay Lake/Charlotte Beach 
claim on its list of protected historical Indian claims pursuant to 28 
U.S.C. Sec. 2415. Through a Field Office of the Office of the 
Solicitor, Interior erroneously denied our Tribe's petition for the 
simple and only reason that the Hay Lake/Charlotte Beach land was held 
in trust by the State rather than the federal government. (A copy of 
that determination letter is attached as Attachment 2.) The Field 
Solicitor's refusal was not legally supportable. Existing federal court 
opinions made clear that the Indian Trade and Intercourse Act protects 
Indian lands held by states, and Congress had specifically directed 
Interior to protect all historical Indian claims except those that 
``had no legal merit whatsoever.'' (See section 3(a) of Pub. L. 97-
394.) Further, the Field Solicitor's refusal was inconsistent with 
general Interior policy because in fact Interior had included on the 
final list of protected historical claims a fair number of state-held 
lands, including some held for state recognized tribes.
    The Tribe was not the only entity seeking resolution of the Hay 
Lake/Charlotte Beach claim. Property owners in the area were contacting 
both the Department of the Interior and the local Congressman, seeking 
help in their efforts to obtain clean title to their land. An example 
of that effort is correspondence with then-Congressman Bob Davis, 
attached as Attachment 3.
    In the 1990s, we tried to obtain redress in the courts. Our efforts 
were unsuccessful. Our federal court case was dismissed on a procedural 
technicality (the court found that the mere possibility that the Sault 
Tribe might have a claim to the Hay Lake/Charlotte Beach land prevented 
the case from going forward). We fared no better in the state courts, 
which were unable to address our equitable claim for land, and had 
little understanding of the federal Indian legal issues before them. In 
both forums, our claim was dismissed on procedural grounds, the merits 
of the Bay Mills claim to the land unaddressed. Additionally, while 
these cases were pending, the Tribe was informed by the Department of 
the Interior that no court decision could unilaterally extinguish its 
claim to the Hay Lake/Charlotte Beach land. Extinguishment of the 
Tribe's claim required Congress to act, with or without a court order 
approving a land claim settlement.
    In 2002, we entered into direct settlement negotiations with the 
Governor of the State of Michigan to resolve the claim. To Governor 
John Engler's credit, he determined that it would work with our Tribe 
to address this long-standing grievance. Subsequently, we were able to 
forge a settlement that addresses the needs and concerns of the Bay 
Mills Indian Community, of the State of Michigan, of the people living 
within the Charlotte Beach land claim area, and of the people living in 
Port Huron. That settlement, executed by the Bay Mills Indian Community 
and the State in August 2002, and as recently amended by agreement with 
Governor Jennifer Granholm, is the backbone of the legislation here 
before you today.
    I underscore this history because I want the Congress to understand 
the long-standing importance that this land has held for my people. I 
want the Congress to understand that this land claim is not about 
gaming, not about forum shopping, not about modern-day business deals. 
This land claim exists because of negligence by Land Office staff, 
historical inaction by Department of Interior staff, and abandonment of 
trustee obligations by the Governor. Resolution of this land claim is 
about finally securing just compensation for the Tribe, finally being 
able to close this painful chapter of our history, and finally being 
able to shift our focus to the future. It is about finally achieving 
justice.
The Settlement
    In commencing settlement negotiations with the Governor of 
Michigan, the Bay Mills Indian Community well understood that no 
agreement would be possible without compromise. Because achieving 
closure to this long-standing wrong was very important to our 
community, we worked hard to reach an accommodation with the Governor 
by which a resolution to our claim would serve both our goals.
    The Tribe's goals were to recover lost lands, and to receive 
monetary compensation due us for having lost possession of those lands. 
The Governor's goals were to quiet title to the claim area property 
without displacement of the people living there, to construct a 
settlement that would not have an impact on the State's budget, and to 
ensure that any replacement lands would be located in a community 
desirous of our presence there.
    The Settlement accomplishes both the Tribe's and the Governor's 
goals in a fair and equitable manner. Indeed, we would like to think 
that the spirit of mutual respect and cooperation with which these 
negotiations took place should serve as a model for how such difficult 
and emotionally charged issues can be resolved. In addition, I note 
that the general structure of the Bay Mills settlement is consistent 
with other land claims settlements already enacted by Congress. (See, 
for example, the Torres-Martinez Desert Cahuilla Indians Claims 
Settlement ratified in the 106th Congress and codified at 25 U.S.C. 
sec. 1778, in which that tribe's claim for trespass damages was 
resolved with replacement lands and a related gaming opportunity.)
Indian Gaming
    We understand that there is a reluctance to allow Indian land claim 
settlements to be used to as vehicles for the expansion of Indian 
gaming. We share that concern. We think, however, that the United 
States owes it our people, particularly given the long and unfortunate 
history of our dealings with the United States, to take a hard look at 
the merits of this land claim, and to understand the proposed 
settlement in the context of our land claim rather than through the 
filter of modern controversies surrounding Indian gaming.
    If we had never been kicked out of our Hay Lake/Charlotte Beach 
property, if either the United States government or the State of 
Michigan had honored and enforced the Trade and Intercourse Act when 
Chippewa County sought to (and achieved) our dispossession through tax 
foreclosure sales, then everyone, everywhere, would understand the Hay 
Lake/Charlotte Beach property to be ``Indian lands'' held by the Tribe 
prior to the enactment of the Indian Gaming Regulatory Act (IGRA). Had 
our ancestors never been evicted by county tax assessors, we would 
continue to live there to this day, and we would be entitled, under 
IGRA, to operate an Indian gaming facility there.
    The Governor made clear that he would not agree to my Tribe's 
recovery of the Hay Lake/Charlotte Beach land because it could result 
in the eviction of current landowners in the Hay Lake/Charlotte Beach 
area. The Governor instead offered his support for the concept of 
finding new lands to replace the Hay Lake/Charlotte Beach property in 
return for our agreement that our trust title to the Hay Lake/Charlotte 
Beach property would be extinguished by Congressional action. By 
agreeing to provide replacement land to the Tribe, the Governor has 
alleviated the anxiety of persons currently living in the Hay Lake/
Charlotte Beach claim area that they might some day be evicted from 
their homes. By agreeing that such replacement lands should be eligible 
for gaming, the Governor has agreed that the replacement land should in 
fact have the same status as the lands we have agreed to give up--that 
is, the replacement land should be treated as if it, too, had been held 
by the tribe since the mid-nineteenth century.
    The Governor insisted that we locate replacement lands in a 
community that was desirous of hosting us. We have done that. As you 
will hear directly from representatives of Port Huron today, that 
community affirmatively wishes our Tribe to locate its replacement 
lands there.
    I also wish to underscore that the Governor insisted that he would 
not approve appropriation of money from the State budget to compensate 
us for the damage done to us by having lost the use and benefit of 
these lands for more than a century. We have agreed to that; indeed, 
have agreed that we will try to achieve full compensation based on the 
money we ourselves make through economic development on the replacement 
lands. Those funds will generate the income we require in order to 
provide governmental services and programs to the Tribe's members and 
their families. Without that income, we would have no choice but to 
come back both to the State and the Federal Government, and insist that 
we be compensated for both parties' failure to protect our lands from 
alienation as required by the Trade and Intercourse Act.
    For these reasons, I strongly and respectfully urge you to consider 
this settlement not through the lens of Indian gaming, but rather in 
the context of the long and well-documented history of the wrong done 
to my people, and in the context of the overall wisdom of a settlement 
crafted to create the greatest good for the most people.
Conclusion
    I recognize that there are additional issues which may be of 
interest or concern to the Committee. I am happy to address any and all 
issues, and I welcome your questions today. I once again thank you for 
the opportunity to tell the Bay Mills Indian Community's story, and I 
respectfully urge you to support the efforts of the Bay Mills Indian 
Community, the citizens of Charlotte Beach and Port Huron, and the 
State of Michigan, by providing the necessary Congressional 
ratification of our settlement without further delay.
                                 ______
                                 

 Statement of Charles E. Cleland, Distinguished Professor Emeritus of 
   Anthropology, Michigan State University, submitted for the record

    Mr. Chairman and Members of the Natural Resources Committee of the 
U.S. House of Representatives:
    My name is Charles E. Cleland and I am a Distinguished Professor 
Emeritus of Anthropology from Michigan State University (MSU). Since 
receiving my PhD in Anthropology from the University of Michigan in 
1966, I have devoted my career to the study of the history and culture 
of the native tribes of the Upper Great Lakes region. I have authored 
several books and many journal articles on these topics and have 
likewise taught numerous courses related to the anthropology and 
history of the Great Lakes region. During my career and subsequent to 
my retirement from MSU in 2000, I have had frequent occasions to offer 
expert testimony in our federal courts as they were hearing cases 
involving treaty right issues.
    I come before you today at the request of the Bay Mills Indian 
Community to discuss the historical events which precipitated the 
Charlotte Beach land claim over 130 years ago and which has been a 
point of bitter consternation for the Bay Mils Community ever since. My 
testimony today is also is support of H.R. 2176 which would resolve the 
long-standing Charlotte Beach land claim to the satisfaction of the Bay 
Mills Community.
    The Charlotte Beach land controversy originated over 135 years ago 
and has been a bitter point of consternation for the Bay Mills Indian 
Community ever since. H.R. 2176, which is now before the Natural 
Resources Committee of the House of Representatives, would resolve the 
many injustices that have resulted from the botched allotment of these 
lands under the Treaty of Detroit in July 31, 1855.
    Without a doubt the Bay Mills Indian Community has a valid and long 
standing historical claim to the Charlotte Beach lands which consist of 
Lots 1, 2, 3, and 4 of Sec. 7, T. 45N., R. 2E., and Lot 1 of Sec. 18, 
T. 45N., R. 2E., in Chippewa County, Michigan.
    Chief Shawan's band, which was without land allotments since the 
land assigned to them in the Charlotte Beach area had either been 
previously sold to non-Indians or was underwater, became one of the 
bands that formed the Bay Mills Indian Community in 1871.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T0622.001
                                 
                                 [GRAPHIC] [TIFF OMITTED] T0622.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] T0622.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T0622.004
                                 
    The Chairman. [Presiding.] Thank you.
    Chairman Payment.

STATEMENT OF THE HONORABLE AARON PAYMENT, CHAIRMAN, SAULT STE. 
  MARIE TRIBE OF CHIPPEWA INDIANS, SAULT STE. MARIE, MICHIGAN

    Mr. Payment. Chairman Rahall, my name is Aaron Payment. I 
speak to you today as the elected Chairperson of the Sault Ste. 
Marie Tribe of Chippewa Indians. We are the largest Federally 
recognized tribe within Michigan. I would like to thank you for 
giving me the opportunity to testify on both bills today, and 
especially on behalf of my people. Let me begin by expressing 
my tribe's deepest gratitude to Michigan Representatives John 
Dingell, Candice Miller, Dale Kildee and Bart Stupak.
    I would also like to thank our former Republican Governor, 
John Engler, and our current Democratic Governor, Jennifer 
Granholm, for their leadership in trying to settle a century 
old wrong that was committed on my ancestors. Today, we have 
heard a lot of testimony, and I am deviating from my 
presentation because I think gaming unfortunately brings out 
the most ugliest in politics and the distortion of facts.
    Hopefully, your committee will have the opportunity to read 
through all of the testimony and discern what is fact and what 
is not fact. As Indian people we are used to being in this 
position. We didn't come about where we are today by having 
things handed to us. My tribe had to become Federally 
recognized in 1972 after 20 years of fighting to try to provide 
for our people.
    The wrong committed on my ancestors was that the land that 
was withdrawn from the public domain for the benefit of Indians 
were in fact selected by a non-Indian in contravention of the 
1855 Treaty. Make no mistake, this land was illegally taken and 
only you, only Congress, has the opportunity to resolve that 
claim.
    Governor Granholm, in her November 14 letter, wrote to you 
and asserted that both the Federal Court and the State Court 
have addressed this claim, but neither has rejected it. You 
have heard different testimony today to suggest that this is an 
illegitimate claim and that somehow this has not been tested, 
but Governor Granholm, who used to be our Attorney General for 
the State of Michigan, asserted to you in a letter on November 
14 that the claims have not been dismissed.
    Two key issues regarding the settlement need to be 
addressed. First, the 1988 Indian Gaming Regulatory Act 
includes a land settlement provision. When IGRA was enacted, 
Congress contemplated that situations may arise where tribes 
may wish to conduct gaming on lands acquired through land claim 
settlements.
    IGRA specifically allows this to happen. Contrary and 
notwithstanding to some of the testimony that you heard today 
to try to discredit this, IGRA specifically allows this to 
happen. Second, it is important to note that this legislation 
is not off-reservation gaming. That was used almost like a 
dirty word today.
    IGRA provides for Congress under your plenary power to take 
new lands into trust to create a new reservation as a remedy 
for lands that were unjustly taken from Indian people. We are 
not requesting off-reservation status under a two-part 
determination. That is why the Under Secretary was here. We are 
not requesting that.
    We are requesting that you settle a land claim on our 
behalf. I would be remiss if not to emphasize the importance of 
casino gaming on my tribe and to the State of Michigan. Before 
gaming, unemployment in my community was about 50 percent. 
Today, gaming provides good jobs and benefits to thousands of 
Indians and non-Indians alike all across the State of Michigan.
    Gaming provides revenues that empower my tribe to expand 
services with approximately 56 percent of our revenue coming 
from our own sources from gaming revenue and only 44 percent of 
the revenue for our services coming from Federal entitlement 
that we, as tribes, prepaid through the treaties and land 
cessation.
    Due to our large membership at 37,000 members we are not a 
per capita tribe. One hundred percent of our revenues goes 
toward services like healthcare for our members, services for 
our elders, college scholarships, an array of social services, 
to pave our roads, to buy public safety equipment, and to 
provide recreational opportunities and so much more.
    With 64 percent of my members residing outside of our 
service area and 97 percent living off reservation because we 
are a reservation poor tribe we need to generate even more 
revenues to begin to meet the needs of our most basic needs for 
our members including healthcare, education and elder services 
for our members regardless of where they live.
    There was some talk earlier about why are we picking 
Romulus? We happen to have 3,300 tribal members who live in the 
tri-county area of Wayne, Oakland and Macomb County. Certainly 
we have an interest in that community as much as anybody else 
has in that community. It is our goal as a tribe to try to 
provide for our people.
    Our opponents contend that a new casino would hurt 
employment in Detroit. My tribe happens to be the majority 
owner of one of those casinos. We own the Greektown Casino. We 
will do nothing to jeopardize our largest asset or take away 
jobs from Detroit or from ourselves.
    You know, it is interesting that when we hear these kind of 
criticisms because we helped to sponsor Proposal E in order to 
give Detroit the opportunities that they currently have, and we 
are one of those casinos that provides those opportunities, we 
are one of those casinos that employs nearly 3,000 employees in 
the City of Detroit.
    When some politicians who testified in front of you today 
when Proposal E was going through, they were silent on the 
issue because they didn't know what their constituents would 
think. We supported it all along. Our interest is to provide 
for our people to be justly compensated for land illegally 
taken that occurred over a century ago and to finally clear the 
clouded titles for the families who today own homes on the 
Charlotte Beach lands.
    Finally, I am grateful for the strong support we have 
received. Federal, state and local officials, both Democrat and 
Republican, support this legislation. Two Michigan Governors on 
both sides of the aisle have signed agreements to settle this 
claim once and for all. This is a legislation that is a fair 
and just settlement to our claim.
    On behalf of the members of my tribe, I thank you for the 
opportunity to testify in front of you today.
    [The prepared statement of Mr. Payment follows:]

 Statement of Aaron Payment, Chairperson of the Sault Ste. Marie Tribe 
                          of Chippewa Indians

    Mr. Chairman and members of the Committee, my name is Aaron 
Payment. I speak to you today as the elected Chairperson of the Sault 
Ste. Marie Tribe of Chippewa Indians, the largest of Michigan's 12 
federally recognized Native American tribes. On behalf of our Tribe's 
37,000 members who live across Michigan and the world, I would like to 
thank you and the entire Committee for your consideration of this 
matter and for giving me the opportunity to be here to testify in 
support of H.R. 4115 and H.R. 2176.
    Before I begin the formal part of my testimony, I want to express 
the Sault Tribe's deepest gratitude to Michigan Representatives John 
Dingell, Bart Stupak and Candice Miller. Their leadership has the 
potential to settle a more than century-old wrong committed against the 
ancestors of the Sault Tribe and to create more than 2,700 good jobs 
and hundreds of millions of dollars in new investments in a region of 
Michigan where the economy is sputtering and desperate for good news. 
These Representatives care deeply about Michigan's Native people and 
are working tirelessly to boost our state's economic fortunes. The 
Sault Tribe is also grateful to Michigan's former Republican Governor, 
John M. Engler, for his support and for negotiating the 2002 agreement 
between the State of Michigan and the Sault Ste. Marie Tribe and to our 
current Democratic Governor, Jennifer Granholm, who has recognized and 
affirmed the validity of our land claim, negotiated an addendum to the 
2002 Engler agreement and has respectfully urged approval of our 
settlement by the U.S. Congress.
    My testimony centers on four main points:
    <bullet>  First, I will focus on the history of Charlotte Beach and 
the circumstances that gave rise to our land claim. I will show how two 
Michigan governors have confirmed that the Charlotte Beach lands were 
wrongly taken from the Sault Tribe's ancestors.
    <bullet>  Second, I will describe the federal court's conclusion 
that the Sault Tribe has a valid, un-adjudicated claim to the Charlotte 
Beach lands that were wrongly taken from the Tribe's ancestors.
    <bullet>  Third, I will describe the resolution of the land claim 
contained in Governor Engler's 2002 Settlement Agreement with the Tribe 
and Governor Granholm's 2007addendum.
    <bullet>  Fourth, I will demonstrate that the Charlotte Beach 
settlement falls within the ``settlement of land claim'' contemplated 
by the Indian Gaming Regulatory Act and is in no way an expansion of 
``off-reservation'' gaming. Rather, the 2002 settlement creates new 
trust lands as compensation for lands that were illegally taken from 
our ancestors.
    <bullet>  Finally, I hope to help you understand how passage of 
this legislation confirming the 2002 settlement agreement between the 
State and the Sault Tribe provides just and fair compensation for the 
wrong done to the ancestral bands of my people more than 100 years ago 
and how it will add jobs and revenues to Detroit, Wayne County and the 
State of Michigan.
    The history of the Tribe's land claim in Charlotte Beach begins 
five centuries ago, when Europeans were first setting foot on the lands 
of what would become the Upper Peninsula of the Great State of 
Michigan. The Sault Ste. Marie Tribe of Chippewa Indians, together with 
the Bay Mills Indian Community, is a modern expression of the 
Anishinabeg who have lived in the Great Lakes since time immemorial. 
Back in the early 1600s, many of our Anishinabeg ancestors made their 
homes near the rapids of the St. Mary's River, which they called 
Powating (Bawating)--the rapids. This area would later become the City 
of Sault Ste. Marie and Chippewa County, Michigan. In the mid 1600s, 
our ancestors greeted the French who traveled from Montreal to the 
Sault to obtain beaver pelts for the fledgling fur trade. When French 
sovereignty ended a century later in 1763, the English moved into the 
area and took over what had become a lucrative fur trade. By 1820, the 
British had been replaced by Americans, and the Anishinabeg ceded 16 
square miles of land along the St. Mary's River to the United States to 
build Fort Brady. We have a long and proud tradition working closely 
with the Americans to avoid conflict and accommodate settler's needs.
    Two important treaties were signed over the next two decades. The 
Treaty of 1836--also known as the Treaty of Washington, 7 Stat.491--was 
supposed to set aside certain lands for our use in perpetuity. The 
treaty ceded northern lower Michigan and the eastern portion of the 
Upper Peninsula to the United States. In return, the Sault Ste. Marie 
Tribe received cash payments and temporary ownership of about 250,000 
acres of land contained in disparate, small reservations located 
throughout the ceded territory. These reservations were only to last 
five years, unless extended by the President, which never occurred. 
Because of the temporary nature of the reservations under the 1836 
Treaty, the status of the Ottawa and Chippewa after 1841 was tenuous 
and uncertain. To address their condition, the United States entered 
into a second treaty with these same tribes in 1855.
    The Treaty of 1855--also known as the Treaty of Detroit, 11 
Stat.621--is central to our land claim. The treaty was agreed to on 
July 31, 1855 and ratified by the Senate on April 15, 1856. Under the 
Treaty, the U.S. government agreed to withdraw large parcels of land 
from the public domain--meaning those lands were no longer available 
for purchase from the federal government and were to be reserved for 
the use of our tribe. All of the lands were located within the 
territory ceded under the Treaty of 1836. The Indians--including our 
ancestors--were allowed to select land allotments from the withdrawn 
areas for a 10-year period. After 10 years, all unselected lands were 
to be restored to the public domain. The area in Chippewa County now 
known as Charlotte Beach was among the lands specified in the treaty 
for the use of my ancestors and were for withdrawn from public domain 
under the Treaty of 1855, 11 Stat.621.
    In June of 1856, a non-Indian land speculator named Boziel Paul 
received a patent from the federal government to lands in Charlotte 
Beach even though those lands had been designated for withdrawal from 
the public domain for use by my ancestors under the 1855 treaty. 
<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ United States Patent (June 16, 1856), recorded in Liber 3 of 
Deeds on page 147 (Oct. 12, 1857), granting Lot 1, Sec. 18, Township 
45N, Range 2E; United States Patent (June 16, 1856), recorded in Liber 
3 of Deeds on page 150 (Oct. 12, 1857), granting Lot 1, Sec. 7, 
Township 45N, Range 2E; United States Patent (June 16, 1856), recorded 
in Liber 3 of Deeds on page 149 (Oct. 12, 1857), granting Lot Nos. 2, 3 
and 4, Sec. 7, Township 45N, Range 2E
---------------------------------------------------------------------------
    After receiving the patent to the Charlotte Beach lands, Paul 
visited the property and discovered that Indians--including my 
ancestors--were already living there.
    To avoid conflict, on October 12, 1857, Paul conveyed the lands to 
then Michigan Governor Kingsley S. Bingham in trust for the original 
bands of the Sault Ste. Marie Indians. <SUP>2</SUP> The Governor, who 
may or may not have been aware of the 1857 conveyance, failed to pay 
property taxes on the Charlotte Beach lands, which were then sold in 
1884 and 1885 at a tax sale to third parties, who were non-Indians, 
even though the land belonged to the Bay Mills and Sault Tribes 
ancestors, who were then living on the land. <SUP>3</SUP>
---------------------------------------------------------------------------
    \2\ Warranty Deed (Oct. 12, 1857), recorded in Liber 3 of Deeds on 
page 150, conveying Lot Nos. 1, 2, 3 and 4, Sec. 7, Township 45N, Range 
2E to Kingsley S. Bingham for consideration of $375.00; Warranty Deed 
(Oct. 12, 1857), recorded in Liber 3 of Deeds on page 147, conveying 
Lot No. 1, Sec. 18, Township 45N, Range 2E, to Kingsley S. Bingham for 
consideration of $375.00
    \3\ State Tax Land Deed (Sept. 6, 1884), recorded in Liber 11 of 
Deeds on page 516, conveying Lot Nos. 1, 2, 3 and 4, Sec. 7, Township 
45N, Range 2E, for consideration of $35.00.
---------------------------------------------------------------------------
    In sum, the wrong committed on the Sault Tribe's ancestors was that 
lands that had been designated for withdrawal from public domain for 
the benefit of the tribal members were, in fact, selected by a non-
Indian, who received a patent to these lands, in contravention to the 
1855 Treaty of Detroit.
    Additionally, after that non-Indian subsequently transferred the 
land to the governor of Michigan in trust for the benefit of our 
ancestors, the state of Michigan failed to maintain ownership of the 
lands for the tribe's benefit and, instead, improperly lost the lands 
for non-payment of taxes.
    Make no mistake; this Land was illegally taken from the Sault 
Tribe.
    As a result of this illegal land taking from the tribes, not only 
were the tribes denied rights to their ancestral lands that were 
designated for their benefit, but the current homeowners face clouded 
title, since both Bay Mills and the Sault Tribe claim the land as their 
own, as do the homeowners. These 200 homeowners now face uncertain 
property rights and diminished property values. As Congressmen John 
Dingell and Bart Stupak and Congresswoman Candice Miller wrote to you 
and Ranking Member Young: ``.,..we can assure you that for the property 
owners and taxpayers in Charlotte Beach, this ``purported'' land claim 
is all too real. Clouding of private property titles as a result of 
this unresolved claim has resulted in homeowners finding as much as 90% 
of their property's assessed value has been lost. In turn, this has led 
to a depreciation of the real estate tax base of Chippewa County, 
resulting in lost revenue and reduced government services.''
    It is also important to note that both a federal court and a state 
court have addressed the land claim. Indeed, the federal court 
confirmed an important element of the Sault Tribe's claim.
    In 1998, the United States District Court for the Western District 
of Michigan dismissed a quiet title action addressed to the Charlotte 
Beach claim brought by the Bay Mills Indian Community. The suit was 
filed against various land owners of the Charlotte Beach tracts and a 
title company insuring their titles. The District Court ruled that Bay 
Mills could not prosecute the quiet title action alone because it was 
not the only tribe that had a claim to the Charlotte Beach properties.
    Indeed, the Sault Tribe had the identical claim to the lands. As I 
noted earlier, both the Bay Mills Indian Community and the Sault Ste. 
Marie Tribe of Chippewa Indians are modern-day political successors in 
interest to the Original Bands of Sault Ste. Marie Indians. Thus, the 
Sault Tribe was held to be an indispensable party to the lawsuit. The 
court concluded that in the Sault Tribe's absence, the lawsuit could 
not proceed, and since the Tribe enjoys sovereign immunity, it could 
not be forced to participate in the litigation without its consent.
    The District Court's decision was affirmed by the United States 
Court of Appeals for the Sixth Circuit in a per curium opinion. Bay 
Mills Indian Cmty. v. W. United Life Assurance Co., 208 F.3d 212 (6th 
Cir. 2000).
    In a letter of November 14, 2007 to Chairman Rahall and Ranking 
Member Young, Governor Granholm described the legal situation as 
follows, ``The federal courts have held that both the Bay Mills Tribe 
and the Sault Tribe trace their ancestry to the two Chippewa bands 
named in the deed to the disputed Charlotte Beach lands and that both 
Tribes, accordingly, share in any potential claim based on those lands; 
both tribes are necessary parties in any effort to conclusively resolve 
those claims.'' Governor Granholm concluded that ``in order to 
adequately protect the legal interests of the state and its citizens, 
it is vital for congress to act to approve both of these amended 
settlement agreements, allowing these claims to be resolved fully and 
finally.''
    At about this same time, Bay Mills initiated a lawsuit against the 
State of Michigan in its Court of Claims, claiming that it was entitled 
to money damages against the State because of the Governor's failure to 
keep the Charlotte Beach lands in trust for its benefit, consistent 
with the Paul deed in the 1880s. In addition, Bay Mills contended that 
it was entitled to money damages because of the State's action allowing 
the lands to be forfeited due to the failure to pay taxes on the 
property.
    Although the Bay Mills' lawsuit against the State of Michigan in 
state court was rejected, it was not because that court concluded that 
there was no valid land claim. The Michigan Court of Appeals held that 
the State was not liable to Bay Mills for money damages primarily 
because the statute of limitations barred the claim. Bay Mills Indian 
Cmty. v. Michigan, 626 N.W.2d 169, 175-76 (Mich. Ct. App. 2001). To 
conclude that the State is not liable in money damages to Bay Mills is, 
of course, far different from concluding that Bay Mills had no valid 
claim to the Charlotte Beach lands.
    This legislation resolves the century old historical land claim by 
Bay Mills and the Sault Tribe.
    In 2002, Governor John Engler reached separate land claim 
settlements with both tribes. Under the settlements, the tribes agreed 
to relinquish any and all legal and equitable land claims to the 
Charlotte Beach lands, and, in return, the Governor agreed to select 
alternative lands in Michigan for the tribes. As the agreement with the 
Governor reads, ``the Governor, as chief executive officer of the State 
of Michigan...desires to settle the land claim for the benefit of the 
State of Michigan and, in particular, the Charlotte Beach 
landowners...''
    In 2007, Governor Jennifer Granholm, amended and endorsed the 2002 
agreement stating in her November 14 letter to Chairman Rahall and 
Ranking Member Young, ``I strongly encourage you to support H.R. 4115 
provided that it includes the Settlement Agreement as modified by the 
enclosed addendum.''
    Two other issues regarding this legislation need to be addressed:
    First, it is important to understand that land claims are 
permissible under the Indian Gaming Regulatory Act(IGRA). In fact, IGRA 
includes a land settlement provision. When IGRA was enacted in 1988 it 
was contemplated that situations may arise where tribal governments may 
wish to conduct gaming on lands acquired through land claim 
settlements, and IGRA specifically allows this to happen. In effect, 
under this IGRA exception, new trust lands are established--at times 
long distances from the tribe's original reservation.
    Soon after IGRA was enacted, Congress passed the Seneca Nation 
Settlement Act of 1990, 25 U.S.C. Sec. Sec. 1774-1774h The United 
States wanted to make up for the past inequities associated with rental 
payments to the Seneca Nation Indians, located in western New York, 
under 99-year leases authorized by Congress in 1875. The leases were 
substantially under market value. Under the Seneca Nation Settlement 
Act (SNSA), the Seneca Nation Indians received money from the United 
States and the State of New York. Those funds could not be obtained by 
the Seneca Nation Indians until the tribe entered into new leases and 
released all claims under the old leases. Some of those funds could be 
used to purchase land for economic development purposes, including 
gaming. In 2002, the Seneca Nation Indians and the State of New York 
entered into a tribal-state class III gaming compact under IGRA, which 
authorized the Seneca to establish three gaming facilities: one on its 
reservation and one each in the cities of Buffalo and Niagara Falls. 
The money used for the purchase of gaming sites in these three areas 
was from the SNSA, the land claims settlement act.
    In addition, we are aware of at least three other Indian casinos 
operating on lands very distant from those tribes' reservations. The 
Forest County Potawatomi Community of Wisconsin owns and operates a 
casino in downtown Milwaukee, which is roughly 200 miles south of the 
Tribe's headquarters and reservation in Crandon. The Kalispell Tribe in 
Washington State operates a casino in the City of Airway Heights near 
Spokane, about 75 miles south of its main reservation. The third is the 
Keweenaw Bay Indian Community in Michigan. This Tribe operates a casino 
near Marquette, roughly 80 miles west of its reservation.
    Although these casinos are operated on lands made eligible for 
gaming under a different exception to IGRA than the one at issue here, 
they nonetheless demonstrate that under some circumstances gaming may 
occur on parcels of land very distant from the reservation of the 
affected tribe. More importantly, the Department of the Interior has 
made it quite clear that its difficulty with allowing gaming to occur 
on parcels far from the affected tribe's reservation is limited to 
applications for exception to IGRA's prohibition against gaming on off-
reservation parcels under the so-called two-part determination 
exception in IGRA, 25 U.S.C. Sec. 2719(b)(1)(A). Here, the Sault Tribe 
is not seeking a two-part determination for the new alternative lands. 
Rather, it seeks to game on the alternative lands agreed to in the 2002 
agreement because that land would be taken into trust in settlement of 
a land claim, a different exception to IGRA's prohibition against 
gaming on after-acquired lands. See 25 U.S.C. Sec. 2719(b)(1)(B)(i).
    Secondly, there is a misconception that this legislation will lead 
to ``off-reservation gaming.'' In fact, the IGRA exception embedded in 
this legislation takes new lands into trust as the remedy for the lands 
that were unfairly taken from Sault Tribe. Indeed, the legislation will 
lead to new trust lands and not ``off-reservation gaming.''
    Additionally, a constitutional amendment approved in 2004 by 
Michigan voters to limit gaming states that the requirement ``does not 
apply in Indian tribal gaming.'' In fact, the amendment also requires 
new casinos to win the approval of local voters before they can open. 
All the localities involved have approved ballot initiatives supporting 
projects in their communities
    Before I conclude, I would be remiss not to emphasize the 
importance of casino gaming to my Tribe and to the State of Michigan. 
Before gaming, unemployment among my tribal members exceeded 50 
percent. Today, gaming provides good jobs to thousands of Native 
Americans and non-Indians across our state.
    Since our tribe is so large, we do not have ``per capita'' payments 
to our tribal members. All of our revenue goes to services for our 
33,000 members. With federal entitlements, we receive just 45 percent 
of the established need for our members who reside in our Upper 
Peninsula service area. We pick up the other 55 percent out of gaming 
revenue. 64 percent of our members reside outside of our service area, 
including approximately 2000 in the tri-county Detroit area, we do not 
receive any federal entitlements for these members. Our business 
ventures provide revenues that have enabled the Sault Tribe to provide 
health care to our members--to open an award-winning school for tribal 
children--to provide the services that our tribal elders deserve and 
long did without--to send tribal members to college--to provide a 
myriad of human service programs--to pave roads, buy public safety 
equipment, provide recreational opportunities, and so much more. 
Because of gaming, thousands of my tribal members have escaped state 
and federal welfare programs for the hope and opportunities that only 
gainful, meaningful employment can provide. A new property on the 
alternative lands that Governor Engler selected, Governor Granholm 
endorsed and local voters approved would boost benefits and services to 
our members.
    It would also benefit the City of Detroit, where unemployment is in 
double digits and Wayne County, where unemployment is nearly 9 percent. 
Detroit currently has three casinos and the Sault Tribe is the majority 
owner of one of the properties, Greektown Casino. We are currently 
expanding that property and will do nothing to jeopardize that 
investment or take away jobs from this casino or Detroit as a whole. 
Indeed, the Sault Tribe wants the Detroit gaming market and the City of 
Detroit to succeed and to thrive.
    Their will be a net gain of jobs for the region, increased tourism 
dollars and an increase in revenues to the State of Michigan, Wayne 
County and the City of Detroit. A new project will bring at least 2700 
new jobs to the region. Detroit's gaming market--with more than 4 
million people and thousands of visitors daily--can easily support 
additional properties. In fact, additional properties will help Detroit 
become even more of a tourism destination. I want to be clear, the 
Sault Tribe is committed to the City of Detroit.
    Finally, I am grateful for the strong support we have received from 
so many people.
    Federal, state and local officials--Democrats and Republicans--
support the agreement with Bay Mills and the Sault Tribe as a fair way 
to address the Charlotte Beach land claim within the confines and 
spirit of the law. As I have noted, two Michigan governors have 
negotiated and supported the agreement--John Engler, a Republican and 
Jennifer Granholm a Democrat. Michigan Congressmen John Dingell and 
Bart Stupak and Congresswoman Candice Miller have all worked tirelessly 
for justice for our tribe, to assist the economy of the State of 
Michigan and help Charlotte Beach homeowners. Local voters in three 
Michigan communities--Romulus, Port Huron and Flint--have approved 
ballot referenda in favor of the proposed facilities.
    Quite frankly, the loudest arguments against H.R. 4115 and H.R. 
2176 come from Las Vegas casino interests and gaming tribes that do not 
want competition to their own businesses. Our interest is that we are 
justly compensated for the illegal land taking from our tribe and that 
the titles are cleared for the many families who today own homes on 
Charlotte Beach lands.
    This land was taken illegally from my ancestors. We have waited for 
over a century for a resolution. A fair and equitable settlement to our 
Charlotte Beach land claim is found in this legislation. On behalf of 
all members of the Sault Tribe, I respectfully urge the Committee and 
all Members of Congress to approve H.R. 4115 and H.R. 2176.
                                 ______
                                 
    The Chairman. Thank you, Mr. Chairman.
    Mayor Lambert.

          STATEMENT OF THE HONORABLE ALAN R. LAMBERT, 
                MAYOR, CITY OF ROMULUS, MICHIGAN

    Mr. Lambert. Thank you, Mr. Chairman, Committee members. 
Actually, I had a whole list of things I was going to read 
here, but a lot of it has been said already. What I would like 
to mention is obviously my name is Alan Lambert, I am the Mayor 
of the City of Romulus. The City of Romulus is approximately 25 
miles west of Detroit. We have a population of about 25,000 
people.
    Detroit Metropolitan Airport sits right in the middle of 
our city. You know, I have heard today about Indian gaming, and 
I have heard about land claims. I believe I am in favor of H.R. 
4115 and H.R. 2176, which I believe are land claims, but also 
open the land claims up to casino gaming. That is where the 
City of Romulus comes in.
    In November or December of 2003 the City of Romulus had a 
referendum vote on casino gaming that was passed. This isn't 
the first time I have been here. Obviously I have testified 
before your committee before. With Michigan being in a one 
state recession, hundreds of thousands of jobs going away, as 
the Mayor of my community, I believe this will benefit not only 
our community, but also the entire southeast region and the 
State of Michigan.
    Governor Engler and Governor Granholm have supported this 
project. We have been patiently waiting for several years now, 
and meanwhile, the economy worsens, people are losing jobs and 
Wayne County, the county that Romulus sits in, is ranked among 
the top two United States where home foreclosures.
    I believe these somewhere around 2,700 union jobs that 
Congressman Dingell had mentioned earlier would certainly help 
the City of Romulus, the region and the state. I personally 
like to thank Congressman Dingell, Congressman Bart Stupak, 
Congressman Kildee. Thank you for your support on this. I think 
it is important that both Governor Engler and Granholm realize 
how important this is, especially at this time with such a bad 
economy in Michigan.
    The City of Romulus is working with Wayne County on a 
concept called Aerotropolis, which is supposed to bring 
regional economic development to our city and along the I-94 
corridor extending from the Detroit River to Ann Arbor. Romulus 
is centrally located along the corridor, and if a casino would 
come there we could obviously use that as a catalyst to jump 
start other development and make the Aerotropolis dream a 
reality.
    Implementation of the Aerotropolis plan will place the 
region front and center of the new economic investment in 
Michigan. The Sault project can also be an additional catalyst 
obviously for other developments to come to the area. In 
closing, I just want to stress the urgency of having this done, 
land claim, casino gaming.
    Now, obviously you deal with the land claim part of it, and 
hopefully, the casino gaming is a part of that. I thank you for 
listening. I am here representing my community in southeastern 
Michigan. Thank you very much.
    [The prepared statement of Mr. Lambert follows:]

              Statement of The Honorable Alan R. Lambert, 
                    Mayor, City of Romulus, Michigan

    My name is Alan R. Lambert and I am the Mayor of the City of 
Romulus. Romulus is located in Wayne County, Michigan, which is 
approximately 25 miles west of the City of Detroit. We have a 
population of approximately 25,000. Romulus is the home of Wayne County 
Metropolitan Airport, which is located directly in the middle of our 
City.
    In December of 2003 Romulus had a referendum vote asking our 
residents if they would want a casino development in the City of 
Romulus. The residents overwhelmingly voted in favor of allowing a 
casino development in the City limits. I believe, as do the residents 
of Romulus, that this casino would be a benefit to the City of Romulus, 
and would also provide huge benefits to the entire region, as well as 
to the State of Michigan.
    Former Governor Engler agreed when he signed a settlement agreement 
with the Sault Tribe in December 2002, resolving the land claim. 
Governor Granholm also has approved the Settlement Agreement and has 
asked for your support.
    We have patiently waited for this to move forward as the Michigan 
economy has worsened. We are concerned that the most vocal opposition 
casino may not even be from our area.
    With Michigan in a one-state recession, jobs are leaving the State 
faster than any other state. We live in one of the leading counties in 
the nation for the number of home foreclosures, and it is getting worse 
each day. We have lost hundreds of thousands of jobs in Michigan, and 
there is no one bringing those jobs back. I feel that a proposal such 
as the casino could bring 3 to 4 thousand new jobs and millions of 
dollars of revenue, not only to the City of Romulus, but also the 
southeast region, and the State of Michigan. This is a win-win for 
everyone. This is something that has to be done, and somebody has to 
step in and help.
    I want to personally thank Congressman John Dingell, Congressman 
Bart Stupak, and Congresswoman Candice Miller for all their efforts in 
Washington. I also want to thank Governor's Engler and Granholm for 
their support. They all understand the importance of the project and 
its impact to the state and region.
    In addition, it is important to note that the City of Romulus is 
working in partnership with Wayne County, the Airport Authority staff, 
and the neighboring communities on an ``Aerotropolis Regional Economic 
Development Plan''. As you may be aware, the Aerotropolis plan includes 
the development and growth of new industry, high tech business and 
quality entertainment opportunities along the I-94 corridor, extending 
from the Detroit River to Ann Arbor. Romulus is centrally located along 
this corridor and the casino located here would further act as a 
catalyst to jump start this Aerotropolis dream into a reality. 
Implementation of the Aerotropolis plan will place this region front 
and center for new economic investment in Michigan.
    The Sault project can be the catalyst for additional developments 
to come to the City, the Aerotropolis, and southeast Michigan.
    In closing, I want to stress the urgency of getting this approved 
for the positive economic impact it would have to our area.
                                 ______
                                 
    The Chairman. Thank you, Mayor.
    Mr. Tomion.

          STATEMENT OF MR. KARL TOMION, CITY MANAGER, 
                  CITY OF PORT HURON, MICHIGAN

    Mr. Tomion. Thank you, Mr. Chairman. I am Karl Tomion, I am 
the City Manager of Port Huron, Michigan. This afternoon we 
have heard from our Michigan delegation and from Mayor Lambert 
talking about the one state recession that has been going on in 
Michigan.
    The reason that Michigan has this recession going on is 
simply because of all the manufacturing jobs that our country 
has lost that have gone offshore. Twenty-five percent of them 
have been lost in the State of Michigan.
    I know you understand that the State of Michigan has a very 
high unemployment rate, but what you probably don't understand 
unless someone has brought to your attention earlier is our 
city, the City of Port Huron, is in considerably worse shape 
than the State of Michigan and the United States.
    I think that is why Governor Engler chose the City of Port 
Huron as the site for the Bay Mills proposal. Our unemployment 
rate in December 2007 was 13.8 percent. That is when the United 
States' unemployment rate was 4.2 percent. Our unemployment is 
three times that of the nation. To put that in human terms, in 
Port Huron one out of seven workers is unemployed.
    Unemployment isn't the only challenge that is facing the 
City of Port Huron. We actually have problems with two very 
large Federal mandates, Federal projects, that are taking place 
in our community that are having an adverse impact on our 
economy. The first is an EPA order to separate our combined 
sewers.
    Port Huron is a historic town. We are over 150 years old, 
we have some sewers that were built before the 1900s and our 
32,000 residents have been ordered to separate these sewers at 
a cost of $185 million. What is worse about that is that 95 
percent of that cost has got to be borne by our citizens.
    Our sister city, Sarnia, Ontario, which has been referred 
to earlier this afternoon, directly across our international 
border a few hundred yards away has the identical problem of 
the City of Port Huron. In Canada, in Ontario, in Sarnia, the 
Federal government picks up a large portion of this cost and 
the City of Sarnia only has to pay a third of the cost.
    The revenue sharing provisions of the Bay Mills proposal is 
going to help the City of Port Huron close this gap, the gap 
where we are currently paying 95 percent of the cost when 
Sarnia is paying 33 percent of the cost. The second Federal 
infrastructure project that Congresswoman Miller mentioned in 
her testimony today is the expansion of the Blue Water Bridge 
Plaza.
    This is the plaza that connects the United States with 
Canada and the City of Port Huron with Sarnia. Here, the 
Federal government is going to take 60 acres of property from 
us, this is a community of only eight square miles, and it is 
going to involve a large portion of our business community and 
two viable residential areas.
    With the Bay Mills agreement we are hoping to provide some 
mitigation. We plan to turn this disadvantage into an 
advantage, and try and take our third busiest crossing in the 
United States and turn it into an entertainment venue. We need 
to restructure our economy. We need to move away from auto 
parts, which is our primary base and which we have lost 1,000 
jobs in the last few years.
    Again, in this example, Sarnia, Canada, our sister city, is 
far ahead of us. Sarnia has already been permitted two gambling 
facilities. Combined, these casinos receive 1.3 million 
visitors a year, and they have shared $37 million in local 
revenue sharing with that community. These casinos estimate 
that 80 percent of the people that are visiting those casinos 
are from Michigan or elsewhere in the United States.
    It is very frustrating for our citizens to watch the 
American dollars being spent in the casinos in Sarnia. I know 
Congresswoman Miller made reference to this picture that I 
submitted to the Committee earlier, but here you can see the 
site of the proposed casino, and you can read the 
advertisements for the casinos in Canada.
    This is extremely frustrating for our residents. With the 
Bay Mills agreement we think that our ability to compete in 
this important market will be significantly enhanced. I think 
it is also important, since we have heard a lot about this this 
afternoon, to point out that this market is not currently 
served by Detroit or by Mt. Pleasant.
    There has also been discussion in this hearing today about 
division. While there may be division in our congressional 
delegation, our community is not divided on this issue 
whatsoever. In fact, it has received unprecedented support.
    As has been mentioned earlier, the original agreement was 
approved by Republican Governor Engler, the existing agreement 
by Democratic Governor Granholm. It has the support of both of 
our U.S. Senators, Debbie Stabenow and Carl Levin, it had the 
support of our former Democratic Congressman David Bonior, and 
our current Congresswoman, Candice Miller.
    In summary, I know that all of you are concerned about the 
loss of jobs in Michigan and across the country to offshore 
competition, but you need to understand that for Port Huron 
offshore competition isn't China, it is Canada. All that we are 
seeking is a level field, a level field where we can compete 
fairly. Thank you.
    [The prepared statement of Mr. Tomion follows:]

              Statement of Karl S. Tomion, City Manager, 
                      City of Port Huron, Michigan

    Thank you for inviting me to testify before the House Committee on 
Natural Resources concerning the City of Port Huron / Bay Mills Casino 
Land Settlement Proposal and permitting me to submit these comments for 
its consideration.
    While I am not familiar with the problems regarding the land claims 
for Charlotte Beach, I am the Chief Administrative Officer of the City 
of Port Huron, which is also my hometown.
    During my childhood while I pursued my education from elementary 
school through community college, Port Huron was arguably one of the 
most successful urban core cities in our state.
    In 2006, when I became Port Huron's City Manager and returned to my 
hometown, it had changed dramatically and is now facing some of the 
most serious challenges of any comparable community in Michigan.
THE ECONOMY
    Our economic crisis results primarily from the negative forces 
affecting the State of Michigan. As the Committee is undoubtedly aware, 
Michigan has been suffering a long-term single state recession for the 
past several years. Of all the manufacturing jobs lost to foreign 
competition in the United States, 25% of these have been from Michigan. 
The severity of this problem is most easily summarized from the 
following unemployment statistics.
[GRAPHIC] [TIFF OMITTED] T0622.005

    This means one out of seven workers in Port Huron was unemployed in 
December of 2007.
    While Michigan leads our country in unemployment, Port Huron has an 
average rate that is 75% higher than the entire state of Michigan. This 
has occurred because Port Huron's economic base has lost more auto 
manufacturing jobs proportionately than the state or country to 
offshore competition.
    In the past three years, our town of 32,000 has lost over 1,000 
manufacturing jobs with the closing of automotive suppliers Collins and 
Aikman, Modern Plastics, and Takata.
EDUCATION
    Our ability to restructure our economic base to recruit service 
sector/knowledge based economies has been hindered by our undereducated 
workforce illustrated in the following comparison.
[GRAPHIC] [TIFF OMITTED] T0622.006

    When Port Huron has less than half of the college-educated workers 
as the United States and Michigan, it's clear to see why our economic 
development options have been significantly limited.
    As economic conditions in the United States worsen, the anticipated 
recession will negatively impact our remaining employers. This will 
result in additional loss of manufacturing jobs, and we do not think it 
is unrealistic to expect our jobless rate to reach 15%.
FEDERAL MANDATES
    At this time of economic crisis, two unfunded Federal mandates are 
threatening our ability to provide basic public services. The first is 
the United States Environmental Protection Agency's order to separate 
our combined sewer overflows. Last year, our City celebrated its 150th 
birthday and, as a historic urban center, we are being mandated to 
replace over 40% of our entire street, sanitary and storm sewer 
infrastructure.
    The total estimated cost of these improvements is $185 million. We 
estimate that our utility rates need to increase 120% over the next 
five years and we anticipate similar increases for several years 
thereafter.
    Dramatically raising these rates over a short period of time will 
create a hardship for our citizens, many of whom are unemployed, 
elderly and otherwise low income. It also poses a major disincentive 
for economic investment.
    At the same time, the Federal and State government are proposing to 
spend over $400 million to increase the size of the international Blue 
Water Bridge Plaza in Port Huron. The Blue Water Bridge connects the 
United States to Sarnia, Ontario, Canada. This is the third busiest 
vehicular crossing between our two countries.
    This 60 acre taking will remove 150 residential and commercial 
properties from the center of our city. Not only will this reduce our 
population and tax base, but it will divide the City physically with 
the construction of a 1.2 mile-long concrete wall, 15 feet in height.
    The Federal Highway Administration and the Michigan Department of 
Transportation have argued that Port Huron is only losing 2% of its 
economic base as if this were inconsequential. If Michigan were to lose 
a proportional amount of its population base, it would be equivalent to 
losing our second largest city, Grand Rapids. Or if we use the nation 
as an example, it would be the equivalent of losing the entire 
population or geographic area of the state of Missouri.
    Both the CSO project and the Blue Water Bridge Plaza expansion 
offer significant benefits to Michigan/Ontario and to the United States 
and Canada, but almost none to Port Huron, which suffers all of the 
negative consequences. Approval of the Bay Mills Casino Proposal will 
provide substantial mitigation of these adverse federal mandates 
without the need of significant supplemental federal appropriations.
CANADIAN COMPETITION
    Our sister city, Sarnia, Ontario, with whom we share an 
international border crossing, has faced identical problems. However, 
the Canadian government has stepped in to mitigate them. This has 
frustrated and angered our U.S. citizens.
    For example, in July of 2007 Canada announced a $35 million, four 
year project to separate combined sewers in a central portion of Sarnia 
(population 71,000). Canada's Strategic Infrastructure Fund (CSIF) will 
grant $17.4 million to the project and the province of Ontario will 
contribute $5.8 million. The City of Sarnia will only be required to 
pay 1/3 of the project costs or $11.7 million. In comparison, Port 
Huron (population 32,000) must expend $185 million, 95% of which will 
be funded with municipal bonds repaid only by our customers.
    When Canada expanded its potion of the international bridge plaza, 
it was built largely in an undeveloped area, while we will be 
experiencing the loss of a fully developed commercial area and two 
stable residential neighborhoods. This is in addition to a prior taking 
of similar commercial/residential properties for a previous expansion 
of the U.S. bridge plaza completed in 1997.
    In 1998, Canada announced plans for a new ``charity casino'' 
located directly across the St. Clair River from Port Huron. The Point 
Edward Charity Casino, which opened in 2000, has:
    <bullet>  490 slot machines
    <bullet>  38 game tables
    <bullet>  531 employees
    <bullet>  over 700,000 annual visitors of which over 70% come from 
Michigan or elsewhere in the United States.
    This casino has paid over $4 million a year as a grant in lieu of 
taxes to the municipality; an additional 5% non-tax revenue that's 
amounted to over $20 million to date.
    In 1998, the Canadian government also approved an expansion of the 
Hiawatha Raceway in Sarnia. This facility included;
    <bullet>  422 slot machines
    <bullet>  provides employment for 169 workers
    <bullet>  receives over 670,000 visitors annually
    <bullet>  has generated $17 million in revenue sharing to the City 
of Sarnia to date.
    The location of both of these Canadian casinos is depicted on the 
attached photograph.
    As you know, Port Huron has been unsuccessful in getting 
Congressional approval for our casino which would be sited a few 
hundred yards across the St. Clair River from Sarnia.
DETROIT'S SUCCESS
    Detroit and Port Huron share similar characteristics and 
challenges:
    <bullet>  high unemployment
    <bullet>  low education levels
    <bullet>  the percentage of owner-occupied versus rental occupied 
are comparable (Port Huron 43% renter, Detroit 45%)
    <bullet>  border city facing Canadian competition with multiple 
casinos
    <bullet>  host to major international crossing
    <bullet>  age of average housing stock is comparable (Port Huron, 
1950; Detroit, 1948)
    <bullet>  median household income (Detroit = $29,526, Port Huron = 
$31,327)
    The City of Detroit has been permitted to address its challenges 
through a state-wide gambling ballot proposal. This initiative;
    <bullet>  allowed three gaming casinos to be established in the 
City of Detroit
    <bullet>  imposed an 18% state tax on gaming revenues
    <bullet>  allocated 55% of the tax revenue to the City of Detroit 
for crime prevention and economic development and allocated the 
remaining 45% to the State for public education.
    City of Port Huron residents supported this proposal to assist 
Detroit's economic growth. Port Huron's residents sympathized with the 
City of Detroit's inability to compete with its sister city, Windsor, 
Ontario which had already established a Canadian casino.
    In August of 2004;
    <bullet>  the 18% state tax on gaming revenues was increased to 24%
    <bullet>  1/3 of the increase was allocated to the City of Detroit
    <bullet>  this has resulted in over $120 million in additional 
revenue.
    Perhaps more important than the revenue has been the new investment 
in Detroit that has been stimulated by the development of the three 
casinos which has included:
    <bullet>  $500 million for the development of Ford Field, the new 
home of the Detroit Lions
    <bullet>  $300 million for Comerica Park, the new home of the 
Detroit Tigers
    <bullet>  $12 million in facade improvement program
    <bullet>  $30 million for a new downtown YMCA
    <bullet>  $400 million for construction of a 15-story Compuware 
Headquarters
    <bullet>  $500 million for the renovation of the Renaissance Center 
by General Motors
    <bullet>  $400 million investment in Belleview (formerly Uniroyal) 
for mixed-use development along the riverfront
    <bullet>  $15 million to transform the former Kresge headquarters 
(Kale's) into 119 apartments
    <bullet>  $52 million in facility bonds to renovate the historic 
Book Cadillac Hotel
    <bullet>  $150 million Cadillac Centre, 24 story mixed-use 
development
PORT HURON'S SUMMARY
    Port Huron is a microcosm of Detroit and suffers from many of the 
same problems. In addition, its economic base is being undermined by 
two federally mandated projects: the $185 million U.S. EPA CSO Program 
and the $400 million Federal Highway 60 acre Blue Water Bridge Plaza 
expansion.
    We are also at a substantial disadvantage with our sister border 
community, Sarnia, because the financial grant assistance of the 
Canadian government and its approval of two gambling facilities that 
are siphoning millions of dollars out of Port Huron's economy.
    The Bay Mills/Port Huron casino proposal provides relief to the 
City of Port Huron without any major federal appropriations, increases 
our competitiveness with Canada, and provides an equitable settlement 
of the Charlotte Beach land dispute.
    Port Huron is Michigan's only international border city without a 
casino and we respectfully request that the Committee approve the bill 
which is before it to help ease our economic suffering and revitalize 
our city.
    The Bay Mills/Port Huron casino proposal has been strongly approved 
or supported by;
    <bullet>  the citizens of Port Huron in a general election
    <bullet>  the Port Huron City Council and the St. Clair County 
Board of Commissioners as well as our regional school districts
    <bullet>  former Republican Governor John Engler
    <bullet>  current Democratic Governor Jennifer Granholm
    <bullet>  our Democratic U.S. Senator Carl Levin
    <bullet>  our Democratic U.S. Senator Debbie Stabenow
    <bullet>  former Democratic Congressman Dave Bonior
    <bullet>  our current Republican Congresswoman Candice Miller.
    This agreement would not only reinvigorate our economy but would 
also provide additional revenue for education programs for our school 
districts and funding to assist us with the massive CSO and Bridge 
Plaza federal mandates.
[GRAPHIC] [TIFF OMITTED] T0622.007

                                 ______
                                 
    The Chairman. Thank you. Let me yield first to the 
gentleman from Michigan, Mr. Kildee.
    Mr. Kildee. Thank you very much, Mr. Chairman. I really 
appreciate the testimony of all of you. Let me address my first 
question to Chairman Parker and President Parker and Chairman 
Payment. For purposes of administering governmental programs 
and providing for public safety, how would your tribes exercise 
that authority in the newly acquired lands in Port Huron and 
Romulus/Flint, whatever one is chosen?
    Would you have your own police presence there to keep order 
and make sure the law is obeyed?
    Mr. Parker. We would do similar to what we are doing right 
now at Bay Mills where we would have officers trained by the 
Bureau of Indian Affairs to enforce law on tribal members. We 
would work cooperatively with the county and the sheriff with 
cross-deputization agreements to make sure that the peace was 
kept.
    That is something that we do right now. I actually started 
just briefly talking with the City Manager about that. Before 
we go any farther with that we want to find out if we are going 
to get this legislation through.
    Mr. Kildee. So you right now do cross-deputize in your area 
plus have your own police force?
    Mr. Parker. That is correct.
    Mr. Kildee. OK. Chairman Payment.
    Mr. Payment. Just to add to that, our officers are trained 
under the BIA so they have that level of training. You know, I 
had the privilege of working with Bay Mills' attorney about 15 
years ago to get legislation through in Michigan so that our 
officers could become state certified, so our officers are 
also, and the Sault Tribe, also, state certified, and so there 
is no holes in jurisdictions.
    Sometimes you hear about the checkerboard reservation 
problem and challenge. We would directly fund our own law 
enforcement to be able to work with our Gaming Commission. We 
have a lot of regulations. Earlier today it was alluded to, 
kind of suggested, that Indian gaming is not regulated.
    We would work with our security and surveillance personnel, 
but we would have tribal law enforcement present, they would be 
state certified, and we would have cross-deputization 
agreements with the local municipalities so that there would be 
no holes in jurisdiction.
    Mr. Kildee. How would both of you characterize your 
relationship with the other governmental units around you?
    Mr. Payment. I think they are excellent. I think when we 
moved to get legislation so our officers would become state 
certified, that helped us to demonstrate the legitimacy of our 
officers within the local community, and since that time 
through a local two percent share that we do under our existing 
1993 compact we give funding to each of the communities in 
which we have reservation and we have jurisdiction.
    So we work cooperatively. We have very positive 
relationships not only with local law enforcement, we also do 
with the city council and with the local governments often 
putting up economic start up dollars to help look for other 
economic opportunities to expand and benefit those communities.
    I would characterize our relationship today as a very 
positive relationship.
    Mr. Kildee. Mayor Lambert and City Manager Tomion, you 
would want to work closely with intergovernmental relations 
with the sovereign tribes in your respective cities?
    Mr. Lambert. Certainly. Absolutely. In fact, just as we 
have been negotiating through the years and talking about 
certain things that has been a big issue that I think we have 
to get together. I think you work closely together and that is 
the way to make sure that people are going to be safe.
    Mr. Tomion. We have had preliminary discussions, as Mr. 
Parker has indicated, and we are quite confident that can be 
worked out.
    Mr. Kildee. Jim, thank you. Thank you very much, Mr. 
Chairman.
    The Chairman. Thank you, Mr. Kildee. I have a question for 
President Parker and Chairman Payment. You may have seen this 
full page ad that ran in, well, probably all of the 
publications here on Capitol Hill this week. Should Congress 
role the dice with off-reservation casino deals? I am wondering 
if either of you could shed some light on who the supposed 
sponsor, paid for by Americans for Gaming Reform, Incorporated, 
who might be the true payers of this ad?
    Mr. Parker. It wasn't us. It is my understanding that it is 
a gentleman by the name of, and I will probably pronounce his 
last name wrong, Peter Rigoni, who has gone through and set up 
that and placed those ads.
    The Chairman. Who is that gentleman again?
    Mr. Parker. Peter Rigoni.
    The Chairman. Do you know who he represents?
    Mr. Parker. No, sir.
    The Chairman. Anybody on the panel?
    Mr. Tomion. I believe from what I have read in my own local 
newspaper that has been researching this topic that he has 
links to the MGM Casino interest.
    The Chairman. OK. Thank you.
    Mr. Payment. I would just like to add to that.
    The Chairman. Yes?
    Mr. Payment. Earlier somebody testified on the connection 
with Lori Wartz and Sterling Group and Peter Ellsworth with 
Dickinson Wright who represents MGM.
    You know, the thing is when that ad came out and this 
mailer came out, we quickly tried to get some intel on it and 
tried to figure out who was behind it, but the fact that we 
have to research that and the fact that you even have to ask 
the question suggests that there is something not right. 
Something is not right in Denmark or Detroit.
    I really enjoyed Candice Miller's quote, ``Spare me the 
righteous indignation.'' If gaming interests, whether they are 
MGM or they are Las Vegas, are funding the kind of efforts that 
are intended to breed on the kind of antigaming sentiment that 
Congressman Rogers usually has in his district it is righteous 
indignation because it is clearly intended to try to eliminate 
competition.
    It has nothing to do with the citizens of Detroit, it has 
nothing to do with the citizens of Romulus or Port Huron or the 
Indians in the UP or land claims. Nothing to do with that at 
all. It has everything to do with spending dollars to try to 
affect you, as Members of Congress, in the worst possible way. 
It is a contamination of the political process.
    Unfortunately, we kind of accept it as a way of doing 
business in Congress. Well, I am not running for President, but 
that has to change.
    The Chairman. Well, I am not either. You heard the 
government's testimony, both here today and in 2004, at no time 
in the several years these bills have been before us has the 
government ever questioned the validity of your land claim. My 
question is would you expect them to voice that challenge if 
they had one?
    Mr. Parker. If they had a concern that this was not a valid 
claim?
    The Chairman. Yes.
    Mr. Parker. Knowing our interaction with the Bureau in the 
past, I would more than expect them to state something for the 
record.
    The Chairman. Thank you. The gentlelady from Virgin 
Islands, Dr. Christensen.
    Ms. Christensen. Thank you, Mr. Chairman. Thank you, 
panelists, for being here and for your testimony. Coming from a 
place that has our own economic challenges and having wrestled 
with casinos and whether to have them or not have them, and 
then once we did have them with competing gaming and deciding 
whether we should allow them and the impact on the casinos that 
already exist I do have some understanding of the issue from my 
district point of view.
    None of us want to stand in the way of economic development 
for any part of our country or in the way of a settlement of a 
long-standing claim, which I don't question. I don't question 
the validity of the claim.
    If there has been a referendum where the people of Michigan 
said no more gaming, and if the legislature passed a state 
compact that is in direct conflict with the legislation that is 
before us today why should we in Washington pass legislation 
that the people of Michigan have spoken against in principle 
and the legislature has as well?
    Mr. Parker. Well, I really believe that is not entirely the 
case when it comes to the two bills that we are talking about 
today. We have to remember that Governor Engler, who sat down 
originally and negotiated the settlement, and current Governor 
Granholm, are both attorneys who understand the law.
    I for one do not believe that either one of them would 
subject either their office or the State of Michigan to 
anything inappropriate or illegal. So when we sat down and 
looked at this the referendum and everything else was there. 
This in no way interferes on what the laws in the State of 
Michigan are.
    We have had a compact since 1993. I may be, besides 
Catherine, who is with me, the only person in the room who was 
directly involved in the negotiations for the compact between 
the then seven Federally recognized tribes of Michigan and the 
State of Michigan.
    So I don't believe at all that this is inappropriate or in 
any way impeding upon the rights of the citizens of Sault Ste. 
Marie Tribe, the Bay Mills Indian Community, the State of 
Michigan, City of Romulus or the City of Port Huron.
    Mr. Payment. Can I answer that as well? You know, there has 
again been a lot of talk today about what is legal, what is not 
legal, what authority rests with the state, what authority 
rests with Congress. Clearly, you have plenary authority in 
Congress to settle this claim. IGRA specifically carved out the 
opportunity that land that is taken in settlement of a claim is 
eligible.
    That suggests to me that your colleagues or maybe people 
who predated you here understood the nature of Indian claims, 
and why Indians were dislocated and all of the different 
variables that come into play that dislocate Indians from their 
homelands. I believe because I am optimistic about this that 
Congress wanted to provide a remedy for Indian people in those 
circumstances.
    That is why IGRA was enacted specifically providing for 
that opportunity. We have a compact. It was signed at the same 
time that Bay Mills was in 1993, also the same time that 
Saginaw Chippewa Tribe's was, and that rests the authority with 
the Governor of the State of Michigan to negotiate that 
compact.
    That has been challenged. Recently, that has been resolved, 
that the Governor does have the authority to enter the compacts 
and to amend those compacts. So when we ask, what does Michigan 
think about this, the authority vested with the Governor by the 
citizens when they elect the Governor give the Governor the 
authority.
    On Proposal 1 specifically, and it was ready by my 
Congressman, Bart Stupak, that specified that voter approval 
requirement does not apply to Indian tribal gaming or gaming in 
up to three of the casinos located in the City of Detroit. So 
under this postulate that somehow we are doing something 
improper, any changes to the operations of Detroit, and I am 
not advocating this because we have one of those casinos, we 
are the only one in Detroit that is 100 percent minority owned.
    That would suggest, though, that somehow anything that 
Detroit does and the three casinos in Detroit have to be passed 
by a vote of the people, both a local vote and a state vote. 
That is not the standard by which the people voted on. The 
people did vote, and they voted resoundingly, to approve 
Proposal 1 that specifically exempts tribal casinos.
    So when we are asking what do the people in Michigan think, 
the Governor has the authority and speaks on behalf of the 
state, and the citizens did speak to specifically exempt Indian 
tribes.
    Ms. Christensen. I understand that. My sense is that, and I 
would have to go back and look at the referendum in more 
detail, but the sense I have is that when they voted they did 
not want to have anymore casinos, period, but I will go back 
and look at it. I hear what you said.
    Mr. Payment. Detroit voters voted at 64 percent to approve 
this bill which exempted Indian tribes.
    Ms. Christensen. OK. Also, if we pass these bills 
regardless of whether we say that they don't represent a 
precedent or not, well, even if we say they don't represent a 
precedent, what is to prevent other tribes with claims to land 
in their state from coming to us to ask the Congress to ratify 
and declare land exchanged, that they favor to be tribal lands 
so that they could build a casino?
    Mr. Parker. You know, the issue is why shouldn't you do 
that? If a tribe has a legitimate claim, if it has been 
documented, Congress has the responsibility to take care of 
that land claim issue on behalf of that tribe.
    Ms. Christensen. No matter where the land is, the distance 
from the original tribal lands and whether or not there is 
agreement from other Native American Tribes that are involved 
that have to also agree?
    Mr. Parker. I don't know of any statutory language that 
requires what you are talking about to take place. I would like 
to just very quickly, because you brought it up, talk about the 
distance argument. That is something that is relatively brand 
new that tribes are just finding out about. Actually, in one 
way I am kind of glad about that because my grandmother was 
taken from the reservation by the Federal government and put in 
a boarding school.
    Now, the Federal government is saying no, we want to keep 
you on the reservation. So to that extent, that is kind of 
nice. I am glad that Congress and the Federal government is 
recognizing that. I don't see that distance argument as having 
any viability in the claims that the Sault Tribe and Bay Mills 
have before this committee today.
    Mr. Payment. Can I answer that, too? It is not in the law. 
If Congress would like to put it in the law as a requirement in 
IGRA, you know, there has been some talk today to try to bring 
IGRA back up for enactment, I would urge the Congress to change 
the law if that is the standard that they want to create.
    You know, my tribe was, again, recognized in 1972. I can 
see the pictures of the Indians on the wall, so you would think 
we are in a welcome place here.
    Ms. Christensen. You are.
    Mr. Payment. The process for us to become recognized 
happened, it took 20 years. We were left without recognition. 
We got recognized in 1972 fortunately because of the Methodist 
Mission, they donated our original property. We only have 450 
homes on a very small reservation. Ninety-seven percent of our 
members do not live on the reservation.
    To create a standard that suggests that we have to live 
within those original boundaries, we have 37,000 members, you 
know, could our economy in the upper peninsula of Michigan 
accommodate all of those members if they chose to move home? We 
do have 3,300 members who live within the three counties of 
Macomb, Oakland and Wayne County, and so that is our homeland.
    That is where our people live now. These are our members, 
and we have a responsibility to those people. So what we do as 
a tribe, because we only get 44 percent of the funding from the 
Federal government, Congress could write bills to make that 
higher, please, but in the meantime, we have to fend for 
ourselves because we can't wait for Congress or the President 
to do it.
    To do that we have to find opportunity, and that is why we 
are looking for where the opportunity exists. We will be honest 
about that and genuine about that. In order for us to begin to 
even scratch the surface of our needs for our members we have 
to find economic opportunity.
    Mr. Parker. Can I add just one more to that? In this 
specific case the Governor of the state directed the tribe 
where they were going to be able to get alternative lands. It 
wasn't the tribe going to the Governor. It wasn't like we had a 
choice. Well, let us take a look at Michigan. We want this 
site. No.
    When we sat down with the Governor and negotiated this 
settlement with him and her we were directed on where those 
alternative lands were going to be.
    Ms. Christensen. Well, my time is up, Mr. Chairman, and I 
will release my time.
    Mr. Kildee. Just a statement. You and I were here when IGRA 
was written. We remember the laborious, long process, and we 
deliberately did not put any geographical limitations in 
because of our study of history and the advice of genealogists 
and historians because some tribes were moved so far from their 
original land, including Michigan Indians were just, I mean, 
treated like awful treatment.
    So we deliberately after much discussion, I mean, days, 
probably several weeks of discussion, should we put any 
geographic limitation, we said no because there are some tribes 
that have been so far removed from what is called ancestral 
land that that would not be appropriate. So that was not 
something that just we neglected to put in. We didn't put in 
because we thought it would cause some problems.
    Now, we probably want some rule of reason and prudence to 
provide that, but generally, that has been the case. When you 
look at the history of even Michigan Indians, how far they have 
been removed, so anyway, we did it deliberately, did not put 
any geographical limitations in.
    The Chairman. The Chair thanks the panel for being with us. 
Panel No. 3 is composed of the following individuals. The 
Honorable Kwame Kilpatrick, the Mayor of City of Detroit, 
Michigan; The Honorable Fred Cantu, the Chief, the Saginaw 
Chippewa Indian Tribe, Mt. Pleasant, Michigan; and Mr. Joe 
Conroy, the Director of Government Operations, City of Flint, 
Michigan. We welcome all the panel.
    I am going to recognize the gentleman from Michigan for 
special recognition here, but before, I understand the Mayor 
has to leave because although it is 70 degrees here in 
Washington there is an ice storm approaching Detroit, and so 
the Mayor must leave.
    I can't understand why the air is always hotter inside the 
beltway than elsewhere in the country. The Chair recognizes the 
gentleman from Michigan.
    Mr. Kildee. Thank you very much. First of all, I welcome 
all the guests. They are all friends of mine, and I know them 
very well. I am pleased to introduce especially to the members 
of this committee my very good friend and former State Senator, 
Joe Conroy, of Flint, Michigan. Joe was first elected to the 
Michigan House in 1977 and later served in the Michigan Senate 
until 1998.
    He has continued to serve in our hometown of Flint, 
Michigan, as the Director of Governmental Operations for Flint 
Mayor Don Williamson. Once again, I thank you for having him 
testify before us because Flint is one of the cities that is in 
the agreement signed by the two Governors. Thank you for being 
here, Mr. Conroy. Thank you, Joe.
    The Chairman. Mr. Mayor, you may proceed.

  STATEMENT OF THE HONORABLE KWAME KILPATRICK, MAYOR, CITY OF 
                       DETROIT, MICHIGAN

    Mr. Kilpatrick. Thank you, Mr. Chairman, to you and to 
Congressman Kildee and members of the Committee. I am Kwame 
Kilpatrick, Mayor of the City of Detroit. I will shorten my 
remarks because there has been a lot of discussion today.
    We are a city of communities of hard working families that 
collectively have withstood tremendous economic challenges, and 
yet, we are experiencing a revolutionary transformation of our 
downtown and many of our neighborhoods in the city.
    Before I was Mayor of the City of Detroit I was leader of 
the state House and member of the Casino Oversight Committee, 
one of the authors and sponsors of the bills which brought 
three land based casinos to Detroit, and I also worked very 
hard on the second round of compacts in the state legislature.
    Thank you for convening this important hearing on H.R. 2176 
and H.R. 4115. These legislative proposals address the 
settlement of certain land claims of Bay Mills Indian Community 
and of the Sault Ste. Marie Tribe of Chippewa Indians.
    I have worked with both of these tribes on different 
issues, Bay Mills on the issues of charter schools, and Sault 
Ste. Marie on the issues of casinos, since I was elected in the 
state House. Essentially, these two bills would authorize and 
permit these tribes to open and operate casino gaming 
facilities in close proximity to the casinos that are located 
in the City of Detroit far away from their tribal lands in the 
upper peninsula of Michigan.
    As further discussed herein, the two legislative proposals 
will be very detrimental to our city for a number of reasons. 
Our city council unanimously has voted against the bills. 
Several members of our community, several of our elected 
officials including our two congresspeople, as well as many of 
our county commissioners, state Representatives, state 
Senators, have strong opposition to the enactment of these 
bills.
    Mr. Chairman, the position that I must strongly advocate 
for today is unfortunately at odds with many of my friends in 
the Michigan congressional delegation. However, it is 
imperative that I speak on behalf of the future health and 
vitality of what we are calling the next Detroit and how these 
bills before the Committee today may severely harm the positive 
trend that we are experiencing in our city.
    I also ask the Committee to take note that there are 
several people within our delegation that are supportive of our 
position today as well. I believe that there are significant 
issues involved in this Indian land claim, I believe there are 
significant issue when it deals with IGRA involved in the 
proceedings today, but my testimony does not focus on these 
matters.
    Rather, I would like to share with you the critical 
information regarding the revitalization of our city. I have 
heard several times today that how would it impact the City of 
Detroit with new casinos coming forward? First, I want to give 
you some insight on the recent progress we are making in the 
City of Detroit.
    Because of our partnerships with the private sector 
philanthropic community and also our city government working 
together we have managed our way through a tremendous crisis in 
the City of Detroit. In 2002 when I first assumed office we had 
a $300 million deficit. Congress may remember everybody was 
predicting us to be in receivership.
    All the papers were even going as far as to pick the 
receiver that would be coming in to the City of Detroit. We 
didn't go into receivership. We stopped it. We had to make some 
very difficult decisions to do that.
    We cut our workforce by 25 percent, we negotiated 
significant pay decreases and benefit concessions for the first 
time in history with our labor unions and our employees, we 
made critical adjustments with our uniformed employees through 
binding arbitration agreements, the first time the city had 
ever won those, we cut over 25 percent our outside contracts, 
we had to make the painful decisions to close fire stations and 
police stations.
    While the state continues to carry over tremendous deficits 
in the billions we have balanced our budget in the City of 
Detroit. As a matter of fact, Standard & Poor's just recently 
about two weeks ago upgraded our bond rating, and we have 
started to move forward. We have developed over 75 buildings, 
large and small, in downtown Detroit.
    The last hotel to be built in our city, a named hotel, was 
1989, the Atheneum Hotel, before I took office. We have built 
seven new hotels in downtown Detroit including the $180 million 
renovation of the historic Book Cadillac. We have built more 
new housing in our city than ever in the history of our town.
    Our Brownfield Authority has completed 21 projects in 2006 
alone. Last year we broke ground on our east riverfront, which 
now two new high rises of 600 new housing units are going up. 
We have opened employment training centers which have enjoyed 
successful retraining and job placement rates in the 
hospitality industry, construction industry and the healthcare 
industry.
    We have also gotten a few of our regional businesses to 
move downtown with their headquarters. Quicken Loans was the 
last one which is moving 4,000 plus jobs to downtown Detroit. 
We have also received a number of accolades from Major League 
Baseball for hosting what they call the most successful major 
league all star baseball game ever in 2005 and from the NFL for 
hosting the Superbowl in 2006, and we recently snagged from the 
NCAA the Final Four for next year.
    Of course, everyone is invited. These achievements are the 
product of focus, a development commitment, and a strategic 
plan and teamwork for implementation. The State of Michigan has 
experienced the longest economic downturn in the history of our 
state. The economy hasn't been this bad in our state since the 
Great Depression.
    I have not seen the state develop or employ the same type 
of aggressive strategy to address its own financial 
difficulties, which unfortunately leads us to this moment in 
time today. We are pitting Port Huron, against Romulus, against 
Detroit.
    Three cities that have suffered in this horrible economy 
are now fighting each other over this knee jerk reaction to an 
economic solution in putting two casinos in two places that 
would take away from the other. A very prominent economic 
driver of these accomplishments has been our casinos. As I have 
said before, I have worked with Chairman Payment.
    Chairman Payment is a majority owner, his tribe is, of 
Greektown Casino in the City of Detroit. All the studies can 
say what they want, but he knows his bottom line right now is 
suffering. He is losing money right now. MGM committed to the 
City of Detroit and built an $833 million casino, gaming, 
entertainment resort complex in our city.
    Since that building has been open he has lost revenue. 
Motor City has lost revenue. There aren't new gamers coming 
into the City of Detroit. These are the same people now that 
are choosing to go to MGM and not go to Greektown. Another 
casino in this mix will only hurt the total vitality of all the 
casinos.
    Windsor Casino, as it was mentioned, in Canada is right 
across the water. Before we built our casinos they were making 
about half a billion dollars a year. Now, they are struggling 
and trying to figure out how to stay open. We don't have the 
market for another casino. These casinos will take 
substantially away from the City of Detroit.
    We had a statewide ballot initiative, which was mentioned 
here several times, in 1996 where we in the legislature wrote 
what would happen with these casinos. We wrote in the statewide 
percentage, the City of Detroit percentages. The city has 
received over $1 billion to date in wagering taxes from our 
casinos, over $100 million for municipal service fees that we 
put inside the contract.
    The state has received over $1.5 billion, and that does not 
include other investment. The MGM Casino Hotel was the largest 
construction project in Michigan when it was going on, and 
probably still is the largest construction project in Michigan 
that we can figure out ever. Also, the $400 million 
construction project of the Motor City Casino and Hotel as well 
as what Mr. Payment and the Sault Tribe along with their 
partners are doing in Greektown and downtown Detroit.
    Together, they employ over 7,500 people in the City of 
Detroit, but not just Detroiters. The people that work at the 
Detroit casinos live in Port Huron, they live in Romulus, they 
live in Oakland County and they live around the region. It is 
not a Detroit thing, it is a regional thing. They purchase 
goods.
    Companies that do business with our casinos do business, 
and they reside in Romulus, and Port Huron, and Flint and other 
cities. My administration worked hard to seal these permanent 
casino deals. These deals were sitting on the table when I 
walked in the office with no permanent solution in sight, 
lawsuits flying all over the place.
    We went to Las Vegas, put everybody at the same table and 
negotiated an end to the lawsuits and then new, permanent 
casino agreements. Because of those agreements our city now 
receives $470,000 in casino revenues daily. It is the only cash 
that is deposited into the city's account on a daily basis 
every day at 3:00.
    That is about $13.5 million monthly. These revenues from 
the casino are a significant source of our city revenue. Why? 
Because over the course of the same time period the state, 
which is advocating for new casinos today, has taken more than 
$161 million from us in state revenue sharing and other types 
of funding that they used to give to the City of Detroit.
    So as much of the dollars that they have backed out of the 
City of Detroit, we continue to make adjustments, make cuts, 
make transitions, make plans, to continue our city and our 
vibrancy moving forward. Clearly, the revenue from the casino 
listed above is critical to the daily budget and maintenance of 
our city.
    I also want to highlight last a profound study, and I know 
studies, as I close, have been mentioned here before, but this 
one is from the University of Michigan, which is also the Dean 
of the Congress. It is Chairman Dingell, Congressman Dingell. 
This is a quote from the study.
    ``The three Detroit casinos can be viewed as the spearhead 
of growth in the Detroit region's hospitality sector. The 
casinos have grown consistently over the past seven years while 
most of the rest of the state economy has languished. Direct 
employment for the three Detroit casinos is projected to be 
about 10,800 workers by 2009.''
    ``The total number of jobs contributed in Michigan by the 
Detroit casinos is up to 30,000 in 2007. That is 30,000 jobs in 
the region that is facing unparalleled manufacturing job loss. 
The result of this initial study to confirm though that the 
health of Detroit casinos is very important to the overall 
health of the Detroit region and the State of Michigan.''
    These facts presented by the University of Michigan I 
believe speak to what I have been saying here today. These 
revenues assist the city to improve its neighborhoods, 
infrastructure and services provided to its residents. A Map 
Quest of our region shows that Romulus is 20 miles away. MGM 
constructed a casino two miles away from the other two, and 
they are already hurting.
    They are already hurting. To put two more casinos just 20 
miles, or 60 miles away where Port Huron is, will hurt them 
even further. It is not hard to determine that opening 
congressionally mandated off-reservation casinos with short 
distances away from Detroit will significantly inhibit our 
ability to continue to revitalize and invest in the City of 
Detroit.
    Mr. Chair, I will simply say without getting in all of this 
IGRA stuff in closing in 30 seconds that our challenge in 
Detroit is the same as the challenge that has been raised here 
by the tribes. We are not immune from the economic pressures 
that have been going on in this country. I don't believe that 
there is a city, a region or a state in this country that has 
been harder hit or hardest hit like Detroit has.
    If we are saying now that we are going to put one 
impoverished community against one more impoverished community 
and stop the small gains we have made, then that is not sound 
economic policy. I have made this I think argument to the 
Governor. I think that is why the Governor is not here today.
    Because I believe yes, that the Governor wants to figure 
out how she can get eight more percent of revenue out of 
casinos, but when you diminish the total pot it is not more 
revenue to the state at all. I believe there are studies that 
say that, the Casino Committee said it in 1997 and 1998, and I 
believe we are realizing that in Detroit with the emergence of 
these huge, permanent facilities.
    We see that there are winners and losers even in that. Two 
more casinos would take jobs away, it will crush our city and 
state budget and will be very detrimental to the citizens of 
the City of Detroit. Thank you, Mr. Chair, for the opportunity 
to be here.
    [The prepared statement of Mr. Kilpatrick follows:]

             Statement of The Honorable Kwame Kilpatrick, 
                    Mayor, City of Detroit, Michigan

    Chairman Rahall, Ranking Member Young and other distinguished 
members of the Resources Committee, I am Kwame Kilpatrick, the Mayor of 
Detroit, Michigan. Detroit is a great American city of industry that 
also has a rich cultural, educational, sports and entertainment 
heritage. We are a City of communities and hard working families that 
collectively have withstood tremendous economic challenges, and yet our 
city is experiencing a revolutionary transformation of its downtown and 
neighborhoods. Thank you for convening this important hearing on H.R. 
2176 and H.R. 4115. These legislative proposals address the settlement 
of certain land claims of the Bay Hills Indian Community and of the 
Sault Ste. Marie Tribe of Chippewa Indians and have very significant 
implications for Detroit and an important component of our community's 
revitalization strategy. Essentially the two bills would authorize and 
permit these tribes to open and operate casino gaming facilities in 
close proximity to casinos that are located in the City of Detroit--far 
away from their tribal lands in the Upper Peninsula of Michigan. As 
further discussed herein, the two legislative proposals will be very 
detrimental to the City and for that reason, the City of Detroit, the 
Detroit City Council and numerous Detroit elected officials and 
community leaders strongly oppose their enactment.
    Mr. Chairman, the position that I must strongly advocate for today 
is unfortunately at odds with some of my friends from the Michigan 
Congressional Delegation. However, it is imperative that I speak on 
behalf of the future health and vitality of the Next Detroit, and how 
these bills before the committee today may severely harm this positive 
trend. Also, I ask you to take note that there are other key leaders of 
Michigan's congressional delegation who share the concerns of Detroit 
in this matter.
    Mr. Chairman, while I believe that there are significant issues 
pertaining to Indian land claims settlement policy and to the Indian 
Gaming Regulatory Act (IGRA) involved in the proceedings today, my 
testimony does not focus on these matters. Rather I would like to share 
with you critical information regarding the revitalization occurring in 
our community and how we believe sanctioning the construction and 
operation of additional casino operations outside of the City will 
establish a dangerous precedent greatly and negatively impacting the 
progress being achieved.
    First of all, I want to give you some insights into recent progress 
my Administration, business and civic leaders and Detroit citizens have 
made to improve the quality of life in our city. There is real optimism 
about the future of our city. There are signs of growth and recovery 
throughout Detroit. We have developed more than 75 buildings downtown 
large and small. We have built seven new hotels, including the deal for 
the $180 million renovation of the historic Book-Cadillac hotel. This 
historic facility will house a four star Westin hotel with 455 rooms 
and have 67 condos on its upper floors, with at least two of them going 
for more that $1 million. Imagine that--people paying over a million 
dollars to own a condo in downtown Detroit. In addition, a development 
team has bought the air rights of the parking deck being built next to 
the Book. They are going to build 80 upscale condominiums on top of 
that garage. The whole concept of buying air rights is common in cities 
like New York and Chicago, but it has never been heard of in Detroit 
until now. We have several new housing projects in motion including an 
88 acre development on the east side providing 300 new single family 
homes to our City's residents. Our Detroit Brownfield Development 
Authority completed 21 projects in 2006 alone, mostly in neighborhoods. 
Last year we broke ground on the east riverfront on two developments 
that will create 600 new housing units along with retail and 
restaurants. We have built 3 new recreation centers in neighborhoods 
that had not seen rec centers in 20 years. We have instituted historic 
property tax cuts in neighborhoods. We have opened two new employment 
training centers, which have enjoyed successful retraining and job 
placement rates. We have enticed major regional employers to move their 
headquarters downtown, most recently Quicken Loans, the nation's 
largest online mortgage lender with its 4,000 jobs. We received 
national recognition for our success hosting the Major League Baseball 
All Star Game in 2005 and the Superbowl in 2006. We have built two new 
sports stadiums downtown and many sports pundits tag our Detroit Tigers 
as the team to beat in 2008.
    These dramatic improvements to the City of Detroit are not just 
happenstance. A very prominent economic driver to these accomplishments 
has been the establishment of three casinos within the City's 
boundaries. These three casinos, approved by a statewide ballot 
initiative in 1996, have provided over $1 billion to date in wagering 
taxes and percentage payments, and the city received another $100 
million in Municipal Service fees. That does not include investments 
held with in the City's limit to construct the new casinos. For 
instance, the $800 million MGM Grand Detroit Casino & Hotel was one of 
the largest construction projects in the State of Michigan when it was 
being built. The $400 million MotorCity Casino & Hotel preserved a 
major Detroit landmark by expanding on its current site to provide a 
uniquely Detroit experience. These three casinos in Detroit employ over 
7,100 hardworking Detroit residents all of whom pay taxes, purchases 
goods, make rent and mortgage payments and contribute to the overall 
economic and social well being of our city.
    My administration worked hard to seal the permanent casino deals 
for the city. Included in the deal, the city receives a lump sum of $4 
million when a casino obtains $400 million in adjusted gross receipts; 
in addition, the city receives another 1% payment during this period. 
The city also receives 1.25% of adjusted gross receipts for municipal 
services supplied to the casinos. As an example of the impact this 
funding has, the city currently receives approximately $470,000 in 
casino revenues daily or approximately $13,500,000 monthly. These 
revenues from the casinos are a significant source for the city. For 
instance, collected casino revenues nearly cover the fire services for 
the entire city of Detroit, and approximately one-half of what the City 
expends for police services.
    Over this time period, revenues from income taxes decreased over 
$100 million annually (from a high of $378 million in FY1999-2000 to 
$277 million in FY2006-07). In addition, annual cuts to State Revenue 
Sharing to the City amounted to $61 million annually (from $333.9 
million to $272.7 million). Clearly, the revenue from casinos listed 
above is critical to the daily budget and maintenance of the City.
    I also want to highlight some very profound findings from a 
recently released report from the University of Michigan, which I would 
like to submit in its entirety for the record. And I quote:
    <bullet>  the three Detroit casinos can be viewed as the spearhead 
of growth in the Detroit region's hospitality sector. The casinos have 
grown consistently over the past seven years while most of the rest of 
the state economy has languished.
    <bullet>  the three casinos combined to contribute close to $450 
million in direct taxes, fees and assessments to the state and local 
government treasuries in 2007, while at the same time paying out over 
$200 million in wages to their employees and investing almost $650 
million in construction projects. These construction projects include 
some of the historic development initiatives I just mentioned.
    <bullet>  direct employment for the three Detroit casinos is 
projected to grow to 10,800 workers in 2009 and ``the total number of 
jobs contributed in Michigan by the Detroit casinos up to 30,000 in 
2007.'' That is 30,000 jobs in a region that is facing unparalleled 
manufacturing job losses.
    <bullet>  The results of this initial study do confirm, though, 
that the health of the Detroit casinos is very important to the overall 
health of the Detroit region, and to the state of Michigan.
    These facts presented by the renowned independent views of the 
University of Michigan directly point to the fact that the City of 
Detroit's three casinos are a significant driver in the generation of 
the Next Detroit. These revenues assist the City to improve its 
neighborhoods, infrastructure and services provided to its residents. A 
Mapquest of the region shows that Romulus is just 20 miles away from 
the City and Port Huron is a mere 60. It is not hard to determine that 
opening congressional mandated off-reservation casinos within such a 
short distance from the City of Detroit would significantly inhibit our 
ability to continue to revitalize and invest in our city.
    The second part of my statement is to address the unprecedented 
approach these pieces of legislation take on establishing casinos. As 
many of you know, the three casinos currently operating in Detroit were 
approved by a majority of Michigan voters in 1996 by ballot initiative. 
Again, these were not just Detroit voters, they were Michigan voters 
from across the state who voted in a state wide election to establish 
three casinos within the City's boundaries. The City took this mandate 
very seriously and worked very hard to select the casino developers, 
establish a meaningful partnership between the casinos and the City, 
participated in the site selection and proved the critical design 
elements of the casinos and assured itself of their financial 
integrity. In my very strong view, we brought these casinos to the City 
of Detroit in a straightforward, lawful and deliberate manor.
    H.R. 2176 and H.R. 4115 seek to circumvent the proceedings long set 
by the Indian Regulatory Gaming Act established in 1988. In fact, these 
specific land claims have been denied at various levels of the judicial 
system, most recently the U.S. Supreme Court. They set an unprecedented 
congressional mandate for casinos. I want to stress that Congress has 
never mandated a casino placement in U.S. history. In fact, a cofounder 
of the Native American Caucus stated before this Committee in 2004 that 
the ``unintended consequences will be to set dangerous precedents that 
would cease to undermine the IRGA and would promote bad public policy 
regarding Indian Land Claims Settlements.''
    In closing, clearly, this legislation would severely harm our 
City's ability to rebuild and revitalize. We have made great strides 
and will continue to do so. The investments and the revenues from our 
three hard fought after casinos are paramount to these efforts. 
However, as a former state legislator and majority leader of the 
Michigan House of Representatives, I caution you against creating 
unprecedented congressionally mandated casinos by enacting these pieces 
of legislation. By doing so, I fear you will be endorsing an infinite 
number of land claims that will inevitably come before your Committee 
in years to come.
    Thank you for your attention on this important issue.
    NOTE: The attachment, ``The Contributions of the Detroit Casinos to 
the Economy of Michigan'' submitted to MGM Grand Detroit submitted by 
George A. Fulton and Donald R. Grimes, Institute of Labor and 
Industrial Relations, University of Michigan, January 2008, has been 
retained in the Committee's official files.
                                 ______
                                 
    The Chairman. Thank you, Mr. Mayor. I know you have to run. 
I am going to yield my time to the gentleman from Michigan, Mr. 
Kildee.
    Mr. Kildee. Well, I just want to thank the Mayor for his 
presence here today. I have great affection for Detroit. I went 
to college in Detroit, taught high school at University of 
Detroit High School there. You said you were able to avoid 
receivership. That is a real blessing. Flint went into 
receivership.
    As a matter of fact, Mr. Conroy come in with the new mayor 
and pulled us out of receivership, which is a great 
achievement. I commend you for what you are doing, and I 
appreciate your testimony. I won't keep you because I know the 
weather between here and Detroit. I fly that about every week. 
So take care. God bless you.
    Mr. Kilpatrick. God bless you, Congressman. Thank you.
    The Chairman. Gentlelady from Virgin Islands.
    Ms. Christensen. Yes. Thank you, Mr. Mayor. I know you are 
getting ready to leave, but I think Chairman Dingell referred 
to this Hillsdale policy group analysis that said that with the 
new casino in Romulus or Port Huron any affect on existing 
Detroit casinos would be de minimis.
    Then on the other hand, some claim that as the largest 
community in Wayne County, City of Detroit would benefit from 
the bills with new and good job opportunities. Your Governor is 
saying that with the revenue that the state will get Detroit 
will benefit. How do you respond to those?
    Mr. Kilpatrick. Well, to try to respond to that entire 
question, Congresswoman, first, the State of Michigan has been 
continuously because of the economic pressures--I understand 
the pressure that the Governor has, it has to be amazing--
rolling back any type of additional dollars for the City of 
Detroit or any city in Michigan.
    It is not just us. It is Flint, it is Grand Rapids and it 
is everyone else. I don't see a day when they get enough money 
into the coffers because of two casinos to be able to help us 
out. I don't believe anybody in the municipal league would be 
able to believe that or anyone else. This is no disrespect to 
the tribe or anyone else because I have worked with these guys 
before, but the tribe alone is not in this deal.
    There are other partners in this deal. As a matter of fact, 
when you see who is in front of the Port Huron deal you usually 
don't hear Bay Mills, you hear local developers and people who 
are trying to build these casinos. In their own numbers--in 
their own numbers--they talk about what the hit will be to the 
City of Detroit.
    A couple of them came to meet with me and said it will be 
as low as nine percent or as high as 20. Now, if it is as low 
as nine percent, nine percent of the $180 million we get, $18 
million, that is 300 police officers. I mean, so it is not a 
small thing. If you take the high end of 20 percent or 30 
percent, it is $72 million.
    So we are talking about major numbers that are significant 
in providing for our city's services, maintenance and 
infrastructure, and that is just one casino. When you talk 
about Romulus, I think everybody sitting in here would agree 
that is going to be a large take from our casinos. When 
Greektown Casino and Mr. Payment do an analysis of their 
customer base they know where they come from.
    They come mostly from down river in Wayne County, which is 
where this casino is being proposed to be put, or it comes from 
Macomb County, which is the other way which is where Port Huron 
is. They are very smart. They are amazingly gifted and smart, 
they have been in this industry for several years, they have 
done the studies, and this will be a substantial taking of our 
market share in Detroit.
    The reason that we get Superbowls, Final Fours, why we get 
All Star games is because we have been able to create a 
critical mass. So last, Congresswoman, to your last question, 
this will impact in another way because this policy has been 
tried before. This is the 50 year ago policy for southeastern 
Michigan.
    Let us forget about Detroit, and let us start building 
around Detroit and create things outside and maybe that will 
help Detroit. Unless you develop the core community you will 
never have the economic vibrancy that a city, or a region, or a 
state should. So I believe that the Governor's letter was a 
reaction from some bad information.
    I wish I would have had a chance to bring her other studies 
that talked about the total number of gamblers, where they come 
from, gambling trends. We don't have destination casinos. 
People are not coming from Vegas and Atlantic City or anywhere 
to our casinos. These are local casinos that are very nice.
    So when one wins, we all win. If you start to take away and 
ebb that market share, then we all will lose.
    Ms. Christensen. Thank you. Thank you for that answer.
    The Chairman. Thank you, Mr. Mayor, for your very 
knowledgeable testimony. On a personal note, before you leave 
let me just say although we may not see this issue in the same 
light, your mother and I see a lot more issues in the same 
light than we do not see in this Congress.
    I wanted to tell you what a great job she does and the high 
esteem and respect that she is held by every member of this 
Congress of the United States. So I am going to give mother a 
chance now to say goodbye to son.
    Ms. Kilpatrick of Michigan. Go back to work. Get your job.
    Mr. Kilpatrick. Mr. Chair, she told me about you in our 
briefing and told me how great you were. She told me not to 
think about today.
    Ms. Kilpatrick of Michigan. Thank you, Mr. Chairman. No 
comment. There is an ice storm. The Mayor has to get back. 
Brilliant, as always, son. Do your job.
    Mr. Kilpatrick. Thank you, Mr. Chair, Ms. Kilpatrick.
    The Chairman. Thank you, Mr. Mayor.
    Our next witness is The Honorable Fred Cantu, the Chief of 
the Saginaw Chippewa Indian Tribe, Mt. Pleasant, Michigan. We 
welcome you to the Committee.

         STATEMENT OF THE HONORABLE FRED CANTU, CHIEF, 
     SAGINAW CHIPPEWA INDIAN TRIBE, MT. PLEASANT, MICHIGAN

    Mr. Cantu. Thank you, Mr. Chairman. Thank you for allowing 
my tribe to testify. My name is Fred Cantu. I am the Chief of 
the Saginaw Chippewa Indian Tribe. Let me start my testimony 
just by stating a few facts for the record. The lands on which 
these two tribes seek to build their casinos are in the 
ancestral lands of the Saginaw Chippewa Indian Tribe.
    Our tribe ceded these lands by treaties to the U.S. 
Government. Neither the Sault Tribe nor the Bay Mills Tribe has 
any ancestral connections or claims to these lands. The Indians 
Claims Commission has ruled on this on two separate occasions. 
IGRA wasn't intended to allow tribes to establish casinos 350 
miles from their reservations, much less on ancestral lands of 
another tribe.
    We believe this is a dangerous precedent and would 
undermine gaming for all tribes. We also believe that these 
bills undermine the Michigan Gaming Compact which states that 
no tribe can conduct off-reservation gaming without a revenue 
agreement from the other tribes. Very simply, this is a blatant 
attempt by these two tribes to evade their obligation under the 
compact.
    These bills would have Congress ratify a tribal state 
compact for the first time in history which circumvents the 
authority of the Michigan legislature. I think we all agree 
that these bills have absolutely nothing to do with the 
settlement of a valid land claim. These bills certainly have 
nothing to do with settling lawsuits with victimized land 
owners.
    According to the Sault Tribe, these bills are premised on 
nothing more than a scam, a scam perpetrated by a wealthy non-
Indian developer and two tribes willing to go along for the 
ride. These may sound like harsh words, but these are not mine. 
These are the words of a former Chairman of the Sault Tribe in 
testimony before the Senate Committee of Indian Affairs in 
2002.
    You see, the Sault Tribe was against these casinos before 
they were for them. According to the Sault Tribe, the Bay Mills 
case was a scam from the start. The Charlotte Beach scam did 
not originate with Bay Mills but was conceived by a Detroit 
area attorney who developed it specifically as a vehicle to 
obtain an IGRA casino and marketed it both to the Sault Tribe 
and Bay Mills Tribe looking for a willing partner.
    This attorney first approached the Sault Tribe who rejected 
him. He then took it to the Bay Mills Tribe who accepted their 
proposal. According to the Sault Tribe, the Federal case had 
the air of a collusive lawsuit. The Federal complaint was filed 
in October of 1996. Less than one week before the suit was 
filed Mr. James Hadley purchased land within the Charlotte 
Beach area.
    A few months later, Mr. Hadley, representing himself, 
entered into a settlement with the Bay Mills Tribe. As 
explained by the Bay Mills Tribe, Mr. Hadley just happened to 
own some land in Auburn Hills, the city in which Bay Mills 
originally wanted to build the casino.
    Mr. Hadley agreed to give the Auburn Hills land to the 
tribe to clear title to the Charlotte Beach land he had just 
bought just weeks before the lawsuit was filed. All of this was 
contingent upon the Secretary of Interior taking the land into 
trust to build the casino. The Department never took the land 
into trust.
    What makes this scam even more interesting is the fact that 
Mr. Hadley passed away. His estate deeded the Charlotte Beach 
property to a Mr. Michael J. Malik and his gaming business 
partner. This raises the question of whether Mr. Malik had an 
interest in the land deal from the get go. If so, did he try to 
disguise his ownership in the land deal?
    This begs the question that was raised by the Sault Tribe 
whether this collusive lawsuit was a scam, a set up in order to 
make this land claim seem legitimate. As stated by the Sault 
Tribe, Mr. Hadley was clearly not an agreed land owner. He was 
a willing and active participant in this scam.
    That is why today we are asking the U.S. Department of 
Interior to investigate this matter and to request the 
Committee to refrain from taking any action until such 
investigation is complete. I would like to enter into the 
records the deeds that show Mr. Malik received these lands from 
Mr. Hadley's estate.
    Today, Mr. Malik is the lead developer with the Bay Mills 
Tribe to build the casino in Port Huron. If this land claim was 
so legitimate why does it appear that Bay Mills and their 
developer colluded to hide their identity in these 
transactions? We believe the answer is clear. They didn't want 
anybody to know this was a scam from the outset.
    Since that time, Bay Mills and their developers have 
pursued other cities in Michigan to build their off-reservation 
casino. First, Auburn Hills, then Vanderbilt, now Port Huron. 
The Sault Tribe also shopped their deals in several cities as 
well. These two tribes have most certainly put shopping in 
reservation shopping.
    As the Sault Tribe said, Bay Mills made up the claim, 
entered into a suspicious settlement and collusive lawsuit and 
now seeks to put one over on Congress. The Sault Tribe then 
asked the alternate question. Why is this bill before Congress 
given the shady dealings surrounding this so-called land claim?
    Only one fact has changed since the Sault Tribe's testimony 
in 2002, and that is the fact that the Sault Tribe has now been 
promised a casino. Everything the Sault Chairman stated about 
six years ago still holds true today. IGRA was meant to promote 
economic development on Indian reservations, not to reward 
tribes who scheme with non-Indian developers.
    This is the only committee in the House with jurisdiction 
over tribal gaming, and it needs to act in the interest of all 
tribes. While these bills may be good for two tribes and their 
non-Indian developers, it is simply bad policy for Indian 
country. I hope this committee does the right thing and rejects 
these bills. Again, thank you for allowing me to testify.
    [The prepared statement of Mr. Cantu follows:]

   Statement of Chief Fred Cantu, Saginaw Chippewa Tribe of Michigan

    Mr. Chairman, Members of the Committee, my name is Fred Cantu and I 
am the Chief of the Saginaw Chippewa Indian Tribe. I appreciate the 
opportunity to testify today against H.R. 2176 and H.R. 4115, two bills 
that will undermine the Indian Gaming Regulatory Act, cause great harm 
to our tribal specifically, and set a negative precedent for Indian 
Tribes across the country.
    Mr. Chairman the two bills before the committee would allow the Bay 
Mills Tribe and the Sault Ste. Marie Tribe to build two casinos, each 
350 miles from its reservation, in the historic and aboriginal 
territory of my Tribe, the Saginaw Chippewa Indian Tribe of Michigan.
    It is important to understand both Indian gaming history and the 
treaty history of the Michigan Indian Tribes to truly grasp the effect 
of these two bills.
    Between 1795 and 1864 the United States negotiated several treaties 
with the Michigan Indian Tribes. Beginning in 1795, a group of my 
ancestors, who descend from the Saginaw, Swan Creek and Black River 
Chippewa Bands, began negotiating and entering into treaties with the 
United States of America. They signed these treaties on their own, or 
with a group of Ottawas and Potawatonis, whose lands were located 
adjacent to our lands in southeast Michigan. On November 17, 1807, the 
Treaty of Detroit (7 Stat. 105), a land cession treaty, was signed by 
the group of Chippewas, Ottawas and Potawatomis and ceded most of the 
lands in southeastern Michigan, including the lands surrounding the 
Port Huron area, to the United States. However, this treaty 
specifically reserved the area of Port Huron, along with three other 
areas to the Chippewa. These areas were later ceded to the United 
States by the Treaty of May 9, 1836 (7 Stat. 503).
    These are the lands that my ancestors hunted and fished for 
hundreds of years. It is the land my ancestors sold to the United 
States government nearly 200 hundred years ago. And these are the lands 
that Bay Mills and Sault Ste. Marie Tribes want to build casinos 
despite the fact that their reservations are several hundred miles away 
in the Upper Peninsula. That is why my Tribe and so many other tribes 
oppose these bills.
    In 1986, Congress passed the Saginaw Chippewa Indian Tribe of 
Michigan Distribution of Judgment Funds Act (``Saginaw Judgment Funds 
Act''), for claims in southeast Michigan, including the lands in Pt. 
Huron and Romulus, to provide compensation for claims the Saginaw 
Chippewa Tribe made and won before the Indian Claims Commission. The 
Bay Mills and Sault Ste. Marie Tribes were not participants in the 
settlements legislation, even thought they attempted to claim these 
lands before the Indian Claims Commission. This is because the Indian 
Claims Commission found their claims to be totally without any 
supporting evidence and threw them out (a copy of the Indian Claims 
Commission decision is attached to this testimony). This is because the 
Bay Mills and Sault Ste. Marie tribes were not signatories to the 1795 
Treaty of Greenville, the 1807 Treaty of Detroit, nor the Treaty of 
1819, which ceded the area to the United States. The Saginaw Judgment 
Funds Act clearly defines the Saginaw Tribes Settlement Area (the basis 
for the ICC claim) lands in southeast Michigan, including Port Huron 
and Romulus.
    In 1997, Congress approved the Michigan Indian Land Claims 
Settlement Act, an $80 million dollar plus settlement for five Michigan 
Tribes, including the Bay Mills and Sault Ste. Marie Tribe for claims 
in the northern and western portion of the Lower Peninsula and the 
Eastern Upper Peninsula., based on treaties that were signed in 1836 
and 1855. The Saginaw Chippewa Tribe was not, and did not seek to be, a 
part of that settlement agreement because the lands that were the 
subject of the legislation are not the ancestral lands of the Saginaw 
Chippewa.
    Both settlement agreements were very clear on the ancestral and 
historical lands of each Tribe. In the case of the Saginaw Chippewa, 
the Indian Claims Commission specifically rejected claims by the Bay 
Mills and Sault Ste Marie Tribes, in two successive cases dealing with 
areas in southern Michigan, including the area surrounding Port Huron, 
stating that there was no evidence to support their assertions. (the 
decisions are attached) Based on the Saginaw Chippewa Indian Tribe of 
Michigan Distribution of Judgment Funds Act and the Michigan Indian 
Land Claims Settlement Act, the Saginaw Chippewa ancestral territory 
encompassed central and southeastern Michigan and the Bay Mills and 
Sault Tribe ancestral territory was located in the northwestern portion 
of lower Michigan and the Upper Peninsula.
    The Saginaw Tribe does not believe that the land claims exception 
to the Indian Gaming Regulatory Act was meant to allow tribes to assert 
land claims in one area in exchange for lands and casinos hundreds of 
miles away from the area where the land claim occurs. This view is also 
shared by the founders of the Congressional Native American Caucus and 
they have shared those views with the committee in previous years.
    The Indian Gaming Regulatory Act, 25 U.S.C. Sec. 2719, identifies 
which lands can be used for Indian Gaming, and is divided into two 
sections. The first identifies that tribes may game on Indian lands and 
reservation lands prior to October 17, 1988, the date IGRA was enacted. 
The second section deals with exceptions to that limitation. The 
exceptions are also divided into two categories: 1) Off-reservation 
acquisition, and 2) Acquisitions which place tribes who might not 
otherwise be allowed to game because they did not have lands in 1998 on 
an equal footing with tribes who did have land.
    The off-reservation section, 25 U.S.C. Sec. 2719(b)(1)(A) is very 
clear in its requirements. A tribe who chooses to game outside of its 
reservation, may do so if it satisfies two requirements. First, the 
Tribe must make a showing to, and the Secretary of the Interior must 
find, that the off-reservation proposal is in the best interest of the 
Tribe and is not detrimental to the surrounding community. Second, the 
Governor must concur with the Secretary's determination. The law 
doesn't pose any limitations on the distance a tribe may go from its 
reservation or whether it is even limited to stay within a specific 
state. As long as they satisfy those two requirements, they could 
potentially game anywhere in the United States.
    The second set of exceptions are different, located 25 U.S.C. 
Sec. 2719 (b)(1)(B)(i)-(iii), and relate to righting past wrongs for 
tribes who may not otherwise be able to game. These exceptions tie the 
land on which the tribe can game to the historical territory of the 
Tribe. These exceptions allow tribes to game on lands acquired after 
1988 when a tribe is recognized when they establish their reservation, 
allow a tribe that has been restored to Federal recognition to acquire 
lands on which to game, and also allows a tribe to acquire lands in 
settlement of a land claim. In every case the Department of Interior 
reviews where a tribe is seeking to use one of these exceptions to 
acquire land for gaming, they seek to assess whether the tribe in 
question has historical and cultural ties to the land in question. With 
regard to restored lands and initial reservations, the Department has 
developed rigorous tests for determining whether a tribe is within its 
aboriginal and historic territory. With regard to the land claims 
exception, there has only been one time a tribe has used this exception 
to acquire land for gaming. In that case, the land at issue was within 
the tribe's land claim area and was confirmed as such by the Department 
of Interior. We believe this is what Congress truly intended, that a 
tribe using this exception would acquire lands in or near the land 
claim area for gaming, when they created the land claims exception.
    That is not only our view, but as we mentioned earlier, it is the 
view of the founders of the Native American Caucus who has expressed 
the same view in letters to the Committee.
    Mr. Chairman, if the Congress passes this legislation, every tribe 
in the United States with a potential land claim could petition 
Congress to settle the claim, and allow them build a casino anywhere in 
the United States where gaming is viable. The Saginaw Tribe does not 
believe Congress should endorse such tactics because they are contrary 
to the intent of the Indian Gaming Regulatory Act.
    The passage of this legislation will encourage tribes to create or 
exploit a land claim by seeking to replace lost lands with lands in 
profitable gaming markets, without regard to whether they are entering 
into the territory of other another tribe. This was never the intent of 
the Indian Gaming Regulatory Act.
    In addition, in 1993 the Governor of Michigan signed a gaming 
compact with seven federally-recognized Tribes in Michigan, including 
the Bay Mills Tribe, the Sault Ste. Marie Tribe and the Saginaw 
Chippewa Tribe. Section 9 of that compact stated that no tribe could 
conduct off-reservation gaming unless all the tribes agreed to a 
revenue sharing plan. This provision has worked well to prevent the 
proliferation of off-reservation gaming in the state.
    Unfortunately, today we find the Bay Mills and Sault Ste. Marie 
Tribes trying to circumvent this compact provision by coming to 
Congress to settle a land claim that has never been validated. In fact, 
the Bay Mills Tribe has lost this land claim in both federal and state 
courts on both the merits and on procedural grounds. The Bay Mills 
Tribe lost in federal court because the court ruled that the Sault Ste. 
Marie Tribe was an ``indispensable party'' to the lawsuit since they 
both were the same Tribe at one point and had the same claim to 
Charlotte Beach if one was ever proven. In the state court, the Bay 
Mills Tribe lost on the merits and it was eventually denied hearing by 
the U.S. Supreme Court. At this time, no valid land claim has ever been 
proven in these cases. Not one.
    Moreover, these bills would have Congress for the first time pass a 
gaming compact in federal legislation. Under IGRA, the states and 
tribes negotiate compacts and in the state of Michigan, these compacts 
are approved by the Michigan State Legislature. Under these two bills, 
gaming compacts would be approved after being negotiated by the 
Governor but not having been approved by the Michigan State 
Legislature. This would be unprecedented and undermine the authority of 
the Michigan Legislature and the spirit of the Indian Gaming Regulatory 
Act.
    These bills are highly controversial within the State of Michigan. 
Numerous legislators within the state are opposed to the bills, and 
they have sent you correspondence to confirm that fact. The City of 
Detroit is opposed to this legislation and they have sent you a letter 
to state their position. Numerous Members of the Michigan delegation 
are opposed to this legislation.
    These bills are opposed by tribes across the country. The tribes 
that oppose these bills recognize the dangerous precedent these bills 
would set for Indian Country. In addition, the practice of one tribe 
going into the historic and aboriginal territory--treaty territories--
is so roundly rejected in Indian Country that the National Congress of 
American Indians and the National Indian Gaming Association have issued 
a joint resolution urging tribes not to conduct themselves in this 
manner.
    Not only are these bills controversial, they are bad policy.
    On behalf of the Saginaw Chippewa Indian Tribe of Michigan, I ask 
the Committee to reject these bills and stop every effort to get them 
enacted into law.

[GRAPHIC] [TIFF OMITTED] T0622.009

[GRAPHIC] [TIFF OMITTED] T0622.010

                                 ______
                                 
    The Chairman. Thank you.
    Mr. Conroy.

     STATEMENT OF MR. JOE CONROY, DIRECTOR OF GOVERNMENTAL 
              OPERATIONS, CITY OF FLINT, MICHIGAN

    Mr. Conroy. Thank you very much, Mr. Chairman. I appreciate 
the opportunity of being here. I felt a little bit like that 
guy named Huckabee. In the debate a week or two ago he says 
hey, I am here, too. So all I would like to have you know is 
that we are not only here, that is, Flint is here, but I think 
we have the resolve to the matter of only being 20 miles from 
downtown Detroit because we are 75 miles from downtown Detroit, 
and we are about another 75 miles from the next nearest casino.
    So we are quite a ways away from any competition if that is 
what people are worried about. I thought being in business that 
competition was good. Let me give you a little background on 
the City of Flint. We are a city that was at risk, is at risk. 
As Congressman Kildee indicated, we were under governance by an 
appointee, a financial manager, of the Governor of the state 
for two years.
    Mayor Williamson was elected and seven or eight months 
later the Governor allowed him to take over that city. I think 
it was about eight months into his term. Since then, we have 
balanced the budget each year, we have had a surplus at the end 
of each year. In addition to that, and keep in mind, we are a 
community that at one time had 85,000 General Motors jobs.
    I was in the legislature at the time because I remember 
that number. We now have about 8,000 General Motors jobs. So 
they are going, going, gone, is pretty much the idea with that 
company, so we have to do something else. You know, 30 years 
ago we wouldn't be thinking about casinos as a part of our 
total economic package, but today we have to fight for every 
job.
    If somebody comes in our door and has 12 jobs we are going 
to work really hard to make that company successful. We have a 
lot to offer. We have probably the best cultural center. 
Certainly it is better than anything in Michigan and probably 
anywhere in the Midwest. We have a cultural center that rivals 
the three or four million populated cities.
    It is just a fabulous center that we have. So we have 
positive. We have four universities, higher education 
facilities, in our city. We are building on that, we are 
building on education, but we have to also build on service. 
General Motors is buying out people who are being paid $28 an 
hour plus fringe benefits, and they are willing to pay $12 to 
$14 an hour for the new ones that they replace.
    So we have a whole new kind of war going on, an economic 
war if you will, even among the jobs that are left. So the City 
of Flint has tried to do a good job. We have tried to set the 
plate. As I tell the mayor, he is setting the plate for 
economic development.
    He has paved over 200 lane miles of streets each of the 
last three years, which is more than any city in America. He 
has demolished more boarded up, unsafe houses, two to seven 
houses a day--these are done primarily by city employees--and 
we still have a long list to go. So we are trying to clean up 
the mess that he inherited, and we are trying to make certain 
that our city survives.
    Now, please, with 20 casinos, and I say 20, in our State of 
Michigan, is one more or two more going to just kill the golden 
egg? I think not. There are 17 Indian casinos and three that 
are not Indian owned. Those numbers are pretty close. I may be 
one off. I remember when I was in the Senate there were 17, so 
that was 10 years ago.
    We are doing the best we can. We just need any kind of help 
we can get, and we need an opportunity to be able to talk to 
the Indian leadership people to see if indeed I-75, U.S. 23 and 
I-69 all meet. We have probably three million people within a 
60, 70 mile radius. I told the mayor as he left that I have a 
cure to his problem.
    That instead of going just to 20 miles west he could go 75 
miles north, and Flint would be very happy with all that. So 
keep up the good work, Committee, do a good job, get this bill 
out, let us see the light of day on it and let all of us see if 
we can be a part of the future. Thank you.
    [The prepared statement of Mr. Conroy follows:]

     Statement of Joe Conroy, Director of Governmental Operations, 
                        City of Flint, Michigan

    Dear Chairman and Members of the Committee on Natural Resources:
    My name is Joe Conroy and I am the Director of Governmental 
Operations for the city of Flint, Michigan. My proposed testimony will 
be on H.R. 2176 (Stupak) and H.R. 4115 (Dingell). The testimony 
addresses benefits a casino can have on Flint's depressed economy.
Flint, MI--Populaton 117,068
    Once known as a booming center of automobile manufacturing, with as 
many as 14 General Motors related auto plants, the city of Flint, in 
recent years, has seen its economic base decimated by the loss of 
nearly 85,000 manufacturing jobs since the 1980s, as General Motors' 
closed plants and laid off workers in order to compete in the emerging 
global economy. As a result of the plant closings, the city has 
experienced a decline in population as families migrated to other 
states to seek employment. Flint now has substantial inventory of 
abandoned housing that must be torn down; the continually declining tax 
base provides little resources to rebuild the community's economic 
base. High paying manufacturing jobs are now replaced by lower paying 
jobs in the service industry.
    To date, Flint is continuing to feel the affects of the economic 
woes of the auto industry. In an effort to reduce the work force and 
bring on new workers at reduced hourly rates, General Motors, in June 
2006, offered incentive packages to encourage early retirements of its 
high seniority employees. As a result, GM announced the early 
retirements of 47,600 employees, 3,100 of which were from the Flint 
area.
    The economic woes of the Flint are also being felt by the entire 
state of Michigan. In just the past six years, the state of Michigan 
has lost 30 percent of its manufacturing employment or some 240,000 
jobs. The Flint and southeastern Michigan areas where the majority of 
these auto plants were located, have been hard hit by such job losses. 
The long term economic deterioration experienced by the Flint community 
caused by the loss of these jobs and plant closings, has crippled the 
community in such a manner that it has been hard to recover.
    The state of Michigan has the highest unemployment rate in the 
nation at 7.6 percent while the national average is 4.9 percent. 
Flint's unemployment rate is even higher than the state's at 8.3 
percent. The poverty rate in Flint is at 25.2 percent. Unfortunately, 
Flint is now at a crossroads. These sobering job statistics and the 
city's economic crisis mandates that Flint explores other opportunities 
to help rebuild its economy and guide it to the road to an economic 
renaissance.
    It has long been thought that a casino would be the catalyst to 
bring the Flint economy back to health. The idea of opening casinos 
locally has been one that has been bounced around Flint as far back as 
the early 1990s. In examining the affects of the casino industry in 
nearby Detroit and other Michigan cities, some of the expected benefits 
and possible negatives of a casino in Flint are as follows:
Pros
    <bullet>  Creation of new jobs
    <bullet>  Decrease in the local unemployment rate
    <bullet>  Stimulation of the local economy through the increase in 
local revenue
    <bullet>  Influx of new visitors who more than likely will spend 
money in the area
    <bullet>  Improved public infrastructure to accommodate the casino 
facilities
    <bullet>  Increase in construction jobs
    <bullet>  Increase in the city's local tax base
    <bullet>  More housing to meet the demand of workers with higher 
wages
    <bullet>  Increase in retail and hotel establishments
    We believe that the positives of having a casino in the Flint area 
will far outweigh any negatives. Therefore, Flint is in support of H.R. 
2176 and H.R. 4115, which will allow for the settlement of land claims 
in favor of the Bay Mills Indian Community and the Sault Ste. Marie 
Tribe of Chippewa Indians. The tribes will then be able to exercise 
their tribal rights to establish casinos within the state of Michigan.
    [NOTE: The Warranty Deed submitted for the record has been retained 
in the Committee's official files.]
                                 ______
                                 
    The Chairman. Thank you. Let me ask Chief Cantu a couple 
questions. You testified that both Port Huron and Romulus are 
in your tribe's aboriginal area. You also indicated 1986 
legislation was enacted settling your tribe's claims in 
southeast Michigan including lands in Port Huron and Romulus.
    Is it your position then that the tribe can veto any 
economic development opportunities by any government or 
individual because it is in your aboriginal territory even 
though you already accepted a cash settlement and waived your 
rights to such lands?
    Mr. Cantu. I don't think we can veto it, but when it comes 
into our ancestral lands that we have treaties that have been 
signed by the U.S. Government I think we have every right to 
protect what was originally signed to those treaties.
    The Chairman. Is that just for Indian tribes, though?
    Mr. Cantu. For a Indian tribe that is trying to come into 
our ancestral lands? Yes.
    The Chairman. Or any other economic development activities.
    Mr. Cantu. I would say any other Indian tribe coming into 
our ancestral lands.
    The Chairman. But not a Walmart?
    Mr. Cantu. No, not a Walmart. We are the sole signatories 
that, as mentioned, on those treaties, and nowhere does it say 
Sault Ste. Marie or Bay Mills on those treaties, it says the 
Saginaw Chippewa Indian Tribe.
    The Chairman. All right. In 2004 the Department of Interior 
prepared an internal memorandum signed by several high level 
Department officials including one who is now your lobbyist. 
This memo concluded that there is no evidence that Congress 
intended to limit gaming activity to existing reservation lands 
or within a close proximity.
    Do you have any evidence that contradicts this opinion and 
supports your view that the land claims exemption of IGRA 
intended that lands used for gaming must be in or near the land 
claim area?
    Mr. Cantu. I would have to check with that and get back 
with you on that.
    The Chairman. We would appreciate that.
    Mr. Cantu. Very well.
    The Chairman. Mr. Conroy, your testimony discusses the 
harsh economic conditions in the City of Flint and the expected 
benefits of a casino. Do you see these as short-term or long-
term benefits?
    Mr. Conroy. Well, I see it every day as people walk into my 
office. We have a lot of disaster citizens who are in need of a 
lot of help. With the diminution of manufacturing--and, Mr. 
Chairman, I would like to point out to you Michigan has been in 
the top five for 30 years of manufacturing, and of course we 
got hurt commensurate to that dominance that we had in that 
general kind of arena.
    So we have lost just a huge number of manufacturing jobs. 
They are not just in Detroit, they are not just in Flint.
    The Chairman. Yes. You still are a football coach from West 
Virginia, too, so you are probably going to get hurt again.
    Mr. Conroy. I wish you would have helped pay his way. 
Apparently he owes some money. We have some problems. We are 
working on them. We are balancing the budget, we are trying to 
make it work, we are pushing the school system to get better, 
we are trying to make a better city, we paved more streets, as 
I said, than any place in America in the last three consecutive 
years. Those are lane miles.
    So we are doing the best we can. Our crime went down this 
past year pretty dramatically. So we have done some things that 
are helpful and to make the city a better place to live, but we 
typically have been on the high charts in terms of negative 
news over the years, and we are trying to change that.
    The Chairman. Thank you. The gentleman from Michigan.
    Mr. Kildee. Thank you. Mr. Conroy, Joe, the City of Flint 
and Romulus in H.R. 4115, will be one or the other, and so 
there will be some competition to lure a casino into either one 
of those towns. Is Flint prepared to extend a helpful hand to 
the Sault Ste. Marie Tribe, and are they prepared to show them 
sites where a possible casino could be erected with all the 
parking needed for that?
    Mr. Conroy. Absolutely. We have had this issue come up for 
discussion many, many years, and you have been a part of that, 
Congressman Kildee, and we appreciate your support on this 
particular bill or these set of bills. Certainly, the City of 
Flint will be front and center in trying to cooperate and urge 
adoption of our locale with land and services.
    Mr. Kildee. That is very important. I do know that we have 
a very active city government now. It does reach out and try to 
make the city an attractive place for various types of 
enterprises, and that will be very important. I have the same 
confidence you have that we can make a very good presentation 
to the tribe. I send my best back to the mayor, too.
    Mr. Conroy. Thank you.
    The Chairman. The gentlelady from Michigan.
    Ms. Kilpatrick of Michigan. Thank you, Mr. Chairman, and 
thank you both for coming. It is good to see my colleague. I 
served 18 years with this gentleman in the legislature. Good to 
see you, Senator. I want to go back to the chief because I 
think he raised some very important issues here and he kind of 
brushed over them, but I had a chance to listen to you more 
closely.
    Are you alleging that there might be some illegal activity 
in the original land--I call it scheme, I don't know what it 
is, but I don't even want to use--in the original land whatever 
that whoever owns the land now--the person you mentioned name, 
and I didn't get it--was part of the original bill in the first 
place to get casinos down the line? Is that what you are 
alleging?
    Mr. Cantu. I am just asking that an investigation take 
place into that.
    Ms. Kilpatrick of Michigan. Did you say you had a deed or 
something that would show that the current person whose name is 
on the deed is now a developer for one of the tribes?
    Mr. Cantu. Yes, I do, and I have it for the record. I 
believe in my statement I was going to submit that as part of 
the record.
    Ms. Kilpatrick of Michigan. Without objection. I would like 
that submitted for the record, Mr. Chairman. I was here today 
on a whole other thing because I just think it is not right, it 
is a process we have on in Michigan and that is where it ought 
to be. What you have now put on the table is something far more 
severe which I hope this committee will look into and 
investigate.
    We are good elected officials, public servants, here. We do 
not want to be involved in anything that is illegal or looks 
like it is illegal. Now, you are the Chief of the Saginaw 
Chippewa Indian Tribe whose ancestral lands these two pots 
represent?
    Mr. Cantu. That is correct.
    Ms. Kilpatrick of Michigan. Mr. Chairman, with that, I will 
just implore the Committee to look further into the matter.
    The Chairman. Any further questions? We thank the panel. 
Thank you for being with us today and the testimony. The Chair 
wishes to thank all members for their participation today, both 
on the Committee and not on the Committee. We appreciate it. 
With that, Committee stands adjourned.
    [Whereupon, at 5:34 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    [A letter submitted for the record by Patrick J. Devlin, 
CEO, and Patrick F. Gleason, President, Michigan Building and 
Construction Trades Council, follows:]

[GRAPHIC] [TIFF OMITTED] T0622.013

    [A letter submitted for the record by The Honorable 
Jennifer Granholm, Governor, State of Michigan, follows:]

[GRAPHIC] [TIFF OMITTED] T0622.016

[GRAPHIC] [TIFF OMITTED] T0622.017


    [NOTE: Additional letters and an addendum submitted for the 
record by Governor Granholm have been retained in the 
Committee's official files.]
    [A letter submitted for the record by Shaun S. Groden, 
County Administrator/Controller, County of St. Clair, Michigan, 
follows:]
[GRAPHIC] [TIFF OMITTED] T0622.018

[GRAPHIC] [TIFF OMITTED] T0622.019

    [A statement submitted for the record by The Honorable 
Robert Kewaygoshkum, Tribal Chairman, The Grand Traverse Band 
of Ottawa and Chippewa Indians, follows:]

       Statement of Robert Kewaygoshkum, Councilor and Chairman, 
           Grand Traverse Band of Ottawa and Chippewa Indians

I. Summary.
    My name is Robert Kewaygoshkum and I am the Tribal Chairman and 
elected member of the Grand Traverse Band Tribal Council. I have served 
as Chairman since 2000. I would like to express my sincere appreciation 
for the opportunity to testify again on this matter on behalf of the 
Grand Traverse Band of Ottawa and Chippewa Indians and the Grand 
Traverse Band Tribal Council. <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Hereinafter ``Grand Traverse Band'' or ``GTB.''
---------------------------------------------------------------------------
    Mr. Chairman and members of this Committee, the Grand Traverse Band 
of Ottawa and Chippewa Indians opposes the enactment of both bills--
H.R. 2176, to provide for and approve the settlement of certain land 
claims of the Bay Mills Indian Community, and H.R. 4115, to provide for 
and approve the settlement of certain land claims of the Sault Ste. 
Marie Tribe of Chippewa Indians.
    Although the Grand Traverse Band and the Bay Mills Indian Community 
<SUP>2</SUP> and the Sault Ste. Marie Tribe of Chippewa Indians 
<SUP>3</SUP> have worked together for decades, striving for a sound and 
reasonable Federal Indian policy, we cannot stand beside our friends in 
this matter. If enacted, H.R. 2176 and H.R. 4115 would set an unhealthy 
precedent for Federal Indian fee-to-trust acquisition policy. They 
would unnaturally expand exceptions to the general prohibition against 
Indian gaming on lands acquired after October 17, 1988. They would 
promote inconsistent Congressional policy. And, they would violate an 
important agreement of the Indian Tribes in Michigan.
---------------------------------------------------------------------------
    \2\ Hereinafter ``Bay Mills'' or ``BMIC.''
    \3\ Hereinafter ``Sault Ste. Marie'' or SSMTCI.''
---------------------------------------------------------------------------
    The Grand Traverse Band does not generally oppose the attempts by 
Bay Mills or Sault Ste. Marie to improve the economic situation of 
their people. Nor do we oppose any attempt to establish a legally valid 
land claim to the Charlotte Beach properties.
    What the Grand Traverse Band opposes is the effect H.R. 2176 and 
H.R. 4115 would have upon Congressional policy and Federal Indian 
policy in the context of the Indian Reorganization Act and the Indian 
Gaming Regulatory Act; and we vehemently oppose any Port Huron and 
Romulus tribal casino projects that attempt to circumvent Section 9 of 
the 1993 Compact between the State of Michigan and the seven Michigan 
Indian Tribes requiring revenue sharing in the event a Michigan Tribe 
commences gaming in accordance with 25 U.S.C. Sec. 2719(b)(1)(A).
II. Interest of the Grand Traverse Band
    Bay Mills, Sault Ste. Marie and the Grand Traverse Band are among 
the legal successor signatories to the 1836 Treaty of Washington 
<SUP>4</SUP> and the 1855 Treaty of Detroit. <SUP>5</SUP> In the 1836 
treaty, the Grand Traverse Band, Bay Mills, and several other Ottawa 
and Chippewa bands ceded vast amounts of territory in the eastern half 
of the Upper Peninsula and the northwest third of the Lower Peninsula 
of the State of Michigan to the federal government in exchange for 
reservation lands on or near our respective traditional territories. 
The 1855 treaty set aside parcels of land for the establishment of 
additional reservations for the Grand Traverse Band and the other 
bands.
---------------------------------------------------------------------------
    \4\ 7 Stat. 491 (Mar. 28, 1836). The federally recognized 
signatories to the 1836 treaty were the Grand Traverse Band, Bay Mills, 
the Sault Ste. Marie Tribe of Chippewa Indians of Michigan, the Little 
River Band of Ottawa Indians, Michigan, and the Little Traverse Bay 
Bands of Odawa Indians.
    \5\ 11 Stat. 621 (Jul. 31, 1855).
---------------------------------------------------------------------------
    Bay Mills, Sault Ste. Marie, and my Tribe, the Grand Traverse Band, 
each operates gaming facilities in our respective Reservation 
communities. One of GTB's two facilities is located on land determined 
to have been restored to our Tribe as part of our restoration process. 
That Williamsburg facility, known as Turtle Creek, was the subject of 
Grand Traverse Band of Ottawa and Chippewa Indians v. United States 
Attorney for the Western District & State of Michigan, decided on April 
22, 2002. <SUP>6</SUP>
---------------------------------------------------------------------------
    \6\ 198 F. Supp. 2d 920, 925 (W.D. Mich. 2002).
---------------------------------------------------------------------------
    The Grand Traverse Band is very interested in establishing and 
maintaining a sound Federal Indian policy where the Federal Government 
and Indian Tribes work together to preserve Tribal cultures, Tribal 
lands, Tribal economic security, and stable Tribal governments.
    The two bills that are the subject of today's hearing attempt to 
circumvent a very important promise made by seven Michigan Tribes, 
including Bay Mills, Sault Ste. Marie and the Grand Traverse Band, when 
they entered into their IGRA Gaming Compacts with the State of Michigan 
in 1993. At that time, each of our seven Tribes pledged, not only to 
the State, but to each other, that we would not engage in economic 
warfare over gaming. Each Tribe agreed that it would pursue proposals 
to establish casinos far removed from its traditional territory only if 
it had first reached a revenue-sharing agreement with the other six 
Tribes.
    This inter-tribal agreement was critical to each Tribe's survival, 
because proposals to game far off-reservation in the more populous 
parts of the State posed then and pose today the real potential to 
choke off the revenues of casinos closer to home that the Tribes rely 
upon to fund essential governmental programs and for employment. H.R. 
2176, as proposed by Bay Mills, and H.R. 4115, as proposed by Sault 
Ste. Marie, brazenly violate that promise. Rather than honoring their 
Compact pledge, Bay Mills and Sault Ste. Marie have asked the federal 
Congress to impose federal legislation--based on a land claim that has 
never been proven--that would excuse them from complying with their 
inter-Tribal promises and would instead favor them to the great 
detriment of others, all in violation of the Federal trust 
responsibility to act with the interests of all Tribes in mind.
    These two bills would bypass the courts and force upon the local 
communities, Indian and non-Indian alike, remedies with all kinds of 
ramifications, both intended and perhaps, unintended. Chief among these 
would be Congress's validation of the effort by Bay Mills and Sault 
Ste. Marie to evade the promise made in their IGRA gaming compacts that 
they would not pursue casino proposals far off-reservation without 
first taking into account the interests of other Michigan Tribes.
III. H.R. 2176 and H.R. 4115 Attempt to Circumvent the Promise Made By 
        Bay Mills and Sault Ste. Marie to Other Michigan Tribes Under 
        Section 9 of the Tribal-State IGRA Compacts.
    The tribal-state IGRA gaming compacts negotiated in 1993 between 
seven Michigan Tribes, including Bay Mills, Sault Ste. Marie, Grand 
Traverse and the State, contain an identical provision, Section 9, 
which declares as follows:
        An application to take land in trust for gaming purposes 
        pursuant to Sec. 20 of IGRA (25 U.S.C. Sec. 2719) shall not be 
        submitted to the Secretary of the Interior in the absence of a 
        prior written agreement between the Tribe and the State's other 
        federally recognized Indian Tribes that provides for each of 
        the other Tribes to share in the revenue of the off-reservation 
        gaming facility that is the subject of the Sec. 20 application.
See, e.g., A Compact Between the Bay Mills Indian Community and the 
State of Michigan, Sec. 9 (emphasis added).
    The meaning of, and intent behind Section 9, are clear. At the time 
that the 1993 Compacts were negotiated, each of the seven signatory 
Tribes was operating casinos within its traditional territory. Under 
IGRA and the Compacts, each Tribe could continue to operate those 
casinos in separate, independent efforts to foster tribal self 
governance and economic development. Furthermore, pursuant to the three 
section 2719(b)(1)(B) exceptions described above, each of the Tribes 
could develop additional IGRA-governed gaming facilities within its 
traditional territory. However, if any Tribe sought to take land into 
trust for gaming purposes outside of its traditional territories, each 
Tribe agreed that it first had to work out revenue sharing agreements 
with the other Tribes. In this way, the Michigan Tribes pledged not to 
engage in a form of economic warfare that would ultimately injure all 
of them. They promised not to engage in an endless game of attempting 
to leapfrog over one another in moving closer to major population 
centers while cutting off revenues to their less aggressive brethren. 
Only when they had worked out cooperative arrangements among themselves 
would the Michigan Tribes then attempt to secure the approval of the 
Secretary of the Interior, and the concurrence of the Governor, for 
far-reaching off-reservation gaming proposals under Section 20 of IGRA.
    Shortly after the 1993 Compacts were finalized, the Michigan Tribes 
demonstrated their understanding of how Section 9 of the Compacts was 
intended to work. The Tribes worked cooperatively on a proposal to take 
land into trust for gaming under IGRA in the City of Detroit. They 
crafted an appropriate revenue-sharing agreement, and only because then 
Governor Engler, at the last minute, withdrew his support for the 
proposal, did the collaborative effort not come to fruition. 
<SUP>7</SUP>
---------------------------------------------------------------------------
    \7\ After the tribal IGRA deal was blocked, the State issued 
licenses for three commercial (non-IGRA) casinos in Detroit. All 
operate under authority of state law and not the federal Indian Gaming 
Regulatory Act although one of the owner-operators is the Sault Ste. 
Marie Tribe.
---------------------------------------------------------------------------
    By contrast, the legislation being advanced by Bay Mills and Sault 
Ste. Marie would establish IGRA-authorized gaming operations far from 
the traditional territories of those two Tribes without involving the 
other Michigan Tribes and without any regard for their well-being. H.R. 
2176 and H.R. 4115 are nothing more than an obvious attempt to 
circumvent Section 9 of the 1993 IGRA Compacts and the protection 
Section 9 offers other Tribal signatories.
    Bay Mills and Sault Ste. Marie seek to establish casinos in a part 
of the State far removed from their traditional territories in 
violation of their pledge to first work out a revenue sharing 
arrangement with other Tribes. Under normal circumstances, these 
proposals would fall squarely within Section 2719(b)(1)(A) of IGRA--the 
Tribes would have to convince both the Secretary of the Interior and 
the Governor that gaming proposals should move forward. However, 
because an application under Section 2719(b)(1)(A) would trigger the 
revenue-sharing requirements of Section 9, and because they seek to get 
a free pass from the Congress to avoid the revenue sharing and 
governmental cooperation underpinning that Compact provision, Bay Mills 
and Sault Ste. Marie have brazenly sought to characterize their land-
grab efforts in southern Michigan as involving the settlement of a land 
claim in the Upper Peninsula. As detailed above, however, the validity 
of their land claims in Chippewa County has never been established. 
Moreover, no court of law has ever construed the ``settlement of a land 
claim'' provision in IGRA to authorize Tribes to establish casinos far 
removed from the traditional territory subject to the land claim being 
settled as is here proposed by Bay Mills and Sault Ste. Marie, even 
assuming the existence of a valid claim.
IV. Overview of H.R. 2176 and H.R. 4115
    H.R. 2176 contains a legislative remedy provision for a single 
Michigan Indian Tribe--the Bay Mills Indian Community. Likewise, H.R. 
4115 contains a legislative remedy provision for another Michigan 
Indian Tribe--the Sault Ste. Marie Tribe. Each involves what amounts to 
a significant amendment to both the Indian Gaming Regulatory Act 
<SUP>8</SUP> and the Indian Reorganization Act, <SUP>9</SUP> as well as 
a deviation from Federal Indian gaming and Indian land policy. As both 
IGRA and the IRA have had profound and wide-ranging impacts on Indian 
Tribes throughout the United States, Congressional divergence from the 
public policy behind these influential and fundamental statutes must be 
carefully and strictly scrutinized by both Indian Tribes nationwide and 
by Congress.
---------------------------------------------------------------------------
    \8\ Pub. L. 100-497 (Oct. 17, 1988), 102 Stat. 2467, codified at 25 
U.S.C. Sec. 2710, et seq. (hereinafter ``IGRA'').
    \9\ Act of June 18, 1934, c. 576, 48 Stat. 984, codified at 25 
U.S.C. Sec. 461, et seq. (hereinafter ``IRA'').
---------------------------------------------------------------------------
    H.R. 2176 would ratify an agreement between the Bay Mills Indian 
Community and the State of Michigan to settle a land claim by Bay Mills 
to property on or near Charlotte Beach in Chippewa County, Michigan in 
the Upper Peninsula. <SUP>10</SUP> Likewise, H.R. 4115 would similarly 
ratify an agreement between Sault Ste. Marie and the State of Michigan. 
These two Tribes are asking Congress to ratify settlement agreements 
that provide an unprecedented remedy to purported Indian land claim--
instead of paying monetary damages for trespass or providing land on or 
near Charlotte Beach, the State would give up land far from the Bay 
Mills and Sault Ste. Marie reservations and treat that land as part of 
the settlement of a land claim in accordance with IGRA's exceptions to 
gaming on lands acquired after the passage of the statute in 1988. 
<SUP>11</SUP> Unlike previous land claim settlement acts, Congress is 
not a party to the negotiations to the Settlement Agreement underlying 
H.R. 2176 and H.R. 4115. Congress did not and cannot negotiate the 
terms of H.R. 2176 and H.R. 4115--Congress may only ratify the 
Settlement Agreement hashed out between Bay Mills and the State of 
Michigan and between Sault Ste. Marie and the State of Michigan.
---------------------------------------------------------------------------
    \10\ Hereinafter the ``Settlement Agreement.''
    \11\ See S. 2986 Sec. 3(b)(2); Settlement Agreement, at 2.
---------------------------------------------------------------------------
    The Grand Traverse Band believes the land claim settlement 
exception in Sec. 2719(b)(1)(B)(i) should be applied only where federal 
or state liability or potential liability is well established. That 
way, Congress is an active negotiator in the terms of the settlement 
and not simply a ratifying body of settlement agreements over which 
Congress has no control because no federal liability has been found.
V. Enactment of H.R. 2176 and H.R. 4115 Would Violate Federal Indian 
        Policy.
A.  H.R. 2176 and H.R. 4115 Would Allow Gaming on Lands Acquired After 
        October 17, 1988 Approximately 350 Miles from the Bay Mills 
        Reservation and approximately 355 miles from the Sault Ste. 
        Marie Reservation.
    H.R. 2176 and H.R. 4115 would ratify agreements between the State 
of Michigan and the Bay Mills Indian Community and the Sault Ste. Marie 
Tribe. The Bay Mills agreement would allow the Bay Mills to acquire 
from the State of Michigan land in the City of Port Huron, Michigan, 
near Detroit, to be held in trust by the Secretary of Interior, with 
the concomitant tribal civil adjudicatory and regulatory jurisdiction, 
as well as tribal criminal jurisdiction, provided for by applicable 
Federal and Tribal law. <SUP>12</SUP> Port Huron is approximately 125 
miles from the nearest boundary of the lands ceded in the Treaty of 
1836 that both the Grand Traverse Band and Bay Mills signed. 
Furthermore, the Port Huron parcel is approximately 350 miles from the 
Bay Mills Reservation in the Upper Peninsula of Michigan. Similarly, 
the Sault Ste. Marie agreement would allow the Sault Ste. Marie Tribe 
to acquire from the State of Michigan land in the City of Romulus, 
Michigan, near Detroit, to be held in trust by the Secretary of 
Interior, with the concomitant tribal civil adjudicatory and regulatory 
jurisdiction, as well as tribal criminal jurisdiction, provided for by 
applicable Federal and Tribal law. <SUP>13</SUP> Romulus is 
approximately 125 miles from the nearest boundary of the lands ceded in 
the Treaty of 1836 that both the Grand Traverse Band and Sault Ste. 
Marie signed. Furthermore, the Romulus parcel is approximately 350 
miles from Sault Ste. Marie lands in the Upper Peninsula of Michigan.
---------------------------------------------------------------------------
    \12\ See Bay Mills Settlement Agreement, at 3.
    \13\ See Sault Ste. Marie Settlement Agreement, at 3.
---------------------------------------------------------------------------
    Dicta from federal cases suggests strongly that Congress intended 
for geographic limitations on the three exceptions to the general 
prohibition against gaming on after-acquired property in 
Sec. 2719(b)(1)(B). In TOMAC v. Norton, <SUP>14</SUP> District Court 
Judge Robertson noted that the Pokagon Band of Potawatomi Indians' 
attempt to have land put into trust in accordance with the restored 
lands exception was justified in part because the land they wished to 
game upon was within the Band's traditional territory and complied with 
inherent ``geographic and policy limits'' of the IRA and IGRA. 
<SUP>15</SUP> Additionally, in Sac and Fox Nation v. Norton, 
<SUP>16</SUP> the Tenth Circuit adopted a limited definition of the 
term ``reservation'' to mean ``...any land reserved from an Indian 
cession to the federal government....'' <SUP>17</SUP>
---------------------------------------------------------------------------
    \14\ 193 F. Supp. 2d 182 (D. D.C. 2002).
    \15\ Id. at 186 & 192 (citing South Dakota, 69 F. 3d at 882-83 & 
n.3).
    \16\ 240 F. 3d 1250 (10th Cir. 2001), cert. denied, Wyandotte 
Nation v. Sac and Fox Nation of Missouri, 122 S. Ct. 807 (2002).
    \17\ 240 F. 3d at 1266 (quoting Felix F. Cohen's Handbook of 
Federal Indian Law 34 (2nd ed. 1982)) (emphasis added).
---------------------------------------------------------------------------
    Congress could not have imagined that an Indian Tribe would settle 
a land claim with a state defendant in exchange for the right to game 
on lands far from the boundaries of the Tribe's reservation or 
territory. A review of the extensive Senate Report accompanying IGRA 
indicates that Congress did not opine on the possibility that Indian 
Tribes would establish gaming facilities substantially far from their 
own reservations or traditional territories. <SUP>18</SUP>
---------------------------------------------------------------------------
    \18\ See generally S. Rep. 100-446 (Aug. 3, 1988).
---------------------------------------------------------------------------
    The Grand Traverse Band's gaming facilities are situated well 
within the traditional territory of the Band. The Peshawbestown 
facility, Leelanau Sands, is located in the heart of the 1855 treaty 
reservation near the center of the Band's modern government operations 
in Peshawbestown, Michigan. The Turtle Creek site is well within the 
Band's traditional territory near the exterior boundaries of the 1836 
treaty reservation. In the Turtle Creek decision, Senior District Judge 
Douglas W. Hillman found that the Turtle Creek site is located ``at the 
heart of the region that comprised the core of the Band's aboriginal 
territory and was historically important to the economy and culture of 
the Band.'' <SUP>19</SUP> Moreover, Judge Hillman found that Grand 
Traverse Band members ``occupied the region continuously from at least 
100 years before treaty times to the present.'' <SUP>20</SUP> Finally, 
Judge Hillman found that the Turtle Creek site ``was located within the 
contemplated reservation, which was not designated for four years after 
the treaty was signed.'' <SUP>21</SUP> Therefore, Turtle Creek was 
subject to the Sec. 2719(b)(1)(B) exceptions.
---------------------------------------------------------------------------
    \19\ Grand Traverse Band of Ottawa and Chippewa Indians v. U.S. 
Attorney, 198 F. Supp. 2d 920, 925 (W.D. Mich. 2002) (citations 
omitted).
    \20\ Id. (citation omitted).
    \21\ Id. (citations omitted).
---------------------------------------------------------------------------
    Unlike the Grand Traverse Band, which has proven in federal court 
that its off-reservation gaming facility was within the Band's 
traditional and historical territory, neither Bay Mills nor Sault Ste. 
Marie Tribe has shown any traditional or historical connection in any 
land near Port Huron or Romulus. Port Huron and Romulus are far beyond 
the 1836 ceded territory and none of the current five federally 
recognized signatories to that treaty had significant traditional or 
historical connections to that part of the state. We believe that 
Congress intended the settlement of a land claim exception in 
Sec. 2719(b)(1)(B)(i) to only include lands where the beneficiary Tribe 
has a historical connection, unlike Sec. 2719(b)(1)(A), which expressly 
provides for a comprehensive procedure for such gaming, including 
consultation with other affected state and tribal parties and 
independent determinations by the Secretary of Interior with the 
concurrence of the state governor in compliance with the law of that 
state. <SUP>22</SUP>
---------------------------------------------------------------------------
    \22\ The Grand Traverse Band participated in an effort to bring 
Class III gaming to Detroit, Michigan in the mid-1990s in accordance 
with Sec. 2719(b)(1)(A). This participation was only made after the 
Band rescinded its previously enacted Resolutions opposing gaming 
outside the traditional and historic areas of Indian tribes and only 
after the repeated solicitations and negotiations on a revenue sharing 
agreement in compliance with Section 9 of the Tribal State Compact 
signed by all (then seven) Michigan Tribes. The Grand Traverse Band 
decided at that time to make the attempt to commence gaming in Detroit 
only because of the revenue sharing protections offered all the 
Michigan Tribes under Section 9. The Band entered into consultation 
with the proper parties and followed the comprehensive procedure 
contained in that exception, only to be denied concurrence by the 
governor of the State of Michigan.
---------------------------------------------------------------------------
B.  H.R. 2176 and H.R. 4115 Create a Remedy for the Bay Mills Indian 
        Community and for Sault Ste. Marie Tribe By Purporting to 
        Settle a Land Claim that Has Never Established Federal 
        Government Liability in Any Court of Law
    H.R. 2176 and H.R. 4115 would ratify a land claim settlement where 
the underlying land claim has never been proven to be valid. In both 
state and federal court, the Bay Mills Indian Community and the Sault 
Ste. Marie Tribe have attempted to establish a valid land claim to the 
Charlotte Beach property. <SUP>23</SUP> The essence of land claim is 
that the federal government issued patents to tribal land on or near 
Charlotte Beach to a non-Indian prior to the Congressional ratification 
of the 1855 treaty. <SUP>24</SUP> Bay Mills and, by extension, Sault 
Ste. Marie, claim that the land, which was eventually lost to county 
property tax foreclosure, remained in trust and should never have been 
subject to state or local taxes. <SUP>25</SUP>
---------------------------------------------------------------------------
    \23\ See Bay Mills Indian Community v. Western United Life 
Assurance Co., No. 2:96-CV-275, 26 Indian L. Rep. 3039 (W.D. Mich., 
Dec. 11, 1998), aff'd, 208 F. 3d 212, 2000 WL 282455 (6th Cir., Mar. 8, 
2000)); Bay Mills Indian Community v. Court of Claims, State of 
Michigan, 244 Mich. App. 739, 626 N.W. 2d 739 (2001), cert. denied, 122 
S. Ct. 1303 (2002).
    \24\ See 626 N.W.2d at 172.
    \25\ See id.
---------------------------------------------------------------------------
    To this point, however, each of the attempts to establish a land 
claim have failed to affirmatively establish a land claim. For example, 
in Bay Mills Indian Community v. Court of Claims, State of Michigan, a 
case decided in the Michigan state courts and to which the United 
States Supreme Court recently denied certiorari, the Michigan Court of 
Appeals held that Bay Mills did not establish a prima facie case that 
the State of Michigan and federal government violated the Non-
Intercourse Act. <SUP>26</SUP> The same court also found that the land 
at issue was properly subject to county property taxes because the 
federal government intended for the land to be alienable when it issued 
the patents. <SUP>27</SUP> The federal court litigation, entitled Bay 
Mills Indian Community v. Western United Life Assurance Co., also 
failed to establish a land claim as it was dismissed for the refusal of 
the Sault Ste. Marie Tribe of Chippewa Indians of Michigan to waive its 
sovereign immunity and participate in the litigation. <SUP>28</SUP> As 
such, the liability of the State of Michigan or the federal government 
has never been established.
---------------------------------------------------------------------------
    \26\ See id. at 173-174.
    \27\ See id. at 172-73 (citing Cass Co., Minnesota v. Leech Lake 
Band of Chippewa Indians, 524 U.S. 103 (1998)).
    \28\ See 26 Indian L. Rep. at 3041-42 (finding the Sault Tribe 
indispensable to further proceedings in the Charlotte Beach land claims 
litigation).
---------------------------------------------------------------------------
    The State of Michigan has embraced a foolish position in its 
decision to settle the Charlotte Beach land claims on the unfounded 
basis that they negatively impact land values and the collection of 
real property taxes by local units of government. So far, these land 
claims to Charlotte Beach have all been rejected for the purposes of 
establishing federal liability. Put another way, the State and these 
two Indian Tribes are asking the Congress to ratify a land claim 
settlement agreement in which no court has validated the underlying 
claim.
C.  H.R. 2176 and H.R. 4115 Constitute an Undisciplined Expansion of 
        the Indian Reorganization Act's Geographic Limitations Upon 
        Fee-to-Trust Transfers.
    In the modern era, when Congress recognized Indian Tribes, it would 
limit the Secretary's discretion to accept land into trust to lands 
within the Indian Tribe's service area having some rational, factual 
link to where tribal members lived and worked. Examples from the past 
several years include the Auburn Indian Restoration Act, <SUP>29</SUP> 
the Little Traverse Bay Bands of Odawa Indians and the Little River 
Band of Ottawa Indians Act, <SUP>30</SUP> the Paskenta Band of Nomlaki 
Indians of California Act, <SUP>31</SUP> and the Graton Rancheria 
Restoration Act. <SUP>32</SUP> H.R. 2176 and H.R. 4115 would reverse 
the disciplined policy Congress has followed for a decade of limiting 
mandatory fee-to-trust acquisitions to lands acquired within a Tribe's 
service area, which in those instances closely corresponds with the 
Tribe's historic area. Neither Sault Ste. Marie nor Bay Mills' 
traditional territory and service area extends to St. Clair County--nor 
does it extend to any other county within approximately 200 miles of 
St. Clair County.
---------------------------------------------------------------------------
    \29\ 25 U.S.C. Sec. 1300l-2(a) (``The Secretary may accept any 
additional acreage in the Tribe's service area pursuant to the 
authority of the Secretary under [25 U.S.C. Sec. 465].'').
    \30\ 25 U.S.C. Sec. 1300k-4(a) (``The Secretary may accept any 
additional acreage in each of the Bands' service area--pursuant to the 
authority of the Secretary under [25 U.S.C. Sec. 465].'').
    \31\ 25 U.S.C. Sec. 1300m-3 (``The Secretary may accept any 
additional acreage in each of the Bands' service area--pursuant to the 
authority of the Secretary under [25 U.S.C. Sec. 465].'').
    \32\ 25 U.S.C. Sec. 1300n-3 (``Upon application by the Tribe, the 
Secretary shall accept into trust for the benefit of the Tribe any real 
property located in Marin or Sonoma County, California, for the benefit 
of the Tribe after the property is conveyed or otherwise transferred to 
the Secretary and if, at the time of such conveyance or transfer, there 
are no adverse legal claims to such property, including outstanding 
liens, mortgages, or taxes.'').
---------------------------------------------------------------------------
    Bay Mills has no governmental authority in the area near Port 
Huron. Likewise, the Sault Ste. Marie Tribe has no governmental 
authority near Romulus. Under H.R. 2176 and H.R. 4115, Bay Mills and 
Sault Ste. Marie would begin exerting jurisdiction over lands far from 
their own homeland and on lands directly within the jurisdiction of the 
State of Michigan, the City of Port Huron, and St. Clair County and the 
City of Romulus.
D.  H.R. 2176 and H.R. 4115 Set a Precedent Where Any Non-Federal 
        Defendant to an Indian Land Claim Could Settle the Claim With 
        an Indian Tribe Even Where No Federal Liability Is Proven and 
        Utilize the Land Claim Settlement Exception in Sham 
        Transactions.
    Allowing Bay Mills, Sault Ste. Marie and the State of Michigan to 
invoke a federal remedy for an Indian land claim in which there is no 
federal or state liability establishes an unprincipled precedent. The 
states are no more than outside parties to IGRA's land claim settlement 
exception. Congress could not have intended otherwise. If Congress 
ratifies the Settlement Agreement, then any party--states, counties, 
local landowners--could settle a land claim of dubious validity with an 
Indian Tribe and demand to enjoy the benefits of the land claim 
settlement exception. Large non-Indian gaming interests could see fit 
to acquire property with the cloud of potential Indian land claims, 
settle the claim with the Tribe, and then strike a deal with the Tribe 
to invoke the land claim settlement exception to IGRA's general 
prohibition. These two bills could trigger a flood of similar ' Indian 
``land claims''. Exactly how do the Members of Congress who are 
proposing H.R. 2176 and H.R. 4115 intend to say no to them after 
pushing through these bills?
E.  H.R. 2176 and H.R. 4115 are Inconsistent With Past Congressional 
        Treatment of the Bay Mills Indian Community and Sault Ste. 
        Marie Tribe Reservations.
    Congress created the Bay Mills reservation with its current 
geographic limitations in 1860 by authorizing the purchase of nearly 
800 acres of land owned by the Missionary Society of the Methodist 
Episcopal Church at Iroquois Point, Michigan. <SUP>33</SUP> Congress' 
purchase for the bands that would later become the Bay Mills Indian 
Community formed the core of the lands that constitute Bay Mills' 
traditional territory in the modern era. Congress has already spoken as 
to where Bay Mills must focus its efforts to establish a stable tribal 
government and provide for its membership. H.R. 2176 contemplates the 
reversal of a 142-year old Congressional policy decision to locate BMIC 
within its traditional territory.
---------------------------------------------------------------------------
    \33\ See Charles E. Cleland, Rites of Conquest 289 (1992) (citing 
12 Stat. 44, 58 (1860)).
---------------------------------------------------------------------------
    Grand Traverse Band was recognized as an Indian Tribe on May 27, 
1980 through the procedures now found at 25 CFR Part 83 and established 
a Tribal Constitution under the provisions of the Indian Reorganization 
Act of 1934. The territory of the Grand Traverse Band includes a five 
county service area in Northwest Michigan. The core of the Tribe is a 
20,000 acre reservation on the ``North Shore of Grand Traverse Bay'' 
established by the 1836 Treaty and the several townships by the Treaty 
of 1855. The Tribe has trust land in each of the areas established by 
the Tribal Constitution, the 1836 Treaty and the 1855 Treaty.
    The Sault Ste. Marie Tribe of Chippewa Indians was administratively 
recognized in 1972. <SUP>34</SUP> The core area, program service area, 
and traditional territory of the Tribe is located in the Upper 
Peninsula of Michigan.
---------------------------------------------------------------------------
    \34\ See City of Sault Ste. Marie v. Andrus, 532 F. Supp. 157 
(1980).
---------------------------------------------------------------------------
VI. H.R. 2176 and H.R. 4115 Contravene Federal Indian Law and Create a 
        Significant Expansion to the Exceptions to the General 
        Prohibition on Indian Gaming on After-Acquired Lands
    The policy enunciated by Congress in 1988 by the passage of IGRA 
would be undermined by the enactment of H.R. 2176 and H.R. 4115. IGRA 
provides a general prohibition of gaming on lands acquired after the 
passage of IGRA on October 17, 1988. <SUP>35</SUP> Generally, Congress 
contemplated that gaming on after-acquired lands must be located within 
or contiguous to the boundaries of a reservation of the Indian tribe. 
<SUP>36</SUP>
---------------------------------------------------------------------------
    \35\ See 25 U.S.C. Sec. 2719.
    \36\ See 25 U.S.C. Sec. 2719(a)(1).
---------------------------------------------------------------------------
    The Congressional policy behind the enactment of the IRA would also 
be undermined by the passage of H.R. 2176 and H.R. 4115. A major 
provision of the IRA, section 465, exists to replace lands lost by 
Indian Tribes, not to create a wholly artificial land base for Indian 
Tribes. The policy behind the Indian Reorganization Act was to 
alleviate the ravages of the Congressional allotment policy in 1934 and 
to ``instruct'' the Secretary that land should be acquired to replace 
the millions of acres of Indian land lost as a result of the allotment 
policy and placed in trust to prevent its alienation.'' <SUP>37</SUP> 
The policy to restore and replace the lands lost during the allotment 
era was codified most particularly in 25 U.S.C. Sec. 465 and in 
Department of Interior regulations implementing Sec. 465. <SUP>38</SUP> 
That policy was expressly stated in the regulations governing land 
acquisition:
---------------------------------------------------------------------------
    \37\ State of South Dakota v. United States Dept. of Interior, 69 
F.3d 878, 887 (Murphy, C.J., dissenting), vacated by Department of 
Interior v. South Dakota, 519 U.S. 919, on remand to State of South 
Dakota v. United States Dept. of Interior, 106 F.3d 247 (8th Cir. 
1996).
    \38\ See 25 C.F.R. Part 151.
---------------------------------------------------------------------------
          (a) Subject to the provisions contained in the acts of 
        Congress which authorize land acquisitions, land may be 
        acquired for a tribe in trust status: (1) when the property is 
        located within the exterior boundaries of the tribe's 
        reservation or adjacent thereto, or within a tribal 
        consolidation area; or (2) when the tribe already owns an 
        interest in the land; or (3) when the Secretary determines that 
        the acquisition of the land is necessary to facilitate tribal 
        self-determination, economic development, or Indian housing. 
        <SUP>39</SUP>
---------------------------------------------------------------------------
    \39\ 25 C.F.R. Sec. 151.3.
---------------------------------------------------------------------------
For example, where an Indian Tribe asks the Secretary of Interior to 
take off-reservation lands into trust on behalf of that Tribe, the 
location of the land relative to the Tribe's boundaries is critical 
and, ``as the distance between the tribe's reservation and the land to 
be acquired increases, the Secretary give[s] greater scrutiny to the 
tribe's justification of anticipated benefits from the acquisition.'' 
<SUP>40</SUP>
---------------------------------------------------------------------------
    \40\ 25 C.F.R. Sec. 151.11(b).
---------------------------------------------------------------------------
    The intersection of the IRA and IGRA creates a sound and 
predictable public policy that requires Class III gaming to be 
conducted on or near Indian reservations and Indian Country. As noted 
above, following this policy prevents a situation where an Indian Tribe 
exerts jurisdictional authority in a small pocket of trust land far 
from the Tribe's traditional territory. For example, land taken into 
trust under the restored lands exception does not extend further than a 
few miles from the beneficiary tribe's traditional territory. Several 
recent federal cases, many of them involving Michigan Indian Tribes, 
highlight this geographic limitation in finding that gaming conducted 
on or near the reservation may be conducted in accordance with the 
exceptions to the general prohibition:
    <bullet>  In our own case, Grand Traverse Band of Ottawa and 
Chippewa Indians v. United States Attorney, <SUP>41</SUP> the district 
court for the Western District of Michigan held that our gaming 
facility located only 1.5 miles from the exterior boundaries of our 
1836 treaty reservation constitutes land that is within the restored 
lands exception to IGRA.
---------------------------------------------------------------------------
    \41\ 198 F. Supp. 2d 920, 925 (W.D. Mich. 2002).
---------------------------------------------------------------------------
    <bullet>  In TOMAC v. Norton, <SUP>42</SUP> the district court for 
the District of Columbia upheld an Interior decision to take a parcel 
into trust on behalf of the Pokagon Band of Potawatomi Indians of 
Michigan and Indiana that was located within the Band's traditional 
territory, specifically citing the ``geographic and policy limits'' 
inherent in both the IGRA and the IRA in the context of taking land 
into trust on behalf of Indian tribes.
---------------------------------------------------------------------------
    \42\ 193 F. Supp. 2d 182, 186 & 192 (D. D.C. 2002) (citing South 
Dakota, 69 F. 3d at 882-83 & n.3).
---------------------------------------------------------------------------
    <bullet>  In Sault Ste. Marie Tribe of Chippewa Indians v. United 
States, <SUP>43</SUP> the Sixth Circuit upheld a decision by the 
Secretary of Interior to take into trust a parcel for gaming purposes 
on behalf of the Little Traverse Bay Bands of Odawa Indians. The land 
at issue is located within the Band's 1836 treaty reservation area.
---------------------------------------------------------------------------
    \43\ 288 F. 3d 910, 912-13 (6th Cir. 2002).
---------------------------------------------------------------------------
    <bullet>  In Confederated Tribes of Coos, Lower Umpqua, and Siuslaw 
Indians v. Babbitt, <SUP>44</SUP> the D.C. district court held that a 
parcel held in trust for gaming purposes that was contiguous to the 
Confederated Tribes' reservation enjoyed the benefits of the restored 
lands exception.
---------------------------------------------------------------------------
    \44\ 116 F. Supp. 2d 155, 157 (D. D.C. 2000).
---------------------------------------------------------------------------
    <bullet>  In City of Roseville v. Norton, <SUP>45</SUP> the D.C. 
district court upheld a Department of Interior decision to take a 
parcel into trust for United Auburn Indian Community of the Auburn 
Rancheria of California under the restored land exception that was 40 
miles from the boundary of its former rancheria, which had been 
terminated.
---------------------------------------------------------------------------
    \45\ ----F. Supp. 2d----, 2002 WL 31027695, at *2 (D. D.C., Sept. 
11, 2002).
---------------------------------------------------------------------------
Other federal cases finding that the proposed gaming initiatives do not 
comply with IGRA exemplify the geographic limitations Congressional 
policy has placed on Indian gaming:
    <bullet>  In Kansas v. United States, <SUP>46</SUP> the Tenth 
Circuit held that the National Indian Gaming Commission acted in an 
arbitrary and capricious manner by finding that the Miami Tribe of 
Oklahoma had authority to game on land within the State of Kansas, 180 
miles from the tribe's reservation, for which the tribe had received 
payment in the 1960s settling its claim to the land. The Tenth Circuit 
found that the Miami Tribe did not have civil regulatory jurisdiction 
over the parcel and could not game on the land in compliance with IGRA.
---------------------------------------------------------------------------
    \46\ 249 F. 3d 1213 (10th Cir. 2001), on remand to State of Kansas 
ex rel. Graves v. United States, No. 99-2341-GTV, 2002 WL 1461978 (D. 
Kan., Jun. 25, 2002).
---------------------------------------------------------------------------
    <bullet>  In Confederated Tribes of Siletz Indians of Oregon v. 
United States, <SUP>47</SUP> the Ninth Circuit found that the 
Confederated Tribes' attempt to have the Secretary of Interior to 
acquire land in trust for gaming purposes that was located 50 miles 
from the reservation could not happen without the concurrence of the 
governor of the State of Oregon in accordance with 25 U.S.C. 
Sec. 2719(b)(1)(A).
---------------------------------------------------------------------------
    \47\ 110 F. 3d 688 (9th Cir.), cert. denied, 522 U.S. 1027 (1997).
---------------------------------------------------------------------------
    <bullet>  In Sac and Fox Nation v. Norton, <SUP>48</SUP> the Tenth 
Circuit ruled that Wyandotte Nation's effort to compel the Secretary of 
Interior to take land into trust for purposes of gaming in accordance 
with the adjacent lands exception (Sec. 2719(a)(1)), in part, because 
the property, located in Kansas City, Kansas, was located so far from 
the Wyandotte Nation in Oklahoma.
---------------------------------------------------------------------------
    \48\ 240 F. 3d 1250, 1266-67 (10th Cir. 2001), cert. denied, 
Wyandotte Nation v. Sac and Fox Nation of Missouri, 122 S. Ct. 807 
(2002).
---------------------------------------------------------------------------
    Congress did not intend for the land claims settlement exception to 
be exploited in the manner proposed in H.R. 2176 and H.R. 4115. The 
three exceptions contained in Sec. 2719(b)(1)(B) should be read in the 
same context. The Grand Traverse Band opposes the dramatic expansion of 
the exceptions to the general prohibition against gaming on after-
acquired lands.
VII. Conclusion and Suggestions for Future Action.
    The Grand Traverse Band does not come before the House Natural 
Resources Committee with a bone to pick with the Bay Mills Indian 
Community or the Sault Ste. Marie Tribe of Chippewa. On numerous 
occasions, the Grand Traverse Band has stood side-by-side with Bay 
Mills and Sault Ste. Marie on issues of Federal Indian policy, 
including the U.S. v. Michigan litigation and when we stood together to 
preserve our fledgling gaming interests. We know better than any other 
Michigan Indian Tribe that Bay Mills and Sault Ste. Marie have been our 
fellow leaders in pursuing self-determination, self-governance and 
self-reliance for Indian Tribes nationwide. We also recognize that Bay 
Mills in particular is situated far from tourist routes and cannot 
benefit as some other tribes have from gaming on their reservation.
    However, Grand Traverse and Bay Mills and Sault Ste. Marie differ 
on this one policy point--the land claim settlement exception to the 
general prohibition against gaming on after-acquired lands must be 
limited geographically. Sound historical and public policy reasons 
underlying both the Indian Reorganization Act and the Indian Gaming 
Regulatory Act compel the Grand Traverse Band to reach this conclusion.
    The Grand Traverse Band cannot support H.R. 2176 and H.R. 4115 and 
urge defeat of these bills. Thank you for reviewing our testimony. If 
there are questions you believe we can answer, please do not hesitate 
to ask.
                                 ______
                                 
    [A statement submitted for the record by Jacob Miklojcik, 
President, Michigan Consultants, follows:]

     Statement of Jacob Miklojcik, President, Michigan Consultants

    Mr. Chairman and committee members; I am speaking in support of 
H.R. 4115. The project will have significant beneficial impacts on the 
City of Romulus and all of Wayne County, including Detroit.
    I am a graduate of Carnegie-Mellon University and the University of 
Michigan, and have been providing consulting services for over 25 
years. My professionally involvement with casinos in Michigan began in 
1993 when Michigan Consultants prepared the first analysis of the 
potential for casinos in Detroit. Since that time we have worked for 
many of the tribes in Michigan and for Detroit casino interests. 
Furthermore, our gaming analyses have been used for projects in over a 
dozen other states and in foreign countries. We are retained for 
private advice to a greater degree than public documents; therefore, I 
have had to prove the accuracy and integrity of my work to those 
investing hundreds of millions of dollars.
    We were asked by the Sault Ste. Marie Tribe of Chippewa Indians to 
provide an updated market analysis for a casino in Romulus and to 
estimate economic impacts. All our analyses are based a highly detailed 
``bottom-up'' model that carefully considers demand and supply and 
utilizes U.S. Census geocoding, mapping, survey data, and the 
experienced gained from over 60 past studies. To keep my testimony 
brief, allow me to enter into the record the key findings from our 
analysis of the proposed Romulus casino.
    <bullet>  Native American casino and hotel in Romulus, Michigan, 
near international airport, approximately 24 miles from Detroit.
    <bullet>  Capital investment of approximately $270 million; 
significant size, yet smaller than each of the new Detroit facilities.
    <bullet>  Employee estimates (full time equivalents)--
      <all>  On-site 2,762
      <all>  Indirect (vendors & other off-site) 551
      <all>  Induced, ripple, effect from sequential spending 1,988
      <all>  Total ongoing 5,301
      <all>  Construction work years of 1,434 on-site.
    <bullet>  Estimated public revenues (full year) from Romulus 
casino:
      <all>  State Compact payments--$33+ million.
      <all>  Local Board compact payments--$6+ million.
      <all>  Other payments to the State from northern Michigan 
operations will also begin.
      <all>  Numerous other revenues from employee income taxes, excise 
taxes, taxes paid by vendors, fees, etc.
      <all>  The tribe will work with local/county officials to address 
infrastructure costs.
    The primary market components for the facility will be market 
growth and gaming dollars that otherwise will flow to other states, 
Ontario, other Native America facilities, and to Windsor, Ontario. 
Wayne County needs to compete with new casino competition near Battle 
Creek and (likely) Grand Rapids--unless responded to, this new 
competition will attract patrons from western Wayne other eastern 
Michigan counties.
    Any impacts on Detroit casinos will represent only an insignificant 
part of their projected $1.6+ billion annual gaming market capture. The 
MGM operation, a facility and management I think extremely highly of, 
will have been serving loyal patrons for over ten years before the 
Romulus casino could open; plus Romulus is 24 miles away. The jobs and 
new revenues captured within the county will far exceed any theoretic 
decline at Detroit casinos. Of the thousands of jobs and contracts made 
possible, many will be filled by Detroiters. I am also impressed that 
the tribe is finalizing job growth and protection details with 
representatives of organized labor. Tribal officials have also shown a 
willingness to discuss all area impacts with local/regional officials.
    Let me add that past work has involved many areas within economic 
development, housing, transportation, energy and human services. I have 
been involved in the successful siting of major automotive plants. 
Simply put, Michigan needs jobs and investment, we need to halt dollars 
from leaving our state and to attract dollars into our state. Few other 
feasible projects can begin investment as quickly and create as many 
good paying jobs as the two casino projects that would be made possible 
by the legislation before your committee.
    Thank you for your time and consideration.
                                 ______
                                 
    [The prepared statement of Congressman Dean Heller 
follows:]

 Statement of The Honorable Dean Heller, a Representative in Congress 
                        from the State of Nevada

    I want to begin by thanking the Chairman for agreeing to have a 
hearing on these bills and proceeding with regular order. As one of 
those who requested this procedure, I appreciate that consideration.
    As we know, H.R. 2176 and H.R. 4115 would settle two Native 
American land claims in Michigan for tribes currently with claims in 
the northern portion of the state. Those two tribes want land taken 
into trust for gaming further south, about 300 miles away.
    I have real concerns that these bills have significant negative 
effects on existing law already in need of reform. Off-reservation 
Indian gaming has become highly controversial matter. These two bills 
sharply divide members of both parties in Michigan, divide local Native 
American tribes, and divide this committee and other Members of the 
House. Finally, these bills circumvent the existing procedure in place 
to approve of tribal gaming, and trample states' rights on this issue. 
For all of these reasons, they are bad bills and should be opposed.
    Coming from Nevada, I obviously support gaming, including 
Michigan's right to have gaming, so its expansion isn't the issue. But 
the issue of off-reservation gaming is highly controversial and 
divisive for many communities, and what we do in this committee has 
clear, national repercussions.
    Circumventing existing law on the matter, IGRA, has far-reaching 
consequences. And make no mistake--passing these bills is circumventing 
IGRA. The unprecedented congressional approval of off-reservation 
gaming will set off shockwaves across the nation and among tribes. 
Dozens of tribes with no gaming facilities will see this move as yet 
another green light to set up in nearly any economically viable 
location. Other tribes with gaming on historical land may want a new 
location for their facility in order to remain competitive.
    The door to off-reservation gaming has been opening wider with each 
passing year, and these bills kick it open for a nationwide explosion 
of Indian casinos in nearly any location. Numerous states have already 
fought over this off-reservation matter. This Committee has done work 
to reform this law in the past, and should do so again, instead of 
continuing the status quo. IGRA is now 20 years old, and perhaps we 
should take a good look at it before passing these bills.
    IGRA wisely allows for States to take the lead on these issues, for 
tribal-state compacts to be negotiated, and for the Department of the 
Interior and BIA to play proper oversight roles. These bills wipe all 
that away, without any close understanding of Michigan law. I would 
object to this committee trampling Nevada law, as I think most members 
would of their own states.
    The Michigan delegation is deeply divided over this issue, and not 
along party lines. Why should we force something so divisive without 
more time to address it a without a closer understanding of state law? 
I understand House Judiciary Chairman Conyers says that Michigan law is 
being ignored on this matter.
    Even the Tribes in Michigan are divided. I join the members of this 
committee who support the rights of Native Americans, including those 
rights under IGRA. Nevada has a number of casinos owned and operated in 
whole or part by tribes. But we are treating some differently than 
others by approving this ``reservation shopping''.
    Additionally, the rights of the state of Michigan are clearly being 
circumvented as well. Michigan law is being trumped by the fact that 
we, here in this committee, are going to make law that should be set by 
the state, as already set forth in IGRA. Approving these bills is de 
facto approving the gaming compacts for Michigan--documents we haven't 
read or examined, and which have had little or no discussion.
    I find that hard to swallow. Is this committee prepared to do the 
oversight needed to grant gaming compacts? Nevada has procedures in 
place to ensure high ethical standards are used when granting gaming 
licenses, and I assume Michigan does as well. Are we going to assume 
that responsibility, that liability, those efforts on this issue in 
place of the State of Michigan?
    I urge the defeat of these bills because they are simply bad policy 
in so many ways, are controversial matters that have not been vetted 
appropriately, and they are divisive for tribes, our colleagues 
throughout Congress, and many of our constituents. Thank you.
                                 ______
                                 
    [NOTE: The documents listed below have been retained in the 
Committee's official files.]
    <bullet>  2002 Charlotte Beach, Chippewa County, Michigan, 
Land Claim Settlement Agreement.
    <bullet>  Treaty with Ottowa and Chippewa, 1855,
    <bullet>  Wolfram and Ikawa, ``An Analysis of Proposed 
Indian Casino Gaming in Romulus'' dated November 2003; 
Settlement Agreement between the Sault Ste. Marie Tribe of 
Chippewa Indians and the State of Michigan.
                                ------                                

    [A Legal History of the Sault Ste. Marie Tribe submitted 
for the record follows:]

[GRAPHIC] [TIFF OMITTED] T0622.022

                                 <all>

</pre></body></html>
